<html>
<title> - EMERGING THREATS: ASSESSING PUBLIC SAFETY AND SECURITY MEASURES AT NUCLEAR POWER FACILITIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
  EMERGING THREATS: ASSESSING PUBLIC SAFETY AND SECURITY MEASURES AT 
                        NUCLEAR POWER FACILITIES
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2003

                               __________

                           Serial No. 108-43

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform






                        U.S. GOVERNMENT PRINTING OFFICE
89-018                         wASHINGTON  : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
WILLIAM J. JANKLOW, South Dakota     CHRIS BELL, Texas
                                     JOHN F. TIERNEY, Massachusetts

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                  J. Vincent Chase, Chief Investigator
                        Robert A. Briggs, Clerk
                    David Rapallo, Minority Counsel















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 10, 2003...................................     1
Statement of:
    Blumenthal, Richard, attorney general, State of Connecticut; 
      John T. Wiltse, director, Office of Emergency Management, 
      State of Connecticut; and Richard Bond, first selectman, 
      town of New Canaan.........................................   123
    Conklin, W. Craig, Technological Services Division, Office of 
      National Preparedness, Emergency Preparedness and Response 
      Directorate, Department of Homeland Security; and Hubert 
      Miller, NRC Region 1 Administrator, Nuclear Regulatory 
      Commission, accompanied by Lawrence Chandler, Associate 
      General Counsel for Hearings, Enforcement and 
      Administration, Nuclear Regulatory Commission..............    67
    Wells, Jim, Director, Natural Resources and the Environment, 
      U.S. General Accounting Office; Michael J. Slobodien, 
      director, emergency programs, Entergy Nuclear Operations, 
      Inc.; William F. Renz, director, nuclear protection 
      services and emergency preparedness, Dominion Resources 
      Services, Inc.; Angelina S. Howard, executive vice 
      president, Nuclear Energy Institute; Alex Matthiessen, 
      executive director, Riverkeeper; and David Lochbaum, 
      nuclear safety engineer, Union of Concerned Scientists.....   157
Letters, statements, etc., submitted for the record by:
    Blumenthal, Richard, attorney general, State of Connecticut, 
      prepared statement of......................................   126
    Bond, Richard, first selectman, town of New Canaan, prepared 
      statement of...............................................   146
    Conklin, W. Craig, Technological Services Division, Office of 
      National Preparedness, Emergency Preparedness and Response 
      Directorate, Department of Homeland Security, prepared 
      statement of...............................................    71
    Howard, Angelina S., executive vice president, Nuclear Energy 
      Institute, prepared statement of...........................   197
    Kelly, Hon. Sue, a Representative in Congress from the State 
      of New York:
        Followup questions and responses.........................   115
        Indian Point Emergency Preparedness Independent Expert 
          Task Force report......................................    12
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     7
    Lochbaum, David, nuclear safety engineer, Union of Concerned 
      Scientists, prepared statement of..........................   278
    Matthiessen, Alex, executive director, Riverkeeper, prepared 
      statement of...............................................   253
    Miller, Hubert, NRC Region 1 Administrator, Nuclear 
      Regulatory Commission, prepared statement of...............    88
    Renz, William F., director, nuclear protection services and 
      emergency preparedness, Dominion Resources Services, Inc., 
      prepared statement of......................................   189
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Prepared statement of....................................     3
        Various prepared statements..............................    53
    Slobodien, Michael J., director, emergency programs, Entergy 
      Nuclear Operations, Inc., prepared statement of............   182
    Wells, Jim, Director, Natural Resources and the Environment, 
      U.S. General Accounting Office, prepared statement of......   161
    Wiltse, John T., director, Office of Emergency Management, 
      State of Connecticut, prepared statement of................   133

















  EMERGING THREATS: ASSESSING PUBLIC SAFETY AND SECURITY MEASURES AT 
                        NUCLEAR POWER FACILITIES

                              ----------                              


                         MONDAY, MARCH 10, 2003

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Turner, Janklow, Kucinich 
and Tierney.
    Also present: Representative Kelly.
    Staff present: Lawrence Halloran, staff director and 
counsel; J. Vincent Chase, chief investigator; Robert A. 
Briggs, clerk; Mackenzie Eaglen, fellow; David Rapallo, 
minority counsel; and Jean Gosa, minority assistant clerk.
    Mr. Shays. This hearing entitled, ``Assessing Public Safety 
and Security Measures at Nuclear Facilities,'' is called to 
order.
    The attacks of September 11, 2001 should have seared this 
hard truth into our national consciousness: Security is not a 
state of rest. It is not a static measure. Sanctuary from the 
terrorists of the 21st century demands a new level of vigilance 
to protect the public from known and emerging threats.
    Heightened awareness of new threats and proactive 
countermeasures are particularly imperative to protect critical 
infrastructure facilities, fixed assets of enormous importance 
to national economic and social well-being. Of those, civilian 
nuclear power plants stand as highly attractive targets of 
terrorism.
    Today, we ask if Federal regulators are demanding the 
physical security and preparedness enhancements needed to 
protect public health and safety from nuclear terrorism. Recent 
reports suggest the answer may be no. Although specific to the 
Indian Point reactor complex in Buchanan, NY, observations by 
the General Accounting Office [GAO], and to a private security 
firm point to systemic weaknesses in nuclear incident response 
planning that have implications for every community within 50 
miles of any of the Nation's 64 active reactor sites.
    A release of radiation caused by terrorists is a unique 
event, one that requires acknowledgment of the distinct factors 
and fears that will define the public response to such an 
incident. Yet the chairman of the Nuclear Regulatory Commission 
[NRC], recently wrote, ``Necessary protective actions and 
response are not predicated on the cause of events.''
    I disagree. That view overstates the reach of an all-
hazards approach to first responder capabilities and ignores 
the obvious need to accommodate unique causal elements in any 
effective response scenario. Just as flooded roads will alter 
an evacuation strategy, transportation routes flooded by the 
spontaneous evacuation of frightened families will impede 
response to an attack on a nuclear plant.
    One dangerous element not predicated on the cause of an 
incident, but certainly capable of compounding the negative 
effects, is poor communication between Federal, State and local 
officials. County, city and town leaders wait at the far end of 
a dysfunctional daisy chain of confusing directives from the 
Federal Emergency Management Agency [FEMA], the NRC and plant 
operators. In the event of a terrorist attack on a reactor, 
timely information will be local officials' most potent weapon 
against the panic and overreach that terrorists hope will drive 
property damage and loss of life. Emergency response plans and 
exercises have to include more accurate, more direct 
communications to local officials and the public.
    It is telling, no nuclear plant license has ever been 
suspended or revoked due solely to weaknesses in emergency 
response and evacuation planning. Deficiencies can linger for 
years. Compliance with critical incident response and 
evacuation planning has been allowed to become a static 
bureaucratic exercise. That has to change.
    If the planning requirement is to be real, not just 
cosmetic, reasonable assurance a plan protects public health 
and safety cannot be achieved through paperwork alone. It must 
be gained through robust exercises and measurable outcomes for 
which operators are held closely accountable.
    We appreciate the testimony of all of our witnesses today, 
appreciate that they came to Washington to testify before this 
committee as we continue our examination of terrorism and the 
protection of critical infrastructure from new threats.
    [The prepared statement of Hon. Christopher Shays follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. At this time, the Chair would invite Mr. 
Kucinich, the ranking member of this committee, to make a 
comment.
    Mr. Kucinich. Good afternoon. Welcome to our distinguished 
witnesses. Glad you could be with the committee today.
    Mr. Chairman, I want to thank you for your ongoing interest 
in the security of this country's nuclear power plants. It is 
certainly one of America's most critical homeland security 
priorities. The administration knows this. Indeed, in the 2002 
State of the Union Address, the President warned that nuclear 
facilities could be attacked and with dire consequences. The 
President asserted that U.S. forces found diagrams of American 
nuclear power plants, in the caves of Afghanistan.
    On December 12th of last year, the administration was 
supposed to submit to Congress a report on the best way to 
efficiently and safely provide potassium iodide to communities 
surrounding nuclear power plants in the event of an attack. 
Potassium iodide is a very cheap, widely available tablet that 
can prevent fatal thyroid illness caused by radiation exposure. 
We have seen no sign of the report. We required the report, 
because prior to September 11, there was no comprehensive plan 
to buy potassium iodide and distribute it to local communities.
    Before September 11, the nuclear utility industry lobbied 
against such measures because they feared people would become 
alarmed about the dangers of nuclear power. After September 11, 
however, it became clear that nuclear power facilities are 
indeed likely targets. After September 11, the Nuclear 
Regulatory Commission recommended that States consider 
including potassium iodide in their emergency evacuation plans. 
The NRC offered to buy potassium iodide so States could cover a 
10-mile radius surrounding nuclear power plants.
    Anyone with a knowledge of past incidents, such as Three 
Mile Island and Chernobyl, would acknowledge that 10 miles is a 
very modest step. Many of us in Congress believe the NRC did 
not go far enough. For this reason, Congress expanded this to a 
20-mile radius as part of the bill we passed last June. We also 
gave local government greater flexibility to obtain potassium 
iodide when State governments failed to do so.
    To ensure that the administration would purchase the 
potassium iodide, distribute it and administer it in the most 
effective manner possible, we also mandated the report I 
described, which was to be conducted in conjunction with the 
National Academy of Sciences that was due in December. Here we 
are 3 months later and still no report. Apparently no one in 
the administration even allocated funding for this report until 
after it was due. It appears the administration hasn't even 
contacted the National Academy of Sciences to contract for the 
study. Eight months of inaction. Last week we were told that 
someone in the administration finally wrote a memo to the 
National Academy asking them to begin work, but they are just 
now appointing the panelists who will begin to study this 
issue.
    How could the administration so completely ignore a 
directive of Congress? More importantly, how could they ignore 
this critical issue and the families living in neighborhoods 
where the nuclear power plants are located? Perhaps it is 
because the homeland security apparatus is in disarray? Clearly 
the new Department is not yet operating coherently, and now 
that Governor Ridge has left the White House, President Bush 
has failed to appoint a successor, so nobody has assumed the 
responsibilities of cross-agency issues such as this one.
    Maybe this has just fallen through the cracks, or maybe it 
is because the administration's focus is entirely on Iraq. 
Maybe this is just one more example of tunnel vision diverting 
attention away from severe threats here at home, or perhaps the 
administration is relying on the industry to do the right thing 
as it has in many other cases.
    Industry officials have stated publicly they believe 
nuclear power plants are overly defended, but an NRC review of 
force-on-force exercises demonstrates precisely the opposite. 
NRC officials found significant weakness in armed responses in 
37 of 81 mock attacks, or 46 percent of the time. The NRC 
concluded that these mock attackers would have been able to 
cause core damage, and in many cases a probable radioactive 
release.
    Whatever the reason for the inaction, the administration's 
conduct is not acceptable. The administration promised to make 
homeland security a top priority. After September 11, we cannot 
leave critical homeland security matters, such as the safety of 
our nuclear power plants, to the industry, and we cannot let 
these critical items slip through the cracks or be ignored.
    It is important that our Chair has called this meeting, and 
I want to thank him for doing so. I think that we need to have 
action taken, and to begin immediately. I want to thank the 
Chair.
    Mr. Shays. Thank the gentleman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Shays. At this time the gentleman would recognize the 
vice chair of the committee, Mr. Michael Turner.
    Mr. Turner. No statement.
    Mr. Shays. Mr. Janklow, do you have any comments?
    Mr. Janklow. No, sir. I would rather hear the witnesses.
    Mr. Shays. We will do that. Let me welcome and ask 
unanimous consent that our colleague Sue Kelly be allowed to 
participate in this hearing. She is a member of the 
Transportation Committee as well as Financial Services, and is 
the vice chair of that committee. We welcome you here.
    She, like a number in the United States, has a plant in her 
district and has some expertise in this issue.
    Would you like to make an opening statement, Mrs. Kelly?
    Mrs. Kelly. Thank you, Mr. Chairman. I want to express my 
thanks to both you and Mr. Kucinich for holding their hearing 
today. It addresses some issues that are on the minds of many 
Americans as we confront the challenges that are associated 
with the war on terror.
    The hearing addresses some matters of particular 
significance to many of my constituents because they live 
within the radius of the Indian Point Nuclear Plant, which is 
in my district in Buchanan, NY. So it is a good thing the 
hearing will include witnesses who can speak directly to some 
of their concerns.
    The hearing is also beneficial in providing a followup to a 
hearing that we held 2 weeks ago in the Transportation and 
Infrastructure Committee, which examined some of the problems 
with Indian Point's emergency plans and the Federal 
Government's inadequate attempts to resolve them.
    I said 2 weeks ago and I will say again today that FEMA has 
to respond to our local officials and to the issues that were 
recently raised by the report released by the former FEMA 
Administrator, James Lee Witt, which concluded that the current 
emergency plans for Indian Point were inadequate to protect 
public safety.
    [The information referred to follows:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Kelly. Instead of browbeating our local officials into 
accepting emergency plans that they are clearly uncomfortable 
with, FEMA needs to be addressing local officials and 
addressing their concerns and reassessing the impact of 
terrorism that a dense population may have on an accident at 
Indian Point, and it may have on the emergency plans that we 
need to formulate.
    FEMA's outdated approach to Indian Point's emergency plans 
has to change. At that hearing, FEMA was given by the 
committee, at my request, a 30-day deadline to respond to those 
matters, and I sincerely hope they are now using that time 
wisely and will be able to provide answers which indicate that 
they are now finally taking the concerns of local officials and 
the Witt report seriously. Any further actions to intimidate 
the State and localities into rubber-stamping plans that they 
have already refused to certify is not going to be tolerated.
    Again, I want to thank the witnesses for being here today, 
and I thank you, Mr. Chairman and Mr. Kucinich, for holding the 
hearing. I look forward to today's testimony, and thank you for 
allowing me to speak.
    Mr. Shays. We are delighted to have your participation. 
Thank you for being here.
    Mr. Tierney, I am going to make a motion; then we will 
allow you a chance to sit down a second.
    I would ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record, and that the record remain open for 3 days. Without 
objection, so ordered.
    I ask further unanimous consent that all Members be 
permitted to include their written statement in the record. 
Without objection, so ordered.
    With that in mind, I would point out the following 
individuals have submitted testimony for the record: 
Congresswoman Nita Lowey from New York, Congressman Eliot Engel 
from New York, Dr. Makhijani, Institute for Energy and 
Environmental Research, Linda M. Lewis, Emergency Management 
Specialist, Columbia, MD, and also a statement from the Project 
on Government Oversight, referred to as POGO.
    [Note.--The Project on Government Oversight report 
entitled, ``Nuclear Power Plant Security, Voices from Inside 
the Fences,'' may be found in subcommittee files.]
    [The information referred to follows:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


I will swear them in, and then, Mr. Tierney, if you would like 
to make a statement, we will welcome that.
    We have Mr. W. Craig Conklin, Director, Technological 
Services Division, Office of National Preparedness, Emergency 
Preparedness and Response Directorate, Department of Homeland 
Security. We have Mr. Hubert Miller, Region 1 Administrator, 
Nuclear Regulatory Commission [NRC].
    Gentlemen, I will swear you in, and then we will hear from 
Mr. Tierney, and then we will go to you all. If you would 
please stand.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative.
    As you know, gentlemen, we swear in all of our witnesses 
before this committee.
    Mr. Tierney, welcome. If you have any comments, love to 
hear them.
    Mr. Tierney. Thank you, Mr. Chairman. Thank you for having 
this important hearing. Thanks to our witnesses that will be 
testifying soon.
    I think we all are aware of the pending hostilities that 
potentially may erupt at any time. As a consequence, we have to 
be prepared for anything that might happen in this country, not 
the least of which is preparedness with regard to safeguarding 
our nuclear facilities and the materials at those power plants.
    There are six communities in my district that fall within 
10 miles of a nuclear power plant at Seabrook, NH, and even 
though we are across the border of a State, we are not that far 
away from any reaction that might occur. People in these 
communities are concerned and fearful that we are not prepared.
    I visited the Seabrook site and have gone through their 
processes for testing and preparedness and was not all that 
impressed. I think there is plenty of room for improvement 
there.
    I think this administration needs to really focus its 
attention on a myriad of issues, not the least of which is the 
security of these facilities. I note that last March Secretary 
Abraham asked for a substantially larger amount of money than 
the administration allocated toward these needs for protecting 
nuclear facilities.
    I also note there was some discussion, Mr. Chairman, in 
some of the hearings last year about increasing the radius 
through which KI would be distributed, the potassium iodide 
would be distributed, and I, amongst others, had recommended up 
to 50 miles. We eventually saw that the administration proposal 
for 20 miles carried the day, but know that even at this point 
in time, we don't have the report that was supposed to be out 
in December for assuring us of how that was to take place. I 
guess we can feel less than secure that it is going to be done 
by the due date in June, that there is going to be a plan in 
place for that.
    So I think we have a lot of work to do. This is a well-
timed hearing. I look forward to the testimony and hope that we 
can get the answers and find out that we are embarking on some 
more secure operations.
    Mr. Shays. I thank the gentleman.
    I just would tell our witnesses that we ask you to limit 
your statement to 5 minutes, but we will allow you to go up to 
10. Our preference is that you finish closer to the 5, but what 
you have to put in the record is more important than just 5 
minutes.
    So, we do the clock this way. It is a 5-minute clock, and 
then we turn it on for another 5 minutes, and you never want to 
get up to 10, though. OK.
    Mr. Conklin.

    STATEMENTS OF W. CRAIG CONKLIN, TECHNOLOGICAL SERVICES 
     DIVISION, OFFICE OF NATIONAL PREPAREDNESS, EMERGENCY 
 PREPAREDNESS AND RESPONSE DIRECTORATE, DEPARTMENT OF HOMELAND 
   SECURITY; AND HUBERT MILLER, NRC REGION 1 ADMINISTRATOR, 
    NUCLEAR REGULATORY COMMISSION, ACCOMPANIED BY LAWRENCE 
 CHANDLER, ASSOCIATE GENERAL COUNSEL FOR HEARINGS, ENFORCEMENT 
       AND ADMINISTRATION, NUCLEAR REGULATORY COMMISSION

    Mr. Conklin. Thank you. Good afternoon, Mr. Chairman and 
members of the committee. I am Craig Conklin, Director of the 
Technological Services Division of the Emergency Preparedness 
and Response Directorate of the Department of Homeland 
Security. My division administers FEMA's Radiological Emergency 
Program [REP]. I am pleased to be with you today to talk about 
the REP program and the issues relating to offsite emergency 
preparedness for nuclear power facilities.
    I will discuss the establishment of the program, Federal, 
State and local program responsibilities, program guidance and 
regulations, FEMA's revised exercise evaluation methodology, 
the results of the September 24 exercise, the status of the 
offsite plans around Indian Point; and then I will talk about 
the two reports concerning Indian Point and Millstone that were 
prepared by the New York State contractor, and the July 2001 
GAO report on Indian Point.
    FEMA recognizes and respects the concerns of the people of 
New York regarding the health and safety of those living and 
working in the vicinity of the Indian Point Energy Center. The 
health and safety of the public is our primary concern.
    It is FEMA's responsibility to assure that the emergency 
plans in place provide a reasonable assurance that the health 
and safety of the people around the plants can be protected. 
Exercises of the plants are an important component of that 
process, as they allow participants to identify strengths and 
weaknesses in the plans so that corrective actions can be 
taken.
    FEMA believes that the emergency response plans must be 
flexible and dynamic. We expect them to be continually updated 
based on changing circumstances or improved procedures. For 
example, the plans should be updated based on the 2000 census 
population figures and the new evacuation time estimates that 
are currently being developed.
    In an Executive order dated December 7, 1979, President 
Carter transferred the Federal lead role in offsite 
radiological emergency planning and preparedness from the U.S. 
Nuclear Regulatory Commission to the Federal Emergency 
Management Agency, now the Emergency Response and Preparedness 
Directorate of the Department of Homeland Security. In response 
to this new role, FEMA established the REP program. It is 
important to note that the REP program responsibilities 
encompass only offsite activities; that is, State, tribal and 
local government emergency planning preparedness activities 
that take place beyond the physical boundaries of the power 
plants. On-site activities continue to be the responsibility of 
the NRC.
    The REP program works closely with 450 State, tribal and 
local governments to ensure that there is reasonable assurance 
that offsite response officials can protect their citizens in 
the event of a nuclear power plant accident.
    FEMA's responsibilities are to review and evaluate offsite 
response plans, evaluate the exercises conducted to determine 
whether such plans can be implemented, make findings on the 
adequacy of those plans and exercises, and submit those to the 
NRC.
    We also provide radiological emergency response training to 
first responders and other officials, and at the national level 
we chair the Federal Radiological Preparedness Coordinating 
Committee. At the regional level, we chair the Regional 
Assistance Committee, which has Federal agency membership in 
the nine FEMA regions with power plants; respond to requests to 
the NRC; and of course we provide regulatory oversight, 
rulemaking, and guidance as necessary for effective program 
implementation.
    State, tribal and county responsibilities are to prepare 
plans and procedures for responding to an accident at a nuclear 
power plant and review and update them annually as necessary; 
conduct biennial exercises; ensure that first responders and 
State, local and tribal officials are trained properly; and 
finally, to ensure that a response organization's facilities, 
equipment and supplies are adequate for response to a 
radiological incident.
    In 1980, we issued joint guidance between FEMA and NRC, 
which establishes the basis for the REP program in a document 
called Criteria for Preparation and Evaluation of Radiological 
Emergency Plans and Preparedness in Support of Nuclear Power 
Plants. This document contains the planning standards and 
related criteria that we use in evaluating and reviewing 
offsite response organizations' plans, as well as guidance for 
onsite aspects addressed by the NRC.
    In 1996, we published a Federal Register notice addressing 
a strategic review of the REP program and requested comments on 
the REP program. Based on comments received, one of the major 
recommendations made to FEMA--made by FEMA was to streamline 
the program and eliminate the exercise checklist and 
inconsistences among regions. As a result, a new exercise 
evaluation methodology was developed that is more results-
oriented and does not depend on a checklist.
    The September 24, 2002, exercise conducted at Indian Point 
was done to evaluate the offsite emergency response, and NRC 
evaluated the onsite emergency response. The purpose of the 
exercise was to determine whether the offsite plans and 
procedures for responding to an emergency at Indian Point could 
be implemented to protect the general public. Exercise 
participants included responders and emergency managers from 
Westchester, Rockland, Orange and Putnam Counties in New York; 
Bergen County, NJ; and the State of New York.
    The exercise scenario that was used to drive the players' 
actions involved a series of mechanical malfunctions that 
hypothetically resulted in the degradation of plant operating 
systems and within 4 hours a release of radioactive material 
from the plant that forced the offsite response organizations 
to take actions to protect the public.
    The specifics of the scenario and the offsite extent of 
play were developed and agreed upon by a scenario development 
team. This team consisted of representatives from the licensee, 
State and local governments, the NRC and FEMA. Although we 
recommended several times that the exercise contain a terrorism 
component, the other members of the team decided that such a 
component should not be incorporated into an exercise at this 
time, but should be considered for future exercises.
    The State and local organizations participating in that 
exercise demonstrated the satisfactory knowledge of the 
emergency response plans and procedures, their actions were 
implemented adequately, and there were no issues that arose to 
the level of a deficiency. However, evaluators did identify 13 
areas requiring corrective action during this evaluation. None 
of these, though, were raised to an issue that would have 
endangered the general public.
    Historically we work closely with our State and tribal 
partners to ensure the public health and safety remains the 
focal point of the program. We will continue to do so for the 
future.
    Specific to Indian Point, we have worked closely with them 
to prepare for the exercise, as well as upgrade local plans and 
procedures. We have participated in or supported over 50 other 
activities, including meetings of out-of-sequence exercises, 
training opportunities, planning sessions, and other 
independent communications between the FEMA regional office and 
the State and counties.
    In January 2002, we provided the State and counties an 
extensive matrix identifying plant information that we need in 
order to conduct our review. However, we did not receive that 
information until a few weeks before the September exercise, 
thus limiting our ability to thoroughly evaluate these plans 
for consistency with our regulations. In recognition of the 
constraints and limitations on the State and local governments, 
we proceeded with the exercise with the understanding that we 
would complete this review after the exercise.
    In November 2002, we had such a meeting with the States and 
established a May 2003 timeframe for completion of State and 
county plan updates that would permit inclusion of the critical 
evacuation time estimates into the process.
    In February 2003, we provided the State and counties 
opportunities to submit the updated plans as previously agreed 
upon. If the State and county submitted the information before 
this date, FEMA will evaluate it and then decide if we can make 
a determination of reasonable assurance. This deadline provides 
FEMA with an opportunity to review the final State report that 
is due shortly and the State plans for distribution of KI that 
was submitted in February 28, 2003.
    The most significant remaining issues include the letters 
of agreement, the updated evacuation time estimate, study of 
the Joint News Center procedures; school district, preschool, 
day care center plans for the children.
    Two reports on Indian Point, the review of the emergency 
preparedness on Indian Point and Millstone, issued--that 
recently finalized, I believe that appendix came out today, 
validated our findings, especially those specifically 
identified in January 2002 and December 3, 2002, and February 
21 correspondence. Examples of valid information contained in 
the report include an improved public outreach effort should be 
used to better educate all sectors of the public on their role. 
FEMA should develop an outcome-based exercise program for 
exercise evaluation, and we have developed such an approach, 
and it was used in the exercise. However, the report may 
contain information that will help us to better attain this 
goal, and planning must account for the strong possibility of 
spontaneous evacuation.
    FEMA is committed to continuous improvement of the REP 
program, and will evaluate each recommendation in the report to 
determine its validity with regard to the level of emergency 
preparedness at Indian Point, or to its applicability 
programwide. FEMA is looking forward to evaluating the final 
report that came out today.
    The GAO report in 2000 was as a result of a steam generator 
or tube rupture accident at Indian Point. The GAO report 
included suggestions for improving the program, and concluded 
that some improvements had been made to the lessons learned 
since the accident, but further improvement was needed.
    The final report was published in 2001. There are several 
recommendations I would be pleased to discuss with you. The 
report concluded overall that the Director of FEMA determine 
the reasons why the four counties responsible for the response 
at the plant are not knowledgeable about FEMA's initiatives 
and, if necessary, reassess its current practices of 
communicating through the State during nonemergency situations. 
After completion of the report, FEMA responded to the 
recommendations by communicating with the counties and States 
simultaneously, and, as detailed in my written testimony, 
greatly increased communications with the four risk counties.
    In conclusion, the REP program is committed to diligent 
support of the efforts of the State and local governments to 
improve the REP planning and exercise process.
    Again, I would like to thank you, Chairman Shays and 
Representative Kucinich, for the opportunity to appear before 
you today. And I will be happy to answer any questions you may 
have.
    Mr. Shays. Thank you, Mr. Conklin.
    [The prepared statement of Mr. Conklin follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Mr. Miller. You don't have to read as fast.
    Mr. Miller. Good afternoon, Mr. Chairman and members of the 
subcommittee. It is a pleasure to appear before you today to 
discuss NRC actions with respect to security and emergency 
preparedness at nuclear power facilities.
    Security and emergency preparedness are key elements of the 
defense in depth safety philosophy NRC has long employed in 
regulating nuclear power plants. This philosophy, which 
requires redundancy of safety systems to reduce the potential 
for accidents, imposes high standards of quality on operations 
and construction of plants, recognizes that accidents can still 
occur.
    For this reason containment structures and other safety 
features are required to minimize the potential for release of 
radioactivity from a site. Through emergency planning, 
additional mechanisms are put in place to protect the public in 
the unlikely event these barriers fail.
    Security of nuclear power plants has been given top 
priority at NRC since the September 2001 terrorist attack. 
Within minutes of the attack, NRC directed plants across the 
country to go to the highest level of security. While for many 
years all nuclear power plants have been required to have 
security programs sufficient to defend against violent assaults 
by well-armed, well-trained attackers, numerous additional 
steps have been taken since September 2001 to thwart terrorist 
acts.
    Through formal orders NRC has required increased security 
posts and patrols, substantial additional physical barriers, 
and greater stand-off distances for vehicle bombs, stricter 
site access controls, to name only a few of these measures.
    Through inspections we have been able to confirm that 
required security enhancements are being implemented at all 
plants. We have recently begun enhanced force-on-force 
exercises; in fact, we expect the Indian Point facility to be 
among the first involved in this initiative.
    Working with the Department of Homeland Security, other 
Federal agencies and the Intelligence Community, we have 
continued comprehensive assessment of security programs, among 
other things evaluating the current threat environment, and 
addressing issues such as security guard fatigue and training 
which have emerged since September 11.
    For many years, NRC has made legislative proposals 
addressing a wide spectrum of activities that would further 
enhance security of NRC-licensed activities. We will continue 
to work with Congress and look forward to favorable action on 
these proposals.
    Let me now turn to emergency planning. Following the 
accident at Three Mile Island, the NRC determined that improved 
emergency planning by Federal, State and local governments was 
needed. NRC issued planning standards which required, among 
other things, the establishment of two emergency planning zones 
around each nuclear plant site. The first is a zone covering an 
area of about 10 miles in all directions from a plant, where 
the greatest potential for radiological effects from a release 
exists. Plans must address protective actions for members of 
the public in this zone, which could involve evacuation or 
sheltering. A second extended planning zone of about 50 miles 
is also established to deal with potential lower-level, long-
term risks associated principally with contamination of food 
and water that might occur.
    Emergency planning is a dynamic process. Plans are tested 
in frequent drills and periodic full-scale exercises that 
simulate serious reactor accidents. Having lead at the Federal 
level for reviewing offsite preparedness, FEMA periodically 
assesses these plans and exercises. If at any time FEMA finds 
offsite preparedness is not adequate, it will inform the 
Governor of the State and the NRC. The NRC will then work with 
FEMA, the State, plant operator and other stakeholders to 
address and identify deficiencies.
    While we are not at this point in the process regarding 
Indian Point, we are, of course, familiar with the issues 
recently raised by Mr. Witt's report as well as other issues 
raised by FEMA, and we will closely monitor steps being taken 
in the coming months by FEMA, the State and counties to address 
those concerns.
    One of the issues raised in the Witt report involved 
emergency preparedness following a terrorist attack. Emergency 
plans are intentionally broad and flexible to assure a wide 
spectrum of events, including those involving rapid large 
releases of radioactivity, can be responded to effectively. 
Plan responses are not predicated on the specific cause or 
probability of an event. Rather, emergency planning assumes the 
improbable has occurred, and develops a response to address the 
consequences of potential releases. Whether releases occur as a 
result of terrorist acts or equipment malfunctions, emergency 
plans provide an effective framework for decisionmaking and 
response.
    Effective communications with stakeholders is an important 
element of all of our regulatory activities. For example, over 
the past several years we have conducted numerous meetings near 
Indian Point to inform the public and seek views on the 
heightened oversight we have been providing that facility. 
Addressing the desire of local officials to more frequently and 
directly communicate with NRC on emergency preparedness, as 
reflected in a GAO study on Indian Point in 2001, we stepped up 
our interactions with county emergency preparedness 
professionals. We have supported workshops, meetings and other 
activities addressing emergency planning issues such as 
potassium iodide use, dose assessment and the like. We will 
continue these efforts, particularly in light of the current 
situation where important specific issues have been raised.
    Mr. Chairman, I have discussed the many steps NRC has taken 
to strengthen security and address emergency preparedness 
issues which have emerged since the September 11 attacks, steps 
taken to communicate with stakeholders on these important 
issues.
    Mr. Chairman, this concludes my remarks, and I look forward 
to answering any questions you may have.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Miller follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. I am going to call on Mr. Turner to start us off 
and then go to Mr. Tierney, and then to Mr. Janklow, and then 
to our colleague Mrs. Kelly, and then I will have questions. I 
am just going to tell you the two questions, Mr. Conklin, I 
want you to think about. One is, what in the Witt report's 
recommendations validated FEMA's emergency preparedness 
findings?
    And I am also going to ask--this is more important to me--I 
am taking this out of a letter addressed to me of February 12 
from the NRC. The question is: Does FEMA agree with the NRC 
that the Witt report gives undue weight, to potential terrorist 
attacks?
    I am going to ask your opinion about that after others have 
gone. So at this time, Mr. Turner, you have the floor.
    Mr. Turner. Thank you, Mr. Chairman.
    I appreciate your presentation today and the information 
that you are providing us. I think we all know the importance 
of the issue of preparedness not only for the issue of 
emergency response, but in advance in looking at the types of 
threats that these facilities may face.
    One thing is for certain: In looking at the information 
that we have received concerning possible terrorist threats to 
the United States, we can't say that we don't know that nuclear 
power plants may be a target. The information that we have 
indicates that, in fact, they have been viewed as possible 
targets by terrorists. And also knowing the issue of the 
occurrence of September 11, we know that our need for 
preparedness is very high, because we can no longer say that it 
won't happen here.
    In looking at the issues of your statements, one of the 
considerations that I would like to hear from Mr. Miller, when 
you are talking about issues of prevention, largely in your 
testimony I heard statements about an attack that might occur, 
perhaps a paramilitary or guerilla-type terrorist attack. But I 
have not heard of the type of security enhancements or issues 
are you looking at for prevention that might include civil 
reengineering of facilities to look at more catastrophic 
attacks like we saw on September 11.
    Mr. Miller. In the few days immediately following the 
September attacks, in addition to requiring that the security 
level at all plants be raised to the highest level, the 
Commission chartered studies to look at the potential effects 
of attacks on the plant. We have conducted vulnerability 
assessments over these past several years. These are 
assessments that take some time to complete.
    In the assessments that have been done, I cannot provide 
details here, we have not identified anything, beyond the steps 
that we have ordered the plants to take, which are clearly 
needed to address extreme events. I think it is significant 
that we have issued orders which have required significant 
increases in patrols and the strengthening of the physical 
barriers at the plant where that is needed. We continue this 
assessment working with the Department of Homeland Security, 
and the Department of Defense, Intelligence Community. We 
continue our assessment of the threat environment. If at any 
time in these studies we determine that more is needed beyond 
what we have already required, we will take steps.
    Mr. Turner. Well, I guess just in listening to your 
testimony, and in testimony that we have heard in previous 
hearings before this subcommittee, I think there are serious 
concerns about the vulnerability of plants, and I would hope 
that your process is not one that you view as complete, but 
ongoing, and that if there are issues that people are openly 
discussing that need to be addressed, we would certainly hope 
that you would be looking to address them.
    In looking at your written testimony, I was also slightly 
concerned that you indicate that--just to read this paragraph. 
It says, it is not likely that protective actions would need to 
be taken for the entire 10-mile emergency planning zone, even 
for a significant release. A radioactive plume from a nuclear 
plant does not move in all directions at once, but travels in 
the general direction to which the wind is blowing. As a 
result, only a small fraction of the population in the 
emergency planning zone would be in the pathway of the plume.
    I doubt that the population in the area of an emergency 
would feel the same way as that paragraph is written, that 
their risk of any need of evacuation is minimal. Could you 
comment on that in your planning with respect to the fact that 
you are not likely to be able to just evacuate slices of an 
overall pie?
    Mr. Miller. What we are speaking to in that part of the 
testimony is what is required. If you look at releases from the 
plant, if you look at the weather conditions and the like, and 
the direction of the travel of any radioactive plume, it is 
pretty clear that the areas that must necessarily be evacuated 
are in a direction that corresponds with the direction the wind 
is blowing. I recognize that people outside of that zone might, 
on their own accord, choose to--some may choose to evacuate, 
but what we are speaking to there is just the physical reality 
that a plume will go in a certain direction. And the assessment 
that is done by the offsite officials is, in fact, of what the 
weather conditions are, where are the areas that are 
potentially exposed to radioactivity. It is those areas that 
are targeted and given priority in any evacuation. And in most 
instances you will not need to evacuate a whole 10-mile area to 
protect the public.
    Now, it is a normal process, if there is uncertainty, a 
standard approach is to evacuate within 2 miles in all 
directions, and 5 miles downwind. That is a default position if 
there is uncertainty. But the point is that it is not necessary 
in all cases to evacuate the full 10 miles.
    Mr. Shays. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Miller, I would like to explore with you a little bit 
on the licensing and relicensing process here. I would like to 
understand it a little bit better if I could.
    In determining the level of the security that these 
establishments need, my understanding is that first the Nuclear 
Regulatory Commission promulgates the design basis threat; is 
that right?
    Mr. Miller. That is correct.
    Mr. Tierney. As I understand it, the current design basis 
threat requires protection against a small group of skilled or 
well-armed outsiders aided by one insider, a single insider 
acting alone, and a four-wheel-drive land vehicle bomb. Have I 
got that correct?
    Mr. Miller. Well, I won't comment on the specific 
attributes of the current design basis threat.
    Mr. Tierney. Because?
    Mr. Miller. It is sensitive information. But it does 
involve a violent attack by well-trained, well-armed attackers, 
and it does involve a vehicle bomb. But I need to hasten to 
point out that the steps that we required be taken in the order 
that we issued raised the level of security at these plants 
that goes well beyond the current pre-September 11 design basis 
threat.
    Mr. Tierney. Let me break it down. First of all, you said 
they are sensitive. Are they classified?
    Mr. Miller. It is sensitive information that is not 
classified, but it is what we call safeguards information--
sensitive information, the specific attributes, the broad 
definition of what the design basis threat is, contained in our 
regulations, and it is what I have just described.
    Mr. Tierney. Well, do me a favor. Give it to me again, 
because it was, before September 11 at least, the way I 
described it; am I right?
    Mr. Miller. The details I can't confirm, but it is in 
concept, it is this violent attack by well-trained, well-armed 
attackers.
    Mr. Tierney. And one insider.
    Mr. Miller. And aided by an insider.
    Mr. Tierney. Another aspect of that was a single insider 
acting alone. You have provisions to deal with no outsiders, 
but someone on the inside.
    Mr. Miller. Again, I want to be careful about the 
specifics, but in concept it is an insider. And this is what--
this is among the things that I have talked about earlier, what 
we are examining and what the Commission is right now engaged 
in looking at, in examining the current threat environment, 
along with, in concert with the Department of Homeland 
Security, the Department of Defense, and the Intelligence 
Community, to determine what is the proper current design basis 
threat.
    Mr. Tierney. I guess what I am trying to get at, Mr. 
Miller, is where we are in this process? Have you formally 
changed it from what it was before September 11, 2001; are you 
still in the exploratory stages and trying to determine what it 
is going to be?
    Mr. Miller. Within the next several months we expect to 
issue new requirements in this respect.
    Mr. Tierney. But there have been no new requirements issued 
since September 11, 2001, up to this point in time?
    Mr. Miller. Well, what I am saying is that we have issued 
new requirements. They are prospective requirements. We knew it 
would take some time to work and coordinate with the Defense 
Department, the Intelligence Community and so on, to pin down 
precisely what the current threat is, but we knew we couldn't 
wait. That is why we raised the bar. That is why we stipulated 
or required that plants upgrade security to a level that is 
beyond, well beyond, what existed under the old design basis 
threat prior to September 11.
    Mr. Tierney. When do those new provisions go into effect?
    Mr. Miller. They have been in effect. They were issued in 
an order--the order was issued in February of last year.
    Mr. Tierney. February 2002.
    Mr. Miller. February 2002. That followed a series of threat 
advisories that we issued on a very immediate basis to raise 
the level of security at the plants.
    Mr. Tierney. Every one of the plants across the country is 
now required to meet these?
    Mr. Miller. All the plants were required to come into 
compliance with that. We have done inspections to determine 
that those enhancements have been put in place.
    Mr. Tierney. Now, in the process that you used in 
determining that new design basis threat, did you consider the 
likelihood of an event or a potential severity; is that the 
process that you went through?
    Mr. Miller. There was a very systematic review of the 
potential vulnerabilities of the plants, and that order was 
developed, in fact, considering the kinds of attacks that could 
be made on the plants and the areas that needed to be 
strengthened. But it was already at a very high level. It was 
strengthened following that order.
    Mr. Tierney. In December of last year, the Commission 
indicated in one of its decisions that it doesn't consider the 
impacts of terrorism when making a licensing decision. Is that 
still the case?
    Mr. Miller. I am sorry. I can't answer that question. I am 
not an attorney, and I am not the specialist in this area. So 
what I would prefer to do is to--if you will indulge me, 
provide an answer----
    Mr. Shays. Let me--the gentleman speaking to you was?
    Mr. Miller. This is Mr. Chandler. He is from our Office of 
General Counsel.
    [Witness sworn.]
    Mr. Shays. Please have a seat. It is my fault. I should 
have said if anyone might respond, they should stand in the 
back and raise their right hand.
    Let me just have you give your full title, and if you would 
give a card to the transcriber.
    Mr. Chandler. I will. My name is Lawrence Chandler. I am 
Associate General Counsel for Hearings, Enforcement and 
Administration at the Nuclear Regulatory Commission.
    Mr. Shays. Thank you. Feel free to respond to the question.
    Mr. Tierney. Let me state it again. My question was that 
when the NRC is issuing an order, or when it is making a 
decision about licensing, do you take into consideration the 
impacts of terrorism and the readiness of that particular 
facility to deal with terrorism?
    Mr. Chandler. The Commission's decisions last December 
focused on the issues that were presented by various parties in 
several different proceedings. The Commission's decision 
basically concluded that it was not necessary, in the context 
of NEPA, National Environmental Policy Act, to consider the 
acts of terrorism. It also reiterated that acts of enemies of 
the United States were beyond the scope of requirements under 
the Commission's regulations.
    Mr. Tierney. I understand the decision in December was more 
along environmental issues than anything else. But it was a 
sweeping statement that was made in those decisions. So what I 
am getting from you is you are saying that the NRC does not 
feel that in making licensing decisions, that it should take 
into consideration a facility's preparedness to deal with 
terrorist situations.
    Mr. Chandler. Beyond the scope of those requirements set 
out in 10 CFR Part 73, which are the basic safeguards and 
physical protection requirements. Again, it was the acts of 
enemies of the United States that were raised in the context of 
the issues before the Commission, as well as the specific 
context of consideration for NEPA purposes that the Commission 
responded to.
    Mr. Tierney. What exactly, in the area of terrorism, or 
preparedness to deal with terrorism, what, if anything, is 
considered by the Commission when it deals with licensure?
    Mr. Chandler. Well, I think if you look at terms that you 
were describing again in your question of Mr. Miller a moment 
ago with respect to the design basis threat, there are elements 
of that I think you would fairly characterize as including 
aspects of terrorism.
    Mr. Tierney. You must meet those and meet the ability to 
deal with those?
    Mr. Chandler. Again, that is part of the design basis 
threat.
    Mr. Shays. Thank you.
    We will have a second pass at these witnesses.
    Mr. Janklow. Governor.
    Mr. Janklow. Thank you very much, Mr. Chairman.
    You know, as I read your testimony, gentlemen, I am a 
little bit puzzled. As I have listened to and read Mr. 
Conklin's testimony, it appears that--and people are talking 
about Indian Point a lot. It appears letters of agreement have 
been submitted, but they haven't been finalized. It appears 
that, as to evacuations, the plans don't yet incorporate data 
from the updated evacuation time estimate studies that reflect 
the new demographics as well as the shadow evacuation. It 
appears that the joint new conference procedures really don't 
work very well, but they are working on upgrading them. It 
appears that the procedures for the schools in the county are 
adequate, but that the individual school districts, preschool 
and day care centers haven't yet submitted for FEMA review for 
consistency and completeness.
    Sir, what is the problem? What is holding it all up from 
being done from your perspective, in just a couple of 
sentences. Whose fault is it?
    Mr. Conklin. Well, the responsibility for providing that 
information rests with the State and county folks working 
together to forward that information on to FEMA.
    Mr. Janklow. Is this a turf battle of some type, or is it a 
legal battle, or don't they have the resources? Isn't it 
important? Or what is the reason it hasn't been submitted?
    Mr. Conklin. You would really have to talk to the State 
folks to really get the reasons.
    Mr. Janklow. Have you folks ever talked to them and asked 
them?
    Mr. Conklin. Yes.
    Mr. Janklow. What do they tell you is the reason?
    Mr. Conklin. Our instructions we have had, it has been a 
resource problem for them, because of the number of plants in 
the State, the number of nuclear plants in the State, the 
amount of preparedness activities that they do undertake in the 
areas around those nuclear plants.
    Mr. Janklow. If they say it is a resource problem because 
of the number of nuclear plants, how do we fix the problem? 
What do we do to fix the problem? Or do we ask the terrorists 
to wait until we can get more resources?
    Mr. Conklin. The provision of resources would--could help 
the problem. Historically in the REP program, I am speaking 
programwide now, the resources that come to the county and 
local officials and in some cases the States come from the 
licensee. They help out with the offsite planning and actually 
fund some of the activities in those offsite areas.
    Mr. Janklow. Mr. Miller, you talk about doing these mock 
exercises, and I realize you can't really use much of an 
element of surprise when you are trying to surprise people that 
are armed. You can run into problems. But, you know, on a chalk 
board, when you put up Xs and Os, all plays score touchdowns, 
things work on the board. In reality, how often have your mock 
exercises determined that what it is that you were doing in 
terms of defensive preparedness, what percent of the time 
aren't the defenses effective?
    Mr. Miller. I can't give you a figure off the top of my 
head, but I do want to comment on one thing. Folks talk about--
or people talk about failures. I think it is important to 
understand that these are mock assaults that are commando-style 
attacks on the plant. The attacking--the adversary team has 
intimate knowledge of the vital equipment in the plant and the 
various features of the security program.
    So it is--they are given a very strong advantage in these 
assaults. The purpose is to identify those areas of potential 
weakness, areas where the plant can be strengthened. I think 
the notion that these exercises, as they are performed, reveal 
a fundamental flaw and a fundamental problem with the security 
program is, I think, misleading. In all of these instances, 
immediate steps are taken to address any areas or to strengthen 
the areas that are identified.
    Mr. Janklow. How do you mock-exercise flying an airplane 
into the facility?
    Mr. Miller. We don't simulate that.
    Mr. Janklow. How did you deal with it? Are these plants 
capable of dealing with that type of attack?
    Mr. Miller. As I mentioned earlier, we have been conducting 
and are still conducting assessments of extreme events such as 
that. And we have not completed those studies, but we are aware 
of what the preliminary indications are, and they, as we said 
in our testimony, indicate that the current planning basis is 
still intact--I mean, that--the assumptions of emergency 
planning have not been shown to be flawed or in need of change 
as a result of these studies we have done.
    Mr. Janklow. How many plants do we have in the United 
States, sir?
    Mr. Miller. I believe there are 103.
    Mr. Janklow. Of those, have you been able to determine yet 
what number of those would be able to withstand the flight of 
an airplane, a suicide mission into the plant?
    Mr. Miller. We are doing those reviews. I think that it is 
clear that these plants were not designed specifically to 
withstand an attack by a modern-day jetliner --but they were 
designed to withstand very extreme events, hurricanes, 
tornadoes, missiles that can be thrown at a plant by a tornado, 
very extreme events. They are not soft targets, they are 
hardened structures. It is our belief that there is reasonable 
assurance.
    Mr. Janklow. Let me ask you this, sir. If I had children or 
my grandchildren live within 5 or 6 miles of a plant downwind 
on a given day, how much reason would I have to be concerned 
that something like a--forget an airliner, let's say a G-4, G-5 
Falcon 50-type aircraft would be deliberately flown into the 
facility at 500 or 600 miles an hour, head on, by a suicide 
mission? What----
    Mr. Miller. From what I understand about these studies, 
they indicate that these facilities are hardened sufficiently 
to resist attacks of that sort. We are still looking at this. 
And as I said before, we have not identified anything that 
would require us to change our planning basis.
    It doesn't say anything about the prevention that exists 
with respect to making the skies more secure through FAA and 
the steps that are being taken there.
    Mr. Janklow. One more question, sir. Thank you. I 
appreciate both being very responsive. Mr. Miller, and Mr. 
Conklin, how long will it be until your assessments are done, 
Mr. Miller, and how long will it be, Mr. Conklin, until you are 
satisfied that all of the communities that need to submit their 
plans so that they can be implemented if necessary will be 
done?
    Mr. Miller. Well, if you are talking about the assessments 
that are being done right now in connection with the specific 
issues raised by the Witt report and by FEMA, that is a process 
that FEMA has the lead on and has engaged with the State, and 
our role is to monitor that process. And if it comes to an 
impasse, if it does come to an impasse, then it would come to 
the NRC.
    But we have not--at this point we are still monitoring the 
process. At this point it is still FEMA's lead.
    Mr. Shays. I think I'd better move along here. Do you have 
a quick answer, Mr. Conklin?
    Mr. Conklin. I would just say right now it's too difficult 
to tell. We gave them a May 2 deadline to get the information, 
and when they get it in we will review it and then move on from 
there based on what is in the information.
    Mr. Shays. Before I call on Mrs. Kelly, I will just make 
the observation that we have problems in some cases with the 
plans, but the one challenge that I think a lot of people have 
is the people who need to see these plans, the public, do not. 
They're not aware of these plans and they're the ones 
ultimately that are impacted by it.
    Mrs. Kelly, you have the floor. Again, welcome.
    Mrs. Kelly. Thank you very much Mr. Chairman.
    Mr. Conklin, you mentioned May 2. Two weeks ago I asked 
FEMA--gave them a 30-day deadline to work with our local 
officials, and I'd like to know what FEMA has done to comply 
with the request for a report by the end of this month on your 
Agency's efforts to respond to the local concerns and work with 
the local officials. I gave you until the end of this month.
    Mr. Conklin. Yes, ma'am, and we are hard at work on that. 
Joe Picciano, who was at the last hearing, has written to the 
States and asked them--or the State of the New York, and asked 
for meetings and activities to sit down with them and the local 
officials to work through the information. We have drafted a 
reply to your request and are working that through the system 
to get you a timely reply, but we are working very diligently 
with the State and county folks right now to address these 
issues.
    Mrs. Kelly. As you know, the Witt report was finalized last 
week and the primary conclusions in the Witt report have not 
changed since the draft was related in January. What have you 
done specifically to address the additional comments that the 
Witt report spoke about with the impact of a--that a terrorist 
attack could have on your emergency plans?
    Mr. Conklin. I have not had a chance myself to review that 
report. My understanding is they came on either Friday or 
today. It's about a 68-page addendum to the existing report. 
There were some minor changes made to it, but I have not had a 
chance to look at the overall report to see if there's been any 
changes to the major findings yet. So I'd like to get back to 
you, if I could, because right now I haven't seen the final 
report to evaluate it in detail.
    Mrs. Kelly. So the answer is, so far as you know, nothing; 
FEMA's done nothing?
    Mr. Conklin. Not with the final report. We have looked at 
the draft report and incorporated that into our State 
exercise--and our exercise report and cross-referenced the 
findings of the Witt report in it with findings that we had 
developed through our plan reviews and exercise reviews, and 
we've gone that far and we're looking at it from a national 
program perspective.
    Mrs. Kelly. Have you done anything about the comment in the 
Witt report that speaks of the fact that high-population areas 
have different requirements on an evacuation plan than 
otherwise?
    Mr. Conklin. I have asked the contractor to look at the 
literature and the science, the social sciences behind those 
kinds of activities, to see what we could find in the 
literature that would support those kinds of comments and what 
we would or should do to take and address those in our plans 
and procedures and our guidance.
    Mrs. Kelly. Mr. Conklin, FEMA does a great job in many 
instances with natural disasters. The concern of my 
constituency, and I'm sure that the chairman's constituency, 
have the same problems, this could not perhaps be a natural 
disaster. I wonder if you'd please detail the internal process 
that your Agency goes through to determine that an emergency 
plan provides reasonable assurance to those of us who live 
quite close to these plants that our health and our safety are 
protected. It's my understanding a determination is made by the 
region and then is sent up to the headquarters; is that 
accurate?
    Mr. Conklin. That is accurate. There is a regional 
assistance committee in our nine regions that have nuclear 
power plants, and when these plans are reviewed they're 
reviewed by more than just FEMA. They're reviewed by folks from 
the NRC; the Environmental Protection Agency; the U.S. 
Department of Agriculture; Health and Human Services; and a 
number of other Federal departments and agencies. So we look at 
these plans and procedures in great detail at the regional 
level, figuring that those folks on the regional assistance 
committee are closer to the State and locals there, so that if 
they have questions, they could then go back and talk with them 
about the plans and any issues they may identify.
    Once they have finished their review, they generate a 
report, and that comes to headquarters for us to then look at 
and ask any further questions. And then based on that, we come 
to a determination.
    Mrs. Kelly. One of the things that you brought up in your 
testimony was a discussion about the communications that occur 
between the plant, the local officials, and the county--the 
surrounding county officials. I have some great concern about 
that because that was pointed out to be a problem in the area 
of the Indian Point and Millstone plants. Do you want to 
address anything? Have you done anything within the framework 
that I'm requiring of you; with the 30-day framework that I am 
requiring of you, have you done anything to address that 
problem, the problems of communication between each other, 
these different areas?
    Mr. Conklin. It's my understanding that following the GAO 
report, which had a recommendation for improved communications 
between the Federal officials and the county officials, that 
site points of contacts were established in the region to deal 
specifically with those county folks around those plants, and 
that since then, the FEMA folks met with county folks, with the 
State folks. They set up a--I don't think it was a written 
agreement, but they set up an agreement whereby they would work 
together and meet together as a group versus FEMA going to 
State, State to county, and that kind of thing. So it's my 
understanding--and this happened prior to me coming on board; 
so it's my understanding that they've worked out that issue and 
that communications have been increased and improved.
    Mrs. Kelly. They may have been improved, Mr. Conklin, but I 
still understand from my first responders that their radio 
capability is that police can't speak on the same frequency as 
the fire people. The fire people can't speak on the same 
frequency as some of the people at the county level, and I know 
that this is a problem throughout the United States. It's not 
just my nuclear plants; it's other nuclear plants.
    Is FEMA addressing the problems that we are having with 
allowing these first responders to any emergency to be able to 
talk with each other? I understand it's so bad in some areas, 
and especially with the World Trade Center, that some of the 
people down on the ground trying to direct people up in the 
towers didn't have the right radio frequencies for those 
particular companies that were up in the towers. That needs to 
be addressed. Are you doing something?
    Mr. Conklin. Yes. There is--and I am not--I have not been 
involved in that process. There is an Interoperability 
Assessment Board [IAB], I think that's the right title for it, 
that is looking at this issue nationwide not only for the power 
plants but for any responses, whether it's hurricanes, 
tornadoes. It's a nationwide effort, and it's been going on for 
about--years, if I remember properly.
    Mrs. Kelly. Mr. Conklin, I would like you to include 
something to address that question in the 30-day report. Thank 
you.
    Mr. Conklin. Yes ma'am.
    Mrs. Kelly. Thank you very much, Mr. Chairman.
    Mr. Shays. Thank you. The next round, I think we'll 
probably have to go a 10-minute round, and I apologize to the 
panels that will follow. I'm doing a little wrestling here 
about getting--by the NRC somehow making the assumption that if 
it's a nuclear attack on a plant, that the consequences are no 
different than any kind of release. Mr. Miller, you've got to 
walk me through the logic there.
    Mr. Miller. One of the things you said in your remarks----
    Mr. Shays. A terrorist attack.
    Mr. Miller [continuing]. Which I think is a very fair 
question relates to the impact offsite of a terrorist attack. 
In our comments, the comments that you referred to, we have 
been focusing on the part that we're responsible for, which is 
the safety of the reactor and how the reactor would respond. We 
are focused on the securing of the plant itself. I think it is 
a fair question to ask what impact a terrorist attack would 
have on protective measures that may be taken offsite. This is 
FEMA's area, of course. It's their lead. I would expect that 
there would be discussion on this as these plans are worked out 
not only in the Indian Point case but in other cases. So we 
were not intending in our comments to speak really to this 
offsite aspect.
    Mr. Shays. But with all due respect, when we wrote NRC a 
letter in January expressing concern about the Witt report, in 
one paragraph from the chairman of the NRC, he says, ``While we 
appreciate and recognize the effort that went into the draft 
report, we believe the draft report appears to give undue 
weight to the impact of potential acts of terrorism on 
emergency planning preparedness.'' And further down it says, 
``Necessary protective actions and offsite response are not 
predicated''--``offsite response are not predicated on the 
cause of events. Whether releases from the plant occur as a 
result of terrorist attacks or equipment malfunction, emergency 
plans guide decisionmakers and responders in the same way.'' I 
just think that's blatantly untrue.
    Mr. Miller. That comment is based on the fact that no 
accident is going to follow a script, and so emergency plans 
have to be broad and flexible. They have to be designed to deal 
with a whole spectrum of things that can occur. It's a 
performance-based approach----
    Mr. Shays. I understand what you're saying----
    Mr. Miller. So that--that comment is----
    Mr. Shays. Irrelevant?
    Mr. Miller [continuing]. Very much based on what we know 
has been done to secure the plants.
    Mr. Shays. Mr. Miller, do you believe it is relevant to say 
that a terrorist attack has no different consequence than any 
other type of attack? Do you think that implication makes sense 
to you?
    Mr. Miller. I think with respect to the plant itself, the 
thing that we're talking about, which is the potential for 
disruption of the reactor and the reactor core, cooling of the 
core and release of radioactivity, our approach in emergency 
preparedness has always been to be aggressive in the way 
emergency planning is done. So we have always required there be 
large releases of radioactivity that developed within a short 
time, and the plans have always been geared toward large 
releases. So in that sense we believe that it doesn't make a 
difference as far as what happens onsite.
    Mr. Shays. I think the better answer would have been that 
there obviously is a difference and we're looking at it. To say 
anything other than that scares the hell out of me, because you 
guys are in charge, and we've had 4 years of hearings about 
what terrorists can do and how they can do it, and frankly it 
defies my sense of logic, your answer. I realize your chairman 
said it, and I'm putting you in an awkward circumstance, but I 
would have loved something----
    Mr. Miller. Well, may I say, Mr. Chairman--and I've been in 
numerous meetings since we issued that letter, and what I sense 
is that people understand the NRC to be downplaying somehow the 
effects of terrorism or the potential for terrorism, and in 
fact----
    Mr. Shays. Not just the potential, but a terrorist attack 
has a different impact. It can result in things that we never 
anticipated before, and for instance, even your reference to 
hardened sites, what is a hardened site? What is in that 
hardened site that is protected?
    Mr. Miller. What we're referring to is, first of all, the 
containment structure itself. These are structures that have to 
be designed to withstand very significant external----
    Mr. Shays. Right.
    Mr. Miller [continuing]. Impacts, you know; hurricanes, 
tornadoes, if you will.
    Mr. Shays. Right. What is in that site? It is basically the 
nuclear operation, the fuel itself, and so on. It is a fact, 
terrorists know this, the control panels aren't necessarily 
inside. The ability to command structure is not necessarily in 
a hardened site throughout the country; isn't that true?
    Mr. Miller. Well, Mr. Chairman, this is why our 
requirements have always been for the plants to be defended 
against violent attacks, and that's all been strengthened----
    Mr. Shays. First off----
    Mr. Miller [continuing]. Since the----
    Mr. Shays. First off, I just need an answer to the question 
and then you can tell me all the other things. The implication 
that somehow the control panels and so on would be in hardened 
sites is not accurate; is that true? They aren't under hardened 
sites; is that correct?
    Mr. Miller. They're not hardened in the sense that they're 
specifically designed for, you know, airplane crashes and the 
like.
    Mr. Shays. Thank you.
    Mr. Miller. But having said that, I mean because of the 
necessity for these to be designed to withstand these many 
other phenomena, they're not soft targets, and I think it's 
important for the public to recognize this, because I think 
without this understanding, there is a great deal of concern 
that can----
    Mr. Shays. My time is up. We're going to do 10 minutes the 
second time through. I'm just going to say to you, Mr. Miller, 
we're just scratching the surface here, but the way you're 
answering the questions, it gives me the feeling that we're 
continuing to do something in this country that I deeply 
regret. The terrorists know how vulnerable sites are, whether 
they're chemical sites, or nuclear sites. They know. They know 
what to do. These are not people who are just going to blithely 
walk up and try something. They plan it out, they know where 
they're vulnerable. So when we discuss these issues, the only 
thing we're keeping it from is the American people. The 
terrorists already know. They already know that when you use 
the term ``hardened sites,'' that's the concept that we have 
really protected the plant where the nuclear fuel is and so on. 
The terrorists know that the operations aren't ``hardened,'' as 
you use that term. We try to protect them, but they are clearly 
going to have impact if they choose something different that's 
under the cone. I guess I just regret that we can't have an 
open conversation here.
    Mr. Miller. Well, Mr. Chairman, I'm--and with all due 
respect--the reason why I'm pointing this out is I would not 
want the public to believe this is business as usual since 
September 11. Enormous steps have been taken to strengthen the 
security of these plants.
    Mr. Shays. That's different, and that's an honest answer. 
We are making and taking a lot of steps, but they remain 
significantly vulnerable to terrorist attacks. That's the 
reality. Maybe in a few years they won't, but right now they 
are, and that's why our talking about an evacuation plan even 
has more significance. I just would ask you, Mr. Miller, tell 
me the number of times the NRC has basically suspended the 
operation of a plant because we haven't liked the evacuation 
plan.
    Mr. Miller. I don't believe we've done that, but if the 
conditions exist that is called for, we will.
    Mr. Shays. Well, my logic, again, is there has had to have 
been sometime during the course of our history where the plans 
weren't really that good and we probably should have 
temporarily suspended a plant and we didn't, which makes me a 
little leery of our oversight.
    Mr. Miller. I believe in the case of Turkey Point, several 
years ago, after one of the hurricanes, there was a period 
where the plant was shut down. The company chose to do it, but 
we felt it was important to take that step because there was a 
question about emergency preparedness.
    Mr. Shays. We're going to go back to Mr. Turner and then 
Mr. Tierney for 10.
    Mr. Turner. Thank you very much, Mr. Chairman. I want to 
join with you in your concern with the language that we're 
hearing today. Even being a new member of the committee and 
with the limited number of hearings that we have heard on this 
issue, I can tell you, Mr. Miller, that we have heard previous 
to your testimony that the FAA rules may not be enough to 
prevent a second attack; that the nuclear plants in this 
country may be structurally vulnerable. And what I hear from 
you--if I was asked when I leave here by my constituents what 
your testimony was--is that we're still conducting a review, 
we're still looking at this issue, but so far we've not seen 
anything to change our planning.
    And to look at your written testimony, the extent to which 
I would characterize your planning is that you are totally 
evacuation focused. You also referenced the FAA rules as being 
something that might stop the occurrence of this type of an 
attack. It's of a concern to me because it sounds as if people 
who are testifying before this committee prior to your 
attendance today are recognizing a greater need for action from 
your Agency than perhaps your Agency is recognizing. If indeed 
with what you see today, there is no change in your planning 
process and it is totally focused on evacuation, I would join 
the chairman in my concern that the public has probably 
significant concerns that your Agency needs to look at the 
obvious; which is, we know that we are vulnerable, that our 
plants are vulnerable, and that there has to be some actions 
that can be taken besides just looking at issues of how do we 
get the public out of the way.
    Mr. Miller. I'm not going to sit here, and nobody can sit 
here and give you absolute assurances that there's no risk. I 
mean I'm not saying that. But if I were a member of the public, 
I would be concerned if it were couched the way you phrased it, 
which is----
    Mr. Turner. That's how I heard it at the----
    Mr. Miller [continuing]. Of we're not doing any planning. I 
have to repeat myself. There are the numerous steps that have 
been taken: the strengthening of the security forces, the kinds 
of weapons that are employed, the incredible increase in the--
the site access requirements at the plants, numerous other 
things I can go into. Prudently, we continue to look at this. 
We continue to assess the vulnerabilities in concert with the 
Department of Homeland Security and others. And if at any time 
we identify that there is a vulnerability that needs to be 
addressed----
    Mr. Turner. But you're saying that so far you've not seen 
anything to indicate to you that needs to occur? That's what I 
wrote down----
    Mr. Miller. Beyond the numerous things that we've already 
done, and I will give you an example. As things that have 
emerged, such as in the aftermath of September 11, as the 
security forces have had to work increased overtime, we've seen 
issues of fatigue, and we're about to address that. There have 
been issues with respect to the training of security officers, 
and we're about to address that. So we have taken numerous 
steps. We continue to look at it as we identify issues and as 
issues emerge. We're not standing still. We're acting.
    Mr. Turner. From what this committee has heard, I hope that 
your Agency's position is not that you are finished, as to the 
extent that your language would leave us with that impression.
    Mr. Miller. That's correct. As I said in my oral remarks 
and my testimony, we continue to examine this in concert with 
the Department of Homeland Security and others.
    Mr. Turner. The other issue that I would like to hear Mr. 
Conklin speak on is when we've looked at the issue of the 
evacuation and the risk assessment, obviously there are long-
term issues with respect to areas that have been evacuated, and 
I'm unfamiliar with the extent to which your planning goes past 
the issue of attempting to protect the public by their 
evacuation and goes into the issue of the emergency response in 
an area once a release has occurred. If the public is evacuated 
and your plans work, how far down the path does your plan go in 
addressing the area that's been impacted?
    Mr. Conklin. The current plans for those areas, there's a 
couple plans that come into play. One is the Federal 
Radiological Emergency Response Plan. That is then supported by 
the Federal Response Plan and all of the infrastructure that 
goes along with it. If we were to get to a point where we 
actually evacuated people and had contamination in an area, we 
would fall back on and utilize the Federal Response Plan to put 
together a response that could address whatever contamination 
is present, develop plans and procedures for removing that 
decontamination, cleaning the area up, and, as soon as 
reasonable, returning people back to the area.
    Obviously the amount of time that would take would depend 
on the amount of contamination present, what kind of isotopes 
are there, what were the kinds of areas that were affected and 
those--and a lot of site-unique characteristics that would have 
to take into effect--but we would fall back and use the Federal 
Response Plan as a responding plan.
    Mr. Turner. Assuming there's an area where there are 
individuals that cannot return, have you done modeling as to 
what would be necessary to support a population that has been 
dislocated?
    Mr. Conklin. Not specifically to Indian Point. Several 
years ago I know the EPA did some modeling to determine what it 
would take to evacuate people, support them, house them, feed 
them; economic impacts and things like that. But we didn't do 
it for any particular site.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Mr. Tierney, thank you for your patience.
    Mr. Tierney. Mr. Miller, you talked about the hardened 
sites and I understand that to be generally steel-lined 
reinforced concrete-type structures?
    Mr. Miller. The containment structures which house the 
reactor itself, much of the critical equipment is within such a 
structure.
    Mr. Tierney. But in many instances the spent fuel is 
actually kept outside of that in cooling pools; am I right?
    Mr. Miller. Outside containment, yes. But the structure 
itself, the wall of those pools are in fact structures of the 
sort you've described; very thick concrete walls, reinforced 
concrete.
    Mr. Tierney. What I'm getting at is whether the 
susceptibility to access them is easier than the main structure 
itself, and I guess they would be a little less secure?
    Mr. Miller. All of the spent fuel storage pools are within 
the protected area in what we call the vital areas of the 
plant, and so they get the same protection that other vital 
equipment associated with the reactor itself gets.
    Mr. Tierney. They're not in a hardened site, though? 
They're in a site that has concrete walls but not necessarily 
within the hardened site that we talked about for the reactor 
itself?
    Mr. Miller. The closures are not hardened like the 
containment building is hardened.
    Mr. Tierney. Getting back to what we talked about a little 
earlier about the design basis threat--and you didn't 
apparently want to be too specific about what your new 
requirements are--but let me ask you, do they take into account 
the use of a shoulder-mounted missile? Would they be able to 
withstand that?
    Mr. Miller. I don't believe I can answer that question. 
They do look at what is available to terrorists today. Looking 
at the kinds of armaments, the numbers of attackers, those are 
all the things that the Commission right now has under 
consideration, working with the intelligence community, with 
the Department of Homeland Defense and others.
    Mr. Tierney. Well, I guess----
    Mr. Miller. Specific attributes I cannot address.
    Mr. Tierney. We're going to find out one way or the other, 
so you can give it to us in classified session or----
    Mr. Miller. It would have to be in a session like that.
    Mr. Tierney. And we have to know and I want to see that, 
but you keep moving the line on me here a little bit here, I 
don't think purposely however, but you talked about things that 
are under consideration, and I'm looking to find out things 
that are actually implemented as opposed to things you still 
consider. So when I say something like the shoulder-mounted 
missile or the 50-caliber sniper rifles that can go right 
through armor or things of that nature, whatever like that, I'd 
be interested in knowing whether these specific types of 
threats are accounted for and what you now require these 
facilities to be prepared to deal with.
    Mr. Miller. Yeah. That's going to get me into what I 
don't--or I cannot go into.
    Mr. Tierney. No. No, but that's where I want to go 
eventually, and I want to know whether or not you have actually 
put those requirements into place or whether you still just 
have them under consideration.
    Mr. Miller. I can't talk about what the threat is and the 
specific attributes.
    Mr. Tierney. So backing off of the specifics, let me ask 
you this: Have you got new requirements in place or are they 
just under consideration? I thought they had that clarified----
    Mr. Miller. No. As far as the design basis threat, that's 
the thing that is being evaluated. But I want to reemphasize 
something I said earlier, and that is that we have not waited 
for the design basis threat to be redefined. We have put in 
place numerous measures that enhance the security of the plant; 
that raise the level of security way beyond what existed under 
the old design basis--rather, the current design basis threat--
the one that existed prior to September 11.
    Mr. Tierney. And does a plant's ability to live up to those 
standards or not affect its continuation of licensure or 
licensure?
    Mr. Miller. Yes, we issued the enhanced requirements 
through an order.
    Mr. Tierney. Now, I'm a little concerned, as I mentioned in 
my opening remarks about the Bush administration's apparent 
failure so far to provide for us a report on the potassium 
iodide that was required, concerning the distribution of that. 
Can you bring us up to date on where we stand with that?
    Mr. Miller. I understand we've--that the National Academy 
of Science has been asked to look at this, but I don't know the 
details. We'd be happy to provide that information to the 
subcommittee if that's acceptable.
    Mr. Tierney. All right. Well, the whole report was due 
December 12. That clearly didn't happen, and my understanding 
was they weren't even asked for the--the Academy of Science 
wasn't even asked by them for the report, right--or to start 
the report?
    Mr. Miller. I'm looking for somebody who can answer that 
question. I can't answer that question.
    Mr. Tierney. Somebody in the back seems to know the answer. 
We apparently cleaned out your entire office to join us here 
today.
    Mr. Shays. Let me ask, is there anyone else I need to swear 
in?
    [Witness sworn.]
    Mr. Shays. Would you state your name and your position, 
please.
    Ms. Milligan. My name is Patricia----
    Mr. Shays. A little louder. Please put the mic up.
    Ms. Milligan. My name is Patricia Milligan and I'm a Senior 
Emergency Preparedness Specialist with the NRC. I'm also a 
certified health physicist.
    Mr. Shays. Thank you for being here, and if you'd leave 
your card with the transcriber, that would be helpful. Thank 
you.
    Ms. Milligan. Would you restate your question, please, sir?
    Mr. Tierney. If I can at this stage, though they should 
actually stand and be sworn in again.
    The report was supposed to be given to Congress by December 
12. My understanding is that the National Academy of Sciences 
hadn't even been requested to start the report by that date.
    Ms. Milligan. The National Academy was aware of the 
reports--was aware the bioterrorism legislation had been 
discussed. They had received the funding or the authorization 
for the funding within the past week or two. I'm not sure if 
the money has actually transferred hands yet at this point, but 
they plan to start the study at the end of May or early June. 
NRC has been contacted to be a part of the testimony to be 
presented to the National Academy.
    Mr. Tierney. So they're going to start working on the 
report around the time that they were supposed to deliver to us 
the report; June, essentially.
    Ms. Milligan. As I understand it, that is what has 
happened.
    Mr. Tierney. I'd just be curious to know who in the Bush 
administration was in charge of that miss? Whose responsibility 
was it? Is it Mr. Ridge?
    Ms. Milligan. I don't know who in the administration was 
responsible.
    Mr. Tierney. My understanding was when Governor Ridge was 
first appointed by the White House, he was the one who was 
going--that was going to coordinate across all the various 
agencies all the things that were going on, to prevent things 
like this from happening. At least that's the impression we 
got. Now we got moved to a new Department. We're still waiting 
for his replacement at the White House. So does anybody know 
why the President hasn't appointed that replacement yet? Is 
there any problem within the Department?
    I think it's important to get that report and to find out 
how it is we're going to distribute the KI beyond the 10-mile 
radius. There are people in my communities where those 
potassium pills were put out in drugstores and they were gone 
in a day. It's important to people that they have some comfort 
and security knowing that they're going to have the ability to 
access that potassium, and I'd like to have tabs--if you could 
nail down a time plan on that as to when it's going to be 
started and when the anticipated date is going to be and share 
that with us, I'd really appreciate it.
    Mr. Miller. Congressman, we understand the question and 
we'll work to get you an answer.
    Mr. Tierney. Thank you, Mr. Chairman.
    Now, Mr. Miller, I understand that emergency exercises are 
sometimes conducted at nuclear power facilities; right?
    Mr. Miller. Yes. Yes, sir.
    Mr. Tierney. And have you ever required the facilities to 
conduct those emergency exercises involving a terrorist attack?
    Mr. Miller. We have not required it. If what you're 
referring to are the emergency preparedness exercises----
    Mr. Tierney. Exactly.
    Mr. Miller [continuing]. We have not required it. We 
performed one recently at a plant in California, but we have 
not required it.
    Mr. Tierney. How might an emergency exercise in 
incorporated terrorism differ from the other exercises that you 
generally do?
    Mr. Miller. I'm not certain; every scenario is different; 
FEMA working with the help of NRC and others define scenarios. 
I'd say that we've not required terrorist-related emergency 
exercises. We have had over the years exercises that involve 
sabotage and the like. It involves sabotage of a pump or an 
electrical power supply and the like that contributes to a 
sequence of events which results in a release, a large release 
from the plant, and then the test is how well onsite 
decisionmakers and offsite decisionmakers deal with that 
sequence.
    Mr. Tierney. I guess what I was thinking was it would be a 
little different if it was a terrorist attack, because the 
people might have to respond to all those things while they 
were still under fire or still under some sort of an attack; so 
you might be dealing with a release that was more exacerbated 
or happening faster in that instance.
    Mr. Miller. I think that brings us back to the earlier 
conversation about potential for offsite ramifications of a 
terrorist attack. That's a fair question.
    Mr. Tierney. Do all of the plants that you know of, do they 
have an emergency plan in place that incorporates your local 
first responders, your SWAT teams, or whatever might be 
necessary to respond to that kind of an incident?
    Mr. Miller. I can't speak to that, but I can say that in 
our order on security, we required all companies to look at 
their emergency plans as they needed to be adjusted to have 
links established with offsite officials, the local law 
enforcement and the like. So in our order, we did look for all 
of our licensees to examine their--and upgrade their emergency 
plans to deal with that sort of issue. But your question is a 
broader one.
    Mr. Tierney. Can I have Mr. Conklin just respond?
    Mr. Conklin. As far as integrating the offsite first 
responders, all of these plans do that. We work closely with 
the medical communities, for example, the hospitals and the 
first responders around these facilities, the fire departments; 
and in a lot of cases there are memorandums of agreement or 
understanding between, for example, the nearest fire station to 
help provide fire support onsite. So we do work closely to 
ensure that those things are integrated.
    Mr. Tierney. Do you have the plans to--force-on-force sort 
of exercises incorporating all of that?
    Mr. Miller. In my remarks I talked about the force-on-force 
exercises that we are initiating. We've got a pilot program. 
Some four plants across the country will engage in this pilot 
program. The intent of this is to perfect the methods and then 
to conduct such exercises on an every 3-year basis at all 
plants across the country.
    Mr. Tierney. Every 3 years?
    Mr. Miller. Every 3 years.
    Mr. Tierney. Do you think that will be sufficient?
    Mr. Miller. These are very significant efforts. It's a 
large undertaking. They're very challenging, tough exams, and 
that's more frequent than what we had done prior to September 
11.
    Mr. Tierney. What is the turnover rate of security 
personnel within those plants, though?
    Mr. Miller. I can't speak to that. It varies from plant to 
plant, but I must say beyond those mock attacks, those force-
on-force exercises, we will continue to do our inspections of 
security at the plants; so it isn't as if there will be no 
inspection during that period of time.
    Mr. Tierney. Thank you. My time is apparently up. Thank you 
for your answers.
    Mr. Shays. Mr. Janklow.
    Mr. Janklow. Thank you very much, Mr. Chairman. Mr. 
Conklin, when Congresswoman Kelly asked you if you would 
include in your report somewhat of an analysis on the 
communication problem, could I ask you if you would expand on 
that, please? Let's just take four plants in the country. The 
one in San Onofre, Monticello in Minnesota, the Public Power 
district one in Nebraska and Indian Point, and if you would 
prepare for this committee--because I think it would be 
terribly enlightening for everybody to run an analysis of what 
are the communications that all of the various government 
entities utilize. I'm aware some are on high band and some are 
on low band; some are on UHF, some are on VHF; some are on AM, 
some are on FM. Some are on low band, some are 150, 450, 700, 
800, 900.
    My point is, I think we're going to find that sheriffs and 
police departments, city street departments, State highway 
departments, State highway patrols or State police, depending 
on what they're called, local ambulance services, or ambulance 
services and hospitals, the Bureau of Indian Affairs, the ATF, 
the FBI, we're going to find everybody's almost on a different 
system and different frequencies. I think, as you know, that in 
a true disaster we can have mobbing--we can have mobbing 
exercises with a plant, but you can't with the public. The 
public, when they get called upon, it's going to be their first 
time, and it may be for real and without the ability for 
everybody to be able to communicate together. All the planning 
in the world is going to be irrelevant. You are going to have 
mothers looking for their children. One's in a school and 
another one's in a day care center someplace, the parents at 
work. No one's going to follow some orderly evacuation process.
    And I'm not saying this in a critical way, but 
communication becomes absolutely crucial to the success of a 
mission. And it would be very helpful, I think, to this 
committee and to decisionmakers, if you could prepare as part 
of the analysis response to Congresswoman Kelly, all four of 
those plans. It won't be difficult. It's not your fault or 
problem. We understand that. The FCC has all of these 
frequencies allocated, and busting it loose from them--it's 
easier to get something out of the Soviet Union sometimes than 
it is the FCC. So it's not a problem with you folks, but you 
could help enlighten all of us so that we could maybe get 
involved in the decisionmaking process between the legislative 
and executive branches. Would you do that, sir?
    Mr. Conklin. Yes, sir. Could you just mention the third 
plant you mentioned?
    Mr. Janklow. San Onofre in California, Monticello in 
Minnesota--I can't think of where the one's located in 
Nebraska--and Indian Point. The only reason I did that is those 
were four dispersed geographical areas, so I think it would 
highlight it.
    Mr. Shays. If the gentleman would suspend, if you would 
just make sure the committee got that, and we will make sure it 
gets to Mr. Janklow and others.
    Mr. Janklow. And then, Mr. Miller, maybe my questioning 
hasn't been fair to you. I asked you about terrorist incidences 
and you keep responding how the designs have been to 
earthquakes and hurricanes and things of that nature. And I 
think it's fair to say back when these plants were designed, no 
one ever anticipated that there would be suicide missions to 
fly into them, for example. People were far more concerned 
about a ground assault or stealth of some kind to get inside of 
them.
    Is this part of the problem that you have, sir, that the 
chairman really was asking questions around that area--you know 
very well that terrorists know the vulnerabilities. If we have 
people that are prepared to die and we have people that have 
huge amounts of force, it's probably fair to say, isn't it, 
these plants may withstand it under certain circumstances, but 
this isn't what they were designed to deal with; is that 
correct?
    Mr. Miller. Well, they are the two parts. There's the part 
that involves the----
    Mr. Janklow. Could you move closer to the mic, sir?
    Mr. Miller. Yes. There are two parts. There's the part that 
involves the attack on the plant, and I hope that the 
terrorists, if they are studying the situation, will see that 
if they were to attempt to attack a plant, they're dealing with 
a very menacing situation with a very heavily armed security 
force at those plants, with very significant external barriers, 
including detection systems and the like. The security was 
strong prior to September 11 and it's stronger now.
    The other part has to do with cataclysmic or extreme events 
such as airplanes and the like, and as I've said, we have been 
doing studies. The results of those are not completed at this 
point, but it's in that regard that I talked about these plants 
being designed not specifically for a current-day, modern--a 
modern jetliner, but they are designed for these other 
phenomena. And that leads to an inherent very strong set of 
structures, and so the public shouldn't have the view that 
these are facilities that are soft targets, easily impacted 
by--you know, by extreme events such as that.
    Mr. Janklow. Understand. But I think we can all appreciate 
the difference between a hurricane or a tornado and a sizable 
aircraft flying into them as opposed to a Cessna 172 or a Piper 
Archer or something----
    Mr. Miller. The studies that have been done to this point 
have indicated that the existing planning basis, emergency 
planning basis, needs not to change at this point because it 
already requires the ability to deal with very large rapidly 
developing releases from a nuclear power plant. It's a 
testament really to the strength of the emergency planning 
basis that was in place prior to September 11 that we make that 
comment. It is not intended to downplay the potential for these 
attacks, and so it's in that respect that we make the comments 
we make.
    Mr. Janklow. One last question. And I'd like to ask you 
both in your personal opinion, is the jurisdiction that the 
Nuclear Regulatory Commission has to deal with these types of 
situations and the jurisdiction that FEMA has to deal with 
them, recognizing the new Homeland Security--does each of your 
responsibilities lie in the correct area of the government? Is 
FEMA the right place to deal with it outside the facility and 
the NRC inside the facility? And I'm frankly more concerned 
with outside than inside. I think the safety within these 
facilities has been exhibited to show is very, very 
significant, other than a cataclysmic type of explosive attack, 
if I can put it that way, or impact attack; but in terms of 
FEMA's responsibility, which is awesome, to deal with perceived 
panic, concern, orderly evacuation, caring for people, is FEMA 
the right agency, Mr. Conklin, to have this, in your personal 
opinion?
    Mr. Conklin. Yes.
    Mr. Janklow. Thank you.
    Mr. Shays. Mrs. Kelly.
    Mrs. Kelly. Thank you, Mr. Chairman. Mr. Miller, I'm going 
to ask you two questions and I want a yes or a no answer on the 
two questions, and then I have a followup. Were there any out-
of-sequence activities or crediting used during the last 
exercise at Indian Point?
    Mr. Miller. I believe there were.
    Mrs. Kelly. Do you know if it was crediting or out of 
sequence?
    Mr. Miller. I'm not sure I understand the distinction. And 
if you're referring to offsite, I would respectfully ask that 
FEMA answer that question. Perhaps Mr. Conklin may not know the 
details, but----
    Mrs. Kelly. Mr. Conklin.
    Mr. Conklin. There were out-of-sequence exercises conducted 
as part of the review and evaluation of the Indian Point plans 
and procedures.
    Mrs. Kelly. Will you give me a yes/no answer to this 
question? Were the reception center activities done in real 
time or out of sequence?
    Mr. Conklin. I believe they were done out of sequence.
    Mrs. Kelly. I have in my hand an internal memo. It's an 
older memo from FEMA. This states, ``The root causes identified 
in the Indian Point II accident for failure and emergency 
preparedness were unrealistic drills and artificialities in the 
practice of new or existing procedures. The result was that in 
this real incident, the State and locals could not respond to 
the continuous flow of information nor could they integrate 
their response as needed. This could affect our assumptions 
about out-of-sequence demonstrations and the impact of granting 
credits and exempting exercise demonstration and evaluations.''
    I'm reading this into the record because this memo came 
from FEMA. I think it's very important that we focus on what 
exactly is being done to face this realistically instead of 
putting in--taking in credits or doing something out of 
sequence. When was the last time that an unannounced exercise 
took place at Indian Point, Mr. Conklin?
    Mr. Conklin. I don't know.
    Mrs. Kelly. Mr. Miller.
    Mr. Miller. There have been a number of unannounced----
    Mrs. Kelly. No. I just want when the last time was.
    Mr. Miller. I don't know. On site there have been a number 
of those, but offsite I'm not aware.
    Mrs. Kelly. When was the last onsite unannounced?
    Mr. Miller. I can't recall. There are various drills that 
are done to, in fact, among other things, assure that people 
can respond within required times. Those are done periodically.
    Mrs. Kelly. Within the framework of those people that have 
already been sworn in, is there anyone sitting in the audience 
that can answer that question? So you don't know if there was 
ever--is that a safe assumption--you don't know if there was 
ever an unannounced exercise?
    Mr. Miller. Are you referring to an exercise that involves 
all of the offsite responders, local officials and the like?
    Mrs. Kelly. Well, you gave me a choice. So let's take both.
    Mr. Miller. Yeah----
    Mrs. Kelly. Internal and external.
    Mr. Miller. Off-site emergency exercises, because they 
require numerous people who have other jobs beyond just 
emergency preparedness, are planned well in advance of the time 
that those are conducted. What I was referring to was onsite. 
There are periodic drills in power plants to look at the 
ability for people to respond in short time. Individual drills. 
I just can't give you the exact times that those were done. I 
know that they have been done over the past several years at 
Indian Point.
    Mrs. Kelly. Can you get back to me on the answers to these 
questions?
    [The information referred to follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Kelly. I have another question. And that is, Mr. 
Conklin, is it correct that FEMA is going to soon be taking 
public opinion on the proposed changes to the REP program? You 
can just answer yes or no.
    Mr. Conklin. We don't have it in our plans at this moment.
    Mrs. Kelly. So the answer is no, you're not going to take 
public comment?
    Mr. Conklin. No. Not through a formal process, no. We have 
not set that up.
    Mrs. Kelly. Thank you very much, Mr. Chairman. Yield back.
    Mr. Shays. Thank you. We will get to the next panel very 
shortly here.
    As I've listened to the response, I'm kind of wrestling 
with why we're not making much progress, at least as far as I 
can see, and I don't really understand much more than when I 
started this hearing. I know that 50 percent of the electric 
generation is coal and 20 percent is nuclear, and I know it's 
huge, and I know that we have to be concerned about global 
warming and I know we need energy and I know we've got to be 
careful that we don't foolishly shut down plants and cause a 
crisis in energy. I know all of those things.
    But what I find eerie is that I would get a letter from the 
chairman of the NRC that basically doesn't feel that there is 
any significance to a terrorist attack other than any other 
kind of crisis at a nuclear generating plant. And I am 
concerned with the concept in this letter that the Witt report 
had undue weight to the impact to potential acts of terrorism. 
And then I'm trying to reconcile, Mr. Miller, your comment to 
when Mr. Tierney said, ``I would assume that during an accident 
release, everyone at the facility would be working together to 
stop a potential release in a terrorist incident; however, 
wouldn't you assume a faster radiological release, since the 
operators may be trying to apply compensatory measures under 
gunfire and explosions?'' And you say yes. So in that sense, 
you see it, and yet you don't relate it to the bigger picture. 
And I just find this kind of like there's no connection.
    I would be much more comfortable if you just said, 
obviously there are going to be differences and we're working 
on it. That would make me feel a lot better. It doesn't make me 
feel good that we have never, ever found a need to look at an 
evacuation plan and say maybe the plant needs to be shut down.
    And, Mr. Conklin, I want to ask you, does FEMA agree with 
the NRC that the Witt report gives undue weight to potential 
terrorist attacks? Do you believe the Witt report gives undue 
weight to the potential terrorist attacks?
    Mr. Conklin. We believe that all potential accident 
scenarios need to be considered and looked at when developing 
emergency response plans around these facilities or other 
facilities, whether they're chemical, nuclear, or anything else 
in which a release of hazardous materials or radioactive 
materials can cause an offsite impact.
    Mr. Shays. You answered a question I didn't ask, but now 
answer the question I asked.
    Mr. Conklin. I believe to ignore is to ignore the elephant 
in the room; that it's a big issue there, and we need to 
address it and take a look at it from the standpoint of the 
guidance that we currently have in place and how we conduct our 
exercise. I don't believe it gives undue weight. No, I don't.
    Mr. Shays. Mr. Conklin.
    Mr. Miller. Mr. Chairman, may I try----
    Mr. Shays. No, not yet. Not yet. You got it to the end and 
the question is you do not believe what?
    Mr. Conklin. I do not believe it gives undue weight. I 
believe it's an issue that needs to be looked at and needs to 
be looked at seriously, and I believe with the new formation of 
the Department of Homeland Security and FEMA's incorporation 
into the Emergency Preparedness and Response Directorate, 
positions us well to take advantage of a lot of activities 
across the government that can help us look at this issue in a 
much broader, more detailed view.
    Mr. Shays. Mr. Miller.
    Mr. Miller. Mr. Chairman, context is everything here. And 
that comment that we made was made recognizing that, as Mr. 
Witt himself or the Witt group acknowledged, it wasn't within 
their charter to look at security in detail. They didn't have 
the time to look at security in detail. The report recognized 
that. The Commission issued that letter to make clear that many 
steps were taken, that the Witt report and the Witt committee--
the Witt study was not able to examine. So it was in that 
context we said we thought it appeared as if undue weight may 
have been given, that not enough was recognized regarding the 
kinds of steps that I had talked about earlier.
    So it was not in any way downplaying terrorism and the 
potential impacts that it could have. And as far as differences 
are concerned, certainly a scenario involving terrorism would 
be different than, you know, sequences that might involve a 
pump or a power supply and the like. But what we have always 
required is that the emergency plan be able to deal with a 
whole spectrum of things, things we can't even think about 
today. And it's in that respect, it's in the result, it's in 
the outcome, that we have talked about how the current 
emergency plans, we feel, address and encompass the kinds of 
things that can occur as a result of a terrorist attack. We're 
talking about the potential for releases from the plant. We 
have always required that large, fast developing releases be 
addressed through emergency planning.
    Mr. Shays. I feel like you're giving me old theology, and I 
feel that it is not pertinent to what we are dealing with now, 
and so we're going to have just a difference of opinion. You 
obviously are telling me what you believe, and it scares the 
heck out of me that you believe that. It gives me no 
confidence. And I didn't intend to come to the hearing--and I 
thought this panel would be quick in and quick out, and I 
thought we'd spend a lot more time on the third panel. So it's 
just probably been one of the most unsatisfying panels in my 4 
years that I've ever listened to, because I feel like we aren't 
being honest with the American people. That's the way I feel.
    Mr. Miller. Well, we continue to look at vulnerabilities. 
I've said that. We have not stopped looking at the potential 
vulnerabilities associated with terrorism, and hopefully you 
don't take away from this that we have stopped, and all the 
actions that we think, you know, will ever need to be taken 
have been taken. We're continuing to examine that. So in that 
sense we've not closed out our consideration of what the 
potential effects of terrorism would be.
    Mr. Shays. I'm just going to read this paragraph--I got it 
from the chairman--and then we're going to go to the next 
panel: ``while we appreciate and recognize the effort that went 
into the draft report, we believe the draft report appears to 
give undue weight to the impact of potential acts of terrorism 
on emergency planning and preparedness.'' And continuing, and 
in context with the rest of what's said, ``Emergency 
preparedness programs are designed to cope with a spectrum of 
accidents including those involving rapid large release of 
radioactivity. Emergency preparedness exercises invariably 
included large releases of radioactivity that occurs'' 
slightly--``shortly after the initiation of events. Necessary 
protective actions and offsite response are not predicated on 
the cause of events. Whether releases from the plant occur as a 
result of terrorist acts or equipment malfunctions, emergency 
plans guide decisionmakers and responders in the same way. 
Preliminary results from our vulnerability studies do not 
indicate an increased source term or quicker release from 
terrorist-initiated events than is already addressed by the 
emergency planning basis required by the NRC regulations and in 
place at Indian Point.''
    I believe that's old theology. That's what I believe. It is 
my practice to allow the last word on the part of the 
panelists, so you have the last word, and then we'll get to the 
next panel.
    Mr. Conklin is there anything you wanted us to ask that you 
were prepared to say that you need to put on the record?
    Mr. Conklin. I would just like to say that the REP program 
is committed to supporting the efforts of State and local 
governments to improve the planning and exercise process, and 
thank you for the opportunity to be here before you today. And 
what we will do is continue to work with the folks on Indian 
Point and all the other nuclear sites to improve their programs 
and plans.
    Mr. Shays. Mr. Miller.
    Mr. Miller. Mr. Chairman, NRC has taken strong steps to 
assure that security is appropriate for this post-September 11 
environment, and we continue to examine the threat environment, 
working closely with the Department of Homeland Security and 
other appropriate Federal agencies. And we will also continue 
to work with stakeholders at all plants and, in particular, the 
Indian Point plant, as the State, FEMA, and others work to 
address the issues that have come up in that case. Thank you, 
Mr. Chairman.
    Mr. Shays. Thank you very much, gentlemrn.
    Our second panel is the honorable Richard Blumenthal, 
attorney general, State of Connecticut; Mr. John Wiltse, 
director, Office of Emergency Management, State of Connecticut; 
and the honorable Richard Bond, first selectman, Town of New 
Canaan, which is also in the State of Connecticut.
    A little bias toward Connecticut on this panel here.
    Gentlemen, if you could just remain standing, I will swear 
you in before you sit down. Thank you.
    [Witnesses sworn.]
    Mr. Shays. Thank you very much. Please be seated.
    Just change those names around; we have you in reverse 
here, but we'll just switch those around. Would you change the 
names? That goes over one.
    Gentlemen, sorry to keep you waiting. Your testimony will 
be part of the record. You can read from your testimony. You 
can summarize it and make comments to comments you've already 
heard. You have the time and it's yours.
    And I think we are going to start out with you, Mr. 
Blumenthal. Is that correct? And then we will go to Mr. Wiltse 
and then we will end up with the first selectman of New Canaan.

 STATEMENTS OF RICHARD BLUMENTHAL, ATTORNEY GENERAL, STATE OF 
  CONNECTICUT; JOHN T. WILTSE, DIRECTOR, OFFICE OF EMERGENCY 
   MANAGEMENT, STATE OF CONNECTICUT; AND RICHARD BOND, FIRST 
                 SELECTMAN, TOWN OF NEW CANAAN

    Mr. Blumenthal. Thank you very much, Mr. Chairman. And may 
I thank you and Congressman Kucinich for your leadership in 
having this hearing. And to Congresswoman Kelly for her 
leadership as well; you and other Congressmen in the New York 
area, such as Congresswoman Lowey and Congressman Engel, all 
have been involved. And this issue really has been one that has 
united Connecticut and New York in a common cause simply to 
protect our citizens.
    And I want to particularly thank you for having this 
hearing because one of the illuminating aspects of what we just 
heard is that these agencies do not plan to have any formal 
public comment. And so really, you in Congress are filling that 
vacuum and it is a vital task that you are performing by giving 
citizens and their representatives an opportunity to comment 
and trying to make this process more transparent, enable people 
to be more informed so that the level of fear can be diminished 
somewhat and it is in many respects that fear that we have to 
fear more than anything else. And so I really want to thank you 
genuinely for the enormous educational function that you are 
performing.
    Mr. Shays. Would the gentleman just suspend a second? I 
want to point out that Mr. Tierney has really been very--
leading a very strong effort in this area and has kind of taken 
over for Mr. Kucinich.
    Mr. Tierney. He's just afraid I'll ruin Kucinich's 
reputation, so he wants to make it clear.
    Mr. Blumenthal. I express my thanks to Congressman Tierney, 
as well, first, may I say that I submit my testimony for the 
record and I will just very briefly restate it, but also react 
to some of what we have heard so far.
    When you commented, Mr. Chairman, that we were hearing the 
old theology, I would go even further back. I think we are in 
the Stone Age of planning for security against terrorist attack 
on our nuclear facilities; and in a sense, Indian Point is just 
a poster child for the lack of planning and safeguarding of 
these facilities across the country.
    These facilities really are dirty bombs waiting to be 
detonated. They are vulnerable to attack and they are 
improperly and inadequately safeguarded from that kind of 
attack, which we cannot anticipate in detail. But we do know, 
Mr. Chairman, as you stated so well, that the terrorists know 
more than the people, and part of what we need to do is make 
this system more transparent.
    The Witt report says, and we all know, that the current 
planning is inadequate in part because--largely because it 
fails to address the possibility of nuclear--the terrorist 
attack on these nuclear facilities. And, in fact, it says, and 
I am quoting, the plans do not consider the possible additional 
ramifications of a terrorist-caused release.
    FEMA has accepted the fact that the current plans 
inadequate, but it has ducked its responsibility by kicking 
back the issue to officials in New York. In my view, the plant 
should be shut down until we have adequate planning, including 
safeguarding against terrorist attack.
    And it's more than my opinion that counts. I believe that 
is also the law. The law indeed requires that there be an 
adequate plan.
    Connecticut has petitioned FEMA. We will side with 
environmental groups that have petitioned the NRC. We will go 
to court if necessary. But I believe that this Congress has a 
unique obligation, as well as an opportunity, to send a 
profoundly important message to the industry and the Federal 
regulators that it will not tolerate this kind of buck-passing.
    Congressman Janklow asked the question, who is at fault, 
whose fault is it that we have inadequate planning? And the 
simple answer is, we don't know. No one can say, given the 
current state of the law and given the current buck-passing 
that has happened and is ongoing.
    There are obviously needs for legal accountability and, 
more important, public policy accountability here that is 
simply not happening. And in my view, the regulatory agencies 
have dismissed and disregarded the very real threat of 
terrorist attack in the public pronouncements that you have 
cited, Mr. Chairman, and that people simply will not accept.
    What we need to do is, on Indian Point, shut it down until 
there is adequate planning. There may be objections that the 
power has to be made available from other sources. There are 
other sources, they are affordable, and they are achievable and 
must be achieved, because the safety and security of citizens 
who live in that area are at stake.
    Let me just close very briefly by saying that the Witt 
report finds that this plan is inadequate not only because it 
fails to guard against or plan for terrorist attack, but any 
sort of release would trigger an emergency that there simply 
have not been plans for.
    In terms of evacuation, Connecticut's roads would be 
involved. One-third of our population, including many of our 
major cities like Bridgeport and Norwalk, Stamford, Waterbury, 
Danbury, all would be at risk within the 50-mile area. Our food 
and water supplies would be jeopardized. And the plan really is 
inadequate because it fails to consider common sense, as well 
as science--that parents, for example, will not evacuate 
separately from their children. You don't need to do another 
study to know the answer to that question.
    And so I think that I just want to thank this committee for 
its contribution, thank the members of this panel who have 
helped to lead it and say that as State officials, we need 
Federal help. We need their resources. We need the science that 
Federal officials can make available to us. We need it now. And 
we also need, again, accountability.
    This committee has asked the right question. Who's fault is 
it? And someone has to answer, it's mine, it's ours; and right 
now, that isn't happening. Thank you.
    Mr. Shays. Thank you very much, Mr. Blumenthal.
    [The prepared statement of Mr. Blumenthal follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Mr. Wiltse.
    Mr. Wiltse. Mr. Chairman, distinguished subcommittee 
members, it is a privilege to appear before you today.
    The central question for emergency managers is not whether 
nuclear plants should or should not be shut down. The central 
question is, how can we advance existing readiness?
    One of the basic first steps in emergency planning is to 
accurately define the threat. On February 25 of this year, 
before this very committee, Dr. John J. Hamre of the Center for 
Strategic and International Studies, following an 8-month 
analysis of likely terrorism threats, testified that chemical 
and liquefied natural gas facilities were among the most 
vulnerable industrial facilities in our Nation. In analyzing 
the security of nuclear facilities, the Center found them to be 
extremely secure from nearly all types of potential acts.
    It is this type of independent analysis that can correctly 
help direct emergency planning resources. The Federal 
Government should initiate its own comprehensive vulnerability 
assessment of nuclear and another industrial facilities. 
Actions such as requiring the hardening of any critical soft 
structures or implementing tighter FAA flight restrictions 
should be considered, if determined necessary.
    With all the attention on nuclear readiness since September 
11, one would assume that there have been some new Federal 
resources for municipalities to advance preparedness. 
Unfortunately, that is not the case. The fact is that there is 
no Federal agency currently providing direct nuclear 
preparedness funding to any State or municipality. Yet there is 
a tremendous demand for new emergency management technology and 
communication systems at the local level, as highlighted in New 
York State's James Lee Witt report.
    For fiscal year 2003, Congress has provided $165 million to 
fund every State and local emergency management requirement in 
the United States, including nuclear readiness. Contrast this 
figure with $200 million in special earmarks for Homeland 
Security academic-type programs. If nuclear safety is a 
priority, then let's fund it accordingly.
    Generally, the past technical and staff assistance provided 
by FEMA has been solid. The FEMA radiological program developed 
over the last 20 years could be used to help prepare another 
industry for terrorism. However, there is much more that needs 
to be done.
    Overall, nuclear preparedness responsibilities should be 
given to the new Department of Homeland Security with a 
redefined relationship between FEMA and the NRC. The Department 
of Homeland Security with the NRC and the best scientific minds 
in the country should take the lead in updating what is known 
as NUREG 0654, or the nuclear planners' bible, last revised in 
1987. And new exercises emphasizing fast-moving events such as 
terrorist attacks should be developed for use by States and 
held more frequently.
    A central issue for nuclear emergency planners today is the 
validity of current plans' bases or standards that determine 
public protective actions. It is appropriate to ask post-
September 11, are we using valid planning standards? This 
question can only be answered at the Federal level.
    Here is some of what we do know: First, a joint NRC-EPA 
task force of technical experts established the current 10 and 
50-mile planning zones and their corresponding protective 
actions in 1980, based on a worst-case scenario that is a 
massive quick release of radioactivity.
    NUREG 0654 makes no distinction between causes of a nuclear 
incident. It calls for planners to develop appropriate 
responses regardless of the cause and to expand or contract 
protective actions as required. And we are aware of no new 
studies or scientific evidence to indicate that the existing 
planning standards regarding the reach of potential radiation 
contamination are invalid.
    Nevertheless, the Department of Homeland Security and the 
NRC should immediately reevaluate and recertify these current 
planning standards. Meanwhile, the Federal Government should 
work with States to design appropriate, new public 
precautionary measures to address the common-sense reality of 
spontaneous evacuation and the need for better public 
information.
    As a congested State and a neighbor to New York, we are 
concerned about the issue of evacuation planning for all 
hazards, not just nuclear incidents. What we would like to see 
is the development of flexible regional traffic management 
plans that can address any hazard requiring a large relocation 
of citizens.
    Progress can be made by working together. Utilities and 
local governments have implemented a series of new NRC security 
orders since September 11. In Connecticut, we have sent 
additional State and local assets to Millstone, organized 
regular meetings to improve coordination, developed and 
conducted new security exercises and established a State quick-
reaction force to respond to any security need.
    Although nuclear site security is good, the NRC should 
expeditiously complete its review of the existing design bases 
threat for which nuclear facilities must plan and consider 
providing dedicated Federal funding or security forces to 
supplement existing plant security measures.
    In conclusion, emergency management professionals around 
the United States have done and will do a formidable job of 
planning for all threats to our homeland. However, to be 
successful, two key items are necessary: clear and coordinated 
guidance from Federal regulatory agencies and the tools to get 
the job done.
    I'd be happy to address any questions you may have and 
thank you.
    Mr. Shays. Thank you very much, Mr. Wiltse.
    [The prepared statement of Mr. Wiltse follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Mr. Bond.
    Mr. Bond. My name is Richard Bond. I am the first selectman 
from New Canaan, CT. New Canaan is a town of approximately 
20,000 people, 22 square miles in size, 1 hour from New York, 1 
hour from Hartford and 3 hours from Boston. We are 
approximately 25 air miles--excuse me, from Indian Point 
Nuclear Plant.
    At the Board of Selectmen's meeting on February 18, 2003, 
the following resolution was adopted and forwarded to the Town 
Council for their adoption at their meeting on March 12, this 
Wednesday. I will read parts of it: ``resolved, that the 
Nuclear Regulatory Commission conduct a full review of the 
deficiencies identified in the independent review of the Indian 
Point Energy Center's emergency preparedness plan. Such 
independent review was conducted by James Witt Associates at 
the request of New York Governor George Pataki to improve 
understanding of the neighboring areas' ability to respond to a 
radiological event and to assist efforts to strengthen 
emergency preparedness.''
    The latter part is, further: ``resolved, that in light of 
the significant problems identified by the Witt report, 
operations at the Indian Point facility be temporarily shut 
down until the issues raised by the report are fully 
resolved.''
    I think we're all saying the same thing. When you read the 
executive summary of the Witt report, the two things that stand 
out to me, the plan--third item. The plans do not consider the 
possible additional ramifications of a terrorist-caused 
release. The plans do not consider the reality of an impact of 
spontaneous evacuation.
    And I would like to read also from the Indian Point 2 
Nuclear Power Plant exercise report. Although as noted above, 
no exercise finding rose to the level of deficiency as defined 
under 44 CFR part 350 at this time, FEMA, in the absence of 
fully corrected and updated plans for the counties and States, 
cannot provide, ``reasonable assurance,'' that appropriate 
measures can be taken in the event of a radiological emergency.
    One more thing, then I'll----
    Mr. Shays. Take your time.
    Mr. Bond. Excuse me.
    Mr. Shays. Take your time.
    Mr. Bond. In my testimony, at the end it says, of 
particular concern to the residents of New Canaan is the 
subject of evacuation. We continue to view as the most critical 
challenge to our emergency plan and planner a scenario 
involving an incident which prompts large numbers of evacuees 
into and out of the New Canaan area. We are aware that this 
concern is shared with both our neighboring communities and 
with the Connecticut Emergency Management Office. As a result 
of the complexity of this issue, combined with inadequate 
direction from the State and Federal authorities, we have not 
been able to develop a practical and viable plan of evacuation.
    The issues which inhibit a plan's development are many: 
location in the most densely populated corridor of the country, 
proportionate lack of limited roadways, rail and water 
infrastructure situated in the path of major urban escape 
routes and egress directions, limited by the physical obstacles 
of Long Island Sound and New York City are a few of the most 
obvious.
    Further, we need to factor into our planning those assets 
which will be committed from State and Federal Government 
sources. As of yet, we have not been made aware of the level of 
guidance and support we may expect to receive.
    We are perfectly capable of evacuating execution within the 
borders of New Canaan or larger-scale movements of town 
residents to nearby areas in response to local incidents. 
However, the evacuation response to regional or even broader 
emergencies must be developed within the scope of regional, 
State and Federal planning.
    Thank you, sir.
    Mr. Shays. Thank you.
    [The prepared statement of Mr. Bond follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. I'll start out the questions and just ask, just 
preface my comments by saying that Ms. Kelly's--her 
constituents are directly impacted. They're in the 10-mile 
radius, and she's already begun this process and had a hearing 
in the Department of Transportation and so on.
    We felt that the value of this hearing was to then look at 
what happens to those folks who are just kind of outside that 
boundary of 10 miles, but within the 50-mile radius, and also 
to look at what impact one State has over another.
    For instance, this was the--the Witt report was requested 
by the Governor of New York logically. It's overseen by the 
Governor of New York. We have Millstone 1, 2 and 3, big 
concerns there as well, so this report, this hearing is not 
just about Indian Point. It's to appreciate, help this 
committee appreciate how a community looks at the issue in 
general.
    For instance, Mr. Bond, I'm curious--but happy to have 
others respond. I'm curious as to when a plan is devised, let's 
just say there's been a plan for Indian Point for years. Were 
you made aware of the plan? Were you told how New Canaan fit 
into this plan?
    Mr. Bond. No.
    Mr. Shays. OK. That's it?
    Mr. Bond. That's it.
    Mr. Shays. So we have a plan--we're going to get through 
this panel real quick with answers like that, but----
    Mr. Blumenthal. He's a lawyer's dream.
    Mr. Shays. You think he's a lawyer's dream, Dick. You wait 
until you get him on the stand; you'll regret it.
    But the bottom line to it is, you're not aware of that 
plan?
    Mr. Bond. No, I'm not.
    Mr. Shays. And so we have a plan.
    Maybe, Mr. Wiltse, you could answer me, are you aware of 
that plan? I mean, you're in charge of emergency preparedness 
and so on. Would you be made aware of a plan? Not the last 
plan, but you know, in general?
    Mr. Wiltse. We, of course, are aware of New York State's 
plan and the county's plan, and in the event of an incident at 
Indian Point, we would be working with them.
    Our responsibility, of course, is to do the planning in 
accordance with the Federal requirements and guidance for those 
communities in Connecticut that are within the 50-mile zone. So 
that is where our planning, if you will, begins and our 
responsibilities begin.
    Mr. Shays. So is it your responsibility to make sure that 
the first selectman of New Canaan has an awareness of the plan? 
Is that your responsibility?
    Mr. Wiltse. That would be our responsibility to ensure that 
he knows the standards that are currently set for the 50-mile--
what's known as the 50-mile ingestion pathway procedures and 
plan.
    Mr. Shays. OK. And we are not just talking about a 
superficial presentation to the first selectman saying, you 
know, they have a plan and they will be coming over to your 
territory. Are you required to develop a plan that exceeds the 
10-mile radius and are you supposed to help design an 
evacuation for residents of the New Canaan? Who does that?
    Mr. Wiltse. Based on current Federal standards, sir, there 
is no requirement for evacuation plans for a nuclear incident 
beyond 10 miles, so there are no requirements or planning 
standards there.
    What Mr. Bond referred to, and I also referred to in my 
testimony, we do see a need to develop, if you will, all-
hazards regional plans, especially in congested areas like we 
have in southwest Connecticut, that could be put in place and 
utilized for whatever the hazard is that might affect multiple 
towns; and that is clearly something that needs to be worked 
out through all levels of government working together.
    Mr. Shays. And before I call on you, Mr. Blumenthal, kind 
of give me a sense of what I'm asking, how you respond to what 
I'm asking and what you're hearing. Try to give me a sense of 
what this means to you in terms of the 10-mile versus the 50, 
in terms of one State versus another, in terms of a local 
community really not quite knowing what their requirement is 
and what they should do, the fact that we don't even have, it 
appears, a plan outside that 10 miles.
    I mean, there are two ways you get impacted: One is, you 
get people from within the 10 miles coming in and interacting 
with your constituents, you know, using your roads and so on; 
the other issue is the need for evacuation from New Canaan. 
Should New Canaan have an evacuation plan?
    So, Mr. Blumenthal, I'm going to ask you to kind of walk me 
through some of this.
    Mr. Bond. Just one comment.
    Mr. Shays. Sure.
    Mr. Bond. As of this point in time, there are roughly 
445,000 people coming into Fairfield County from outside 
Fairfield County.
    Mr. Shays. Right now, just in terms of the work traffic?
    Mr. Bond. Work traffic.
    Mr. Shays. Yes.
    Mr. Blumenthal. Let me respond, if I may.
    I think there is a need for planning at the local as well 
as the State level, and the two have to be interrelated. In a 
sense, the local communities are now planning even with an 
inadequate plan on the part of the plant itself--New Canaan, 
for example, Westport, a number of the communities who are 
aware of the effect on them.
    One of the problems is that many Connecticut communities 
are not sufficiently aware of the dangers that are posted. But 
the impact on Connecticut will be real and immediate and, in 
fact, the impact on New York will be very sizable as well, 
because the flight from New York will be to Connecticut. And 
Connecticut's roads on a good day, at certain times, are 
parking lots, they are gridlocked. So the evacuation plans 
involving New York have to be contingent on State and local 
planning in Connecticut.
    Likewise, our food and water supplies, many of them, come 
from New York. They would be contaminated. We would face the 
same problems as New York, whether we were in the 10 or 20 or 
the 50-mile radius.
    But I think one of the key aspects that you have raised is 
that a terrorist attack will not involve simply, if there is 
one, God forbid, a strike against the facility itself; 
presumably it would also involve some effort to cause 
disruption and damage elsewhere--for example, the Tappan Zee 
Bridge--which would again force evacuation into Connecticut.
    And I guess, you know, to put it in legal terms that are 
applicable to both Connecticut and New York, there is a 
requirement that these facilities have plans that take into 
account all these ramifications in order to continue operating. 
Their license is contingent on adequate emergency preparedness 
plans, and our point is that--and we'll bring it to the courts 
if necessary--they have an obligation to comply with that law.
    Mr. Shays. OK. You don't have questions?
    Mr. Tierney. No, sir.
    Mr. Shays. Mrs. Kelly, do you have any questions you want 
to ask?
    Mrs. Kelly. Thank you, Mr. Chairman.
    I have no questions, except that I am delighted that you 
have a panel here of people from our neighboring State of 
Connecticut, because you are absolutely right, Mr. Blumenthal, 
if we don't work together, the people who live within the 50-
mile radius of this plant could conceivably be in jeopardy.
    Given the fact that the prevailing wind usually runs from 
west to east, but also looking at the number of nor'easters 
we've had this year, dumping snow all over us, there are 
factors like that we all need to think about, given our 
tortuous road system in many instances, so I'm delighted you're 
here.
    And I thank you, Mr. Chairman, for holding the hearing that 
so that we can work together like this.
    Mr. Shays. I'm just interested, I don't think any other 
Members have questions. You don't?
    OK. I would be interested in just understanding your 
concept of the legal requirements. You said, it's just not my 
opinion; you said ``the legal requirements.''
    Speak to me about the legal requirements. And what legal 
rights does Connecticut have?
    Mr. Blumenthal. We have submitted a petition to FEMA under 
44 CFR 350. And the petition essentially is to compel FEMA to 
follow its own regulations and insist on an emergency 
preparedness plan as a condition for the plant continuing to 
operate.
    As you know, FEMA has found the current plan to be 
inadequate. It has asked a number of questions of New York 
officials, Governor Pataki and the four county executives, who 
have declined to certify that plan. In our view, FEMA has an 
independent responsibility to take action. I think that the 
deadline--the earlier deadline given by Congresswoman Kelly, 
than the 75 or 150 days that FEMA wants to take, is much more 
desirable.
    But the point is that the NRC, also under its regulations 
in our view, has responsibility. There has been a petition to 
the NRC--similar to the one that we brought to FEMA--to compel 
it to suspend the license of the plant so long as there is no 
adequate emergency plan, again pursuant to Federal law. And 
that action, I believe, also has been, and can be, taken to 
Federal court.
    But all of what we have been describing for this committee 
are potential damages that give us the standing, the right and 
the opportunity to be in court, challenging the current plan 
and holding accountable the Federal agencies that thus far have 
declined, as was evident in the letter from the chairman to 
you, to recognize their responsibility.
    Mr. Shays. OK. Now let me just be clear just for the 
record.
    The plan, the legal--you have the right to challenge the 
plan that has not been acceptable, that doesn't meet legal 
requirements. It doesn't do the job. But that is just simply a 
plan that has to deal with the 10-mile radius.
    Mr. Blumenthal. In our view, no. It relates to the 50-mile 
radius and possibly beyond, because we are within the 50-mile 
radius and the emergency preparedness plan includes that area.
    Mr. Bond. Mr. Chairman.
    Mr. Shays. Yes, Mr. Bond.
    Mr. Bond. Going back to 44-350, in the absence of fully 
corrected and updated plans for the counties and States that 
cannot provide reasonable assurance that appropriate measures 
can be taken in the event of a radiological emergency, it seems 
to me the plans have to be rewritten, not just say ``meet 
them.'' I don't disagree with that. But I think they need to be 
rewritten to what the world is like today.
    Mr. Blumenthal. And they need to be brought from the Stone 
Age into the post-September 11 era, where terrorist attack is 
an urgent and immediate and realistic fear.
    Mr. Shays. Mr. Wiltse, how many people do you have on your 
staff?
    Mr. Wiltse. Currently, sir, I have 27.
    Mr. Shays. OK. Is 27 enough people for you to be able to 
work with all the communities that potentially you have to deal 
with Indian Point and Millstone 1, 2 and 3? I mean, it seems to 
me like you don't have the resources to be able to do this job.
    Mr. Wiltse. That would be a very fair statement, Mr. 
Chairman. As I mentioned in the testimony, our nuclear planning 
staff--and I think it's similar in most States--are fully 
funded by the utility. There is no fenced or dedicated funding 
from the Federal Government for nuclear planning.
    But even more so, our issues at the State level, I think we 
really have to focus at the municipal level.
    One of the key parts, if I could mention, of any plan and a 
key component when you're looking at the evacuation of the 10-
mile plan is the importance of host communities. Host 
communities, based again on the Federal guidance, are where 
evacuees are directed to go to get a variety of very important 
things, everything from KI to monitoring to shelter and food if 
they need it.
    All of those communities use their own resources except 
what they might receive from the special State utility funds, 
again funded by the utilities. There's a great burden on those 
municipalities, and quite frankly, it's just because they're 
professional and they know that there's a need that they step 
up, they step up to the challenge.
    Mr. Shays. Let me just ask what you suspect when we ask--
and I'm going to be asking the next panel if the general public 
knows about--if they're within 50 miles of a nuclear plant, if 
they know that one, there is a plan; two, if they know what 
that plan is; and three, if they know what they're supposed to 
do to implement that plan.
    What do you think the response would be around the country? 
Do you think that we're just a little behind others, or do you 
think that it's probably typical in a lot of parts of the 
country?
    Mr. Wiltse. I'd say, Mr. Chairman--I think it's typical in 
all parts of the country. Anyone living within a nuclear zone, 
one of the great needs and again something that requires, 
obviously, a lot of resources is public information and 
education not only, also, for the public, but for first 
selectmen and those officials who need to, if you will, have 
the most immediate information available.
    There's a great deal--as Mr. Witt and his staff pointed out 
in the study, for new ways to--technological ways to 
communicate directly with municipalities so that they can 
communicate with their people. There is not a good network of 
communications systems, computer-based information systems 
throughout the Nation. And that's definitely something that we 
need to work at.
    But simply the area of public information, reaching out to 
the public, only by investing there are we going to be able to 
address the issue of spontaneous evacuation.
    I think Mr. Witt, in--if you will, the--his final comments 
that he just released really hit on it and made a very good 
clarification. He was not saying that plans are--should be 
disregarded, the current plans, and that they need to be thrown 
out; the point that he made is that they need to be improved.
    We do have some basic plans. They're certainly better than 
not having any plans, as I mentioned, as in the case of some 
other industries. But that means we need to invest and put the 
investment in to make the plans what they need to be.
    Mr. Shays. Thank you.
    Is there anything that we need to put on the record, Mr. 
Bond? I mean, your concise ``no'' is probably the most 
important answer that we've received during the whole hearing.
    Mr. Bond. I think, in all due respect, Connecticut has done 
some interesting things. As of probably this week, they've--the 
health--Dr. Garcia has put in a system with every health 
director in every town, and New Canaan has a Nextel. With one 
number ring, they can contact all the health directors in the 
whole State. That's one thing.
    And then they are making available to every police 
department, ambulance corps and fire department an 800-megawatt 
radio.
    So we are making some progress, but we need some guidance 
and we need some--from the State and more so than this, 
particularly on the evacuation concern. And also we think 
that--again, that it would be preferable to correct the errors 
now and not wait for 6 months or a year. I think it'd be 
helpful.
    I think the feeling of the community would be so much--
greatly improved by the fact not to shut it down for good, make 
it right then come on back.
    Mr. Shays. OK.
    Mr. Blumenthal, anything that you would like to put on the 
record before we get to the next panel?
    Mr. Blumenthal. Once again, my thanks for helping to raise 
awareness in Connecticut about this problem because, in answer 
to your question, Connecticut is less aware than it should be. 
In many parts of Connecticut, if you ask that question about 
where is Indian Point and should we be preparing for a possible 
emergency, they would say: Indian Point? It's not on their 
radar screen, and it should be.
    And there should be--and I would just conclude with this 
thought. There should be better planning and coordination 
between the two States in communication, evacuation, medical 
and food and other supplies; and right now there is virtually 
none.
    Just as the answer to your question about New Canaan was 
``no,'' the answer to the same question, if asked, is there 
ongoing planning for Indian Point as a possible disaster area 
between the two States, the answer would be ``no.'' That is 
really an irony, because one of the findings of the Witt report 
is that the news of a disaster, whether it is a terrorist 
attack or any other kind of disaster, will spread 
instantaneously. And the current plans are inadequate because 
they assume that the government will be disseminating this 
information in the way that it wants to. Rather the public will 
be using cell phones and all the technology that are really not 
taken into account by the current plan. So, again, my thanks to 
you for increasing public education which we need to increase 
even more.
    Thank you.
    Mr. Shays. I thank you. I'll use my old theology just 
before concluding here to say that I suspect that the view used 
to be, and still is, unfortunately, that if we tell people 
about a evacuation plan and what they have to do, they will 
start raising questions about why do they need to know this. 
And then, unfortunately, it might call into question whether we 
need nuclear energy at all, which I happen to believe has a 
role to play in this country.
    And so I think the industry probably tries to downplay it. 
But if we're going to be honest with the American people if we 
have this type of energy--and we do; we get 20 percent of it 
for electricity throughout the United States--we'd better know 
how to respond to it and how to protect ourselves.
    But in one sense this is kind of a surreal conversation, 
though isn't it because if we had to evacuate, there's the 
question, would you ever get to come home, which is a little 
unsettling?
    I thank you all very much. I appreciate your waiting so 
long and this is very helpful to us. Thank you so much, 
gentlemen.
    Mr. Shays. We're going to do our panel three, which is Mr. 
Jim Wells, Director, Natural Resources and the Environment, 
U.S. General Accounting Office; Mr. Michael Slobodien--if I'm 
saying that correctly; I'm probably not--director of Emergency 
Programs, Entergy Nuclear Operations, Inc.; Mr. William Renz, 
director, Nuclear Protection Services and Emergency 
Preparedness, Dominion Resources Services, Inc.; Ms. Angelina 
Howard, executive vice president, Nuclear Energy Institute; Mr. 
Alex Matthiessen, executive director, Riverkeeper; and Mr. 
David Lochbaum, nuclear safety engineer, Union of Concerned 
Scientists. Big panel, but a very important panel. We 
appreciate your being here.
    Thank you for staying--standing, and I will swear you in 
now. Is there a likelihood that you would be calling on someone 
else to be able to respond? We'll get another chair if we need 
it.
    Is there anyone else that might? If you are, I'd appreciate 
your standing up, and we'll swear everyone in; and if we call 
on you, we'll just know that you were sworn in.
    Raising your right hands, thank you, gentlemen and ladies.
    [Witnesses sworn.]
    Mr. Shays. Note for the record everyone has responded in 
the affirmative. Please be seated. Do we have enough chairs?
    Mr. Renz, I'm going to have you slide a little to your 
right just a speck, I guess, and then slide over a little bit.
    Yes, that's good. OK. Have we left anyone out?
    I may have not pronounced your name correctly, sir.
    Mr. Slobodien. Slobodien.
    Mr. Shays. Slobodien?
    Mr. Slobodien. Yes.
    Mr. Shays. Thank you. I'm sorry I didn't pronounce it 
correctly.
    It's wonderful to have you here. I'm sorry you had to wait 
so long. I suspect you probably figured that might happen.
    But what I would appreciate is that you recognize that this 
is a very important panel; we're looking forward to some of the 
interaction that will take place between you. I would be more 
inclined to want to hear--have you speak for 5 minutes rather 
than 10, given the size of this panel. And I think we all will 
have questions for you.
    So we'll start, I guess the way you're seated, OK? And 
that's the way we'll do it.
    Mr. Wells.

 STATEMENTS OF JIM WELLS, DIRECTOR, NATURAL RESOURCES AND THE 
    ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE; MICHAEL J. 
   SLOBODIEN, DIRECTOR, EMERGENCY PROGRAMS, ENTERGY NUCLEAR 
OPERATIONS, INC.; WILLIAM F. RENZ, DIRECTOR, NUCLEAR PROTECTION 
    SERVICES AND EMERGENCY PREPAREDNESS, DOMINION RESOURCES 
 SERVICES, INC.; ANGELINA S. HOWARD, EXECUTIVE VICE PRESIDENT, 
NUCLEAR ENERGY INSTITUTE; ALEX MATTHIESSEN, EXECUTIVE DIRECTOR, 
RIVERKEEPER; AND DAVID LOCHBAUM, NUCLEAR SAFETY ENGINEER, UNION 
                    OF CONCERNED SCIENTISTS

    Mr. Wells. Thank you, Mr. Chairman. We are pleased to be 
here today to discuss emergency preparedness at commercial and 
nuclear power plants.
    Twenty-four years ago, March 1979, the accident at Three 
Mile Island challenged emergency planning. The residents at 
Indian Point Nuclear Power Plant awoke in February 2000 to 
similar concerns. Following the September 11 terrorist attack, 
nuclear power plants have once again received a high level of 
focus and concern. Almost 2 years later, we're sitting here 
today learning that we still have to get our act together, and 
we still have a ways to go on emergency planning.
    You have already heard testimony from NRC, FEMA and others 
on the events at Indian Point. Clearly, no one is going to take 
emergency preparedness lightly. But as you can see today, Mr. 
Chairman, getting facts to questions is like asking auditing 
questions, that it is sometimes difficult to get the answers; 
and we share your pain.
    At the time we looked at Indian Point, NRC had identified a 
number of emergency preparedness weaknesses that had gone 
largely uncorrected. I think it would be fair to say that over 
the years, Consolidated Edison's efforts to improve were not 
completely successful. And it's fair to say from our 
perspective that the NRC and its IGs had maintained a strong 
regulatory posture in finding problems. They identified 
problems, but didn't necessarily always have the solutions.
    For example, 1996, 1998, 1999, NRC identified communication 
weaknesses. These included delays as simple as just notifying 
and getting the pagers to work so that people could be told of 
an emergency. The IG also issued a strong report. The plant 
has, and is, taking corrective actions to address these 
problems. According to a 2001 NRC inspection report, these 
actions, when they went in and looked, were not fully 
effective. Although NRC is finding problems--although of a 
minor nature, it expressed the view that the existing program 
could protect the public.
    The four New York communities surrounding the facilities 
also had their problems and made improvements over time. But we 
continue to hear a common theme that suggests that better 
communication among NRC, FEMA, State and local entities is 
clearly needed.
    For example, the classic case of confusion occurred when 
the plant reported that a release had occurred, but posed no 
threat to the public; yet, the county officials reported that 
no release had occurred. This contradictory information has led 
to credibility problems with the media and the public, and it 
continues to do so.
    We also reported the concern, and the main message of our 
GAO report was that the NRC and the FEMA communication was 
oriented toward the State officials and less with local 
officials. Both NRC and FEMA continually told us that they had 
limited resources that forced them to rely on the States to 
work more closely with the counties.
    Effective communication, over and over again, has been 
pointed out as being extremely critical to respond to a 
radiological emergency. You've heard it today.
    We recommended that NRC and FEMA reassess these policies 
for communicating primarily with the State and in those 
instances where the local communities are clearly the first to 
have to respond to this emergency.
    Mr. Conklin today, Homeland Security, used the terminology, 
``working closely with the local communities.'' Mr. Miller, 
NRC, used the words ``closely monitoring all the existing 
reports'' that were coming up and used the terminology 
``stepped up meetings.'' I guess it depends on your definition 
of ``closely,'' because we called the local officials as we got 
ready for this hearing and we asked questions about how had 
communications improved. And I think it would be a general, 
valid statement to say that the answers we were getting back 
from many of the local officials was that not much has changed.
    So I guess your definition of ``closely'' may depend on 
whether it's minuscule or some, but that was what we were able 
to find in a few days before coming to the table here today.
    You also asked us our opinion about the latest review that 
had been done at Indian Point, the draft Witt report. Clearly, 
the Witt report was more technical than our 2000 report, but 
they both addressed difficulties in communications and in 
planning inadequacy. The Witt report implied that the current 
radiological response system and capabilities are not adequate 
to protect the public from an unacceptable dose of radiation.
    We are aware, Mr. Chairman, that FEMA has disagreed with 
some of the issues raised, but they also admit that the report 
does highlight several issues that are worth considering in 
order to improve emergency preparedness not only at Indian 
Point, but perhaps more importantly, nationwide.
    And at the risk, Mr. Chairman, of raising your ire, we also 
saw where NRC had commented that the report gives undue weight 
to the impact of terrorism. But the point, regardless of these 
quick positions, is that if the Witt findings are true, these 
findings may have merit across the board at all the nuclear 
power plants, and clearly more needs to be done.
    Mr. Chairman, in summary, let me just say that the post-
September 11 environment clearly raises new challenges for NRC 
and FEMA. NRC and the nuclear industry, some of which are here 
on the panel today, they deserve a lot of credit for taking 
action quickly to strengthen their security as a result of a 
changing world. However, let me just make two quick points.
    First, at Indian Point, there's been a lot of ink in the 
press. There've been a lot of audit reports in GAO, from the 
NRC IG and even the new Witt study questioning the weaknesses 
in emergency preparedness. We, today, are still concerned that, 
as revealed in the hearings today, problems in emergency 
preparedness are still commonplace.
    Mr. Chairman, in your opening statement you used the 
terminology, ``deficiencies can linger for years;'' that is 
unfortunately too true. Even minor problems can cause concern.
    As to what happened at Indian Point, senior management 
officials must clearly pay attention to emergency preparedness. 
These plans have not received, as they should, greater 
visibility--sometimes minimal direction and inadequate resource 
allocation. We heard 27 people in the State of Connecticut, for 
instance.
    Second, the point I want to make is the old saying, ``What 
gets watched gets done,'' is particularly appropriate here. 
Hearings like this today that continue to focus on the NRC 
mission to provide quality oversight--I'm not sure we heard 
quality oversight today, but clearly our goal is to assist you, 
Mr. Chairman, and your committee in sorting through where do we 
go from here as a nation. And I agree 100 percent that the 
public has a right to know.
    Thank you, Mr. Chair. I'll conclude my remarks.
    Mr. Shays. Thank you, Mr. Wells.
    I just would thank you for being here and say to you that I 
appreciate that the GAO is willing to be on panels with others 
that makes it more interesting rather than a separate panel. 
But it speaks well for your organization and we thank you for 
that.
    [The prepared statement of Mr. Wells follows:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Mr. Slobodien. Did I get it right this time? 
Almost.
    Mr. Slobodien. You did, sir.
    Mr. Shays. Good. It's a good name.
    Mr. Slobodien. Thank you, sir.
    Chairman Shays, distinguished members, I am Michael 
Slobodien, director of emergency programs for Entergy Nuclear, 
Northeast. I'm honored to appear here before you today, and 
appreciate the opportunity to provide you with this testimony.
    I am a board certified health physicist with 33 years of 
professional experience in radiation safety, industrial 
hygiene, environmental programs and emergency planning. I have 
responsibility for the overall program management of Entergy's 
emergency response activities for the Indian Point Energy 
Center, the James A. Fitzpatrick Pilgrim and Vermont Yankee 
Nuclear Power Plants. My offices are in White Plains, NY, and I 
report to the president of Entergy Nuclear in the Northeast.
    Entergy is the second largest operator of nuclear power 
plants in the United States with 10 operating reactors and it 
is the largest provider of nuclear power industry license 
renewal and decommissioning services.
    We managed the planning and early implementation of the 
decommissioning strategy for the Millstone 1 reactor in 
Waterford, CT, and currently manage the decommissioning of the 
Maine Yankee reactor in Wiscasset, ME.
    Today, I would like to make several points regarding the 
Indian Point Energy Center and the implications it has for the 
health and safety of the citizens of New York and the adjacent 
States of Connecticut and New Jersey. In these remarks, I rely 
on established science.
    A most significant point is that an accident at the Indian 
Point Plant involving the release of large amounts of 
radioactivity is extremely unlikely. Even in the event of a 
terrorist attack of the types we have even on civilian and 
military targets worldwide--this includes the intentional crash 
of a large aircraft into our hardened facilities--the design of 
the Indian Point Nuclear Plant incorporates extensive safety-
feature redundancy and physical protection to ensure that the 
reactors and spent fuel facilities can withstand a wide sphere 
of accidents, whether caused by human error, mechanical 
failure, natural disasters, or acts of terrorism.
    The plants are in no way dirty bombs. In fact, a nuclear 
power plant cannot undergo a nuclear explosion. It's a physical 
impossibility. According to James Kalstrom, former Director of 
the New York city office of the Federal Bureau of 
Investigation, who, at the request of Governor George Pataki, 
performed an exhaustive security study of Indian Point in the 
wake of the September 2001 terror attacks on this Nation, 
Indian Point is, ``an extremely safe place,'' and is among the 
best protected and most secure civilian facilities in the 
country.
    The Nuclear Regulatory Commission has frequently said that 
Indian Point is the best defended reactor in the country. While 
it is possible, although extremely unlikely, that there could 
be a circumstance that could lead to a release of radioactivity 
to the environment, the distances from Indian Point to New York 
City, Connecticut, and New Jersey are such that radiation doses 
would be lower than levels that could cause acute injury or 
illness. Any long-term effects would be indistinguishable from 
normal background levels.
    In short, the citizens of Connecticut and New Jersey are 
not at risk from an accident at Indian Point, including an 
event that could be caused by terrorists. In the same way, the 
citizens of New York are not at risk from the three Millstone 
nuclear reactors in Waterford, CT. These statements that I make 
are based on extensive worldwide experience in radiation 
effects gathered since the earliest use of radiation as x-rays 
discovered by Wilhelm Roentgen in 1895. Since that time, no 
environmental agent has been studied more extensively than 
radiation.
    Our understanding of radiation's transport in the 
environment, resulting doses, and consequent health effects is 
documented in many reputable sources, including the National 
Academy of Science's Committee on Biological Effects of 
Ionizing Radiation; the United Nations Scientific Committee on 
the Effects of Atomic Radiation; the Radiation Effects Research 
Foundation, which has studied and continues to follow the 
population in Japan in its response to the radiation exposure 
since 1945; the World Health Organization and the International 
Agency for Research on Cancer, just to mention a few.
    I've attached in my written statement a bibliography of 
reports and Internet Web sites that may be beneficial to this 
committee.
    A second key point is the analysis related to accidents and 
their consequences for Indian Point plants do take into 
consideration a wide spectrum of causes, as I mentioned 
before--human error, mechanical failure, natural disasters and 
indeed terrorism. None of the factors noted above, including a 
terrorist attack, would lead to a release of radioactivity 
different from what is already analyzed. And I think it's 
important that I explain why, because the amount of 
radioactivity in the nuclear power plant is fixed.
    There's a certain inventory. It's unchanging. A terrorist 
event neither adds to it nor subtracts. But no worse can happen 
as a result of that. In fact, our emergency plans and those of 
government are designed to deal with the challenges that might 
be caused by a terrorist attack and are not dependent on the 
cause of an accident.
    The plans are symptom-based; much as a physician treats a 
patient who comes into the hospital, based on symptoms, so do 
we, as emergency planners and responders, deal with symptoms. 
And our plans are designed to work regardless of the 
circumstances that could cause release of radioactivity to 
others.
    A third key point is that a release of radioactivity to the 
environment, regardless of the cause, would move into the air 
in a plume whose size and shape would be determined by 
prevailing weather. Plumes tend to be narrow, their 
concentration decreases rapidly with downwind distance and the 
effects diminish proportionately to the increase in downwind 
distance.
    Plumes are functions of nature; they are predictable and 
they are monitored easily. We know that plumes that could come 
from Indian Point would tend to remain in the Hudson Valley 
despite the fact that prevailing winds are from east to west. 
The structure of the valley itself keeps winds moving generally 
north to south or south to north in the river valley.
    Our knowledge of plumes, coupled with our extensive 
knowledge of radiation effects, enables experts such as Richard 
Codell and Sarbeswar Acharaya of the Nuclear Regulatory 
Commission to conclude that New York City, Connecticut, and New 
Jersey residents are not at risk from a serious accident at the 
Indian Point Energy Center.
    While it is possible to find nuclear power plant accident 
analyses that predict dire consequences, such analyses have 
employed grossly unrealistic or impossible assumptions.
    Last, I'd like to take a few moments to speak to the report 
on emergency preparedness at Indian Point and Millstone issued 
by James Lee Witt Associates. Entergy noted that the report 
contains useful insights and recommendations, many of which we 
had under way prior to the start of the Witt report study.
    Two of the areas noted for improvement in this Witt report 
are public education and outreach. We heartily agree. We 
believe that all of us here today share in the responsibility 
to improve the level of education about nuclear power and 
radiation safety. This is essential to counter the fears 
inspired by certain advocacy groups, noted by Mr. Witt, that 
said, ``In pursuit of their agenda to close Indian Point, they 
have misused NRC data presumably to frighten and alarm the 
public. Misuse of information can lead to behavior that may 
endanger the public health and safety close.''
    The fears of the public about nuclear power are largely a 
result of use of misinformation. This is not limited to Indian 
Point. This, indeed, as has already been discussed, is a 
national issue.
    We disagree with a number of points in Mr. Witt's report 
and do not find support for the conclusion that present 
radiological emergency plans are not adequate to protect public 
health and safety. But we believe that those plans are capable 
and have been demonstrated to protect public health and safety 
in the extremely unlikely event of a serious accident at the 
Indian Point Energy Center.
    They need to be improved, there's no doubt. And we are 
conscientiously working with the local government and the State 
of New York to improve those plans.
    Entergy is committed to operating all of our nuclear plants 
with safety as the foremost objective. With that in mind, we 
engaged a panel of experts, including some of the most 
respected scientists and engineers in the areas of nuclear 
engineering reactor safety, risk assessment, health physics, 
counterterrorism, social psychology, emergency communications, 
and traffic engineering to advise us as we moved forward with 
our emergency planning improvement efforts. This panel also 
provided comments to Mr. Witt on his draft report, and brief 
curriculum vitae of these experts is attached to the written 
statement.
    Entergy is pleased to provide this testimony, and we are 
prepared to work with Congress as you work toward improving the 
Nation's security and emergency preparedness. We invite the 
members of this committee to visit the Indian Point Energy 
Center in
Buchanan, NY, to see for yourselves the nature of security and 
emergency preparedness.
    That concludes my remarks. Thank you, gentlemen and 
Congresswoman Kelly.
    Mr. Turner [presiding]. Thank you.
    [The prepared statement of Mr. Slobodien follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Turner. Mr. Renz.
    Mr. Renz. Good afternoon, Mr. Chairman, members of the 
subcommittee. My name is William Renz and I am the director of 
nuclear protection services and emergency preparedness for 
Dominion. Dominion is one of the largest electric and gas 
companies in the United States with a diversified and 
integrated energy portfolio. In addition to Millstone, we own 
and operate two other nuclear plants.
    Dominion appreciates the opportunity to provide testimony 
today regarding nuclear security and emergency preparedness. I 
will summarize my prefiled testimony and also address your 
specific question about what, if any, progress has been made by 
FEMA and NRC with respect to the emergency preparedness and 
security of nuclear power stations.
    To better understand the current regulatory oversight of 
these functions, it is important to remember just how much of 
an impact the 1979 Three Mile Island accident had on the scope 
and breadth of nuclear emergency planning. There were many 
lessons learned and the requirements for nuclear emergency 
planning were expanded dramatically in the early 1980's.
    For more than 20 years, State authorities and local 
governments within 10 miles of a nuclear power station have 
worked together with licensees to provide assurance of the 
health and safety of the general public. For many years, it has 
been widely recognized that the level of emergency preparedness 
in communities in and around nuclear power stations is superior 
to that of other localities.
    One of the many changes to the emergency planning 
requirements was the establishment of a 10-mile emergency 
planning zone. Planning for implementing protective actions 
within this 10-mile zone include the ability for offsite 
response organizations to perform a wide variety of emergency 
functions, such as an independent accident assessment, 
radiological monitoring, sample collection, and analysis, 
capability to promptly notify and communicate to the public, 
traffic control strategies and provisions for reception centers 
and congregate care facilities.
    Purely from a technical standpoint, a much-improved 
understanding of how nuclear fuel is affected during a severe 
accident, generally referred to as the ``alternate source 
term,'' indicates that the same bases used to determine the 
size of the 10-mile emergency planning zone would today support 
a significantly smaller size emergency planning zone. 
Nonetheless, we do not think that now would be the time to 
reduce at all the level of emergency planning around nuclear 
plants.
    With respect to security at nuclear facilities before 
September 11, licensees maintained a very high level of 
security in that portion of the plant site called the 
``protected area.'' The protected area includes the nuclear 
reactors, safety systems, the power production facilities, and 
it is isolated from the rest of the overall plant site by 
means, such as concrete, vehicle barriers, double razor wire 
fences, defensive positions at various locations internal to or 
along the perimeter of the protected area, and a highly secured 
entry point for vehicles and employees who enter the protected 
area.
    The protected area also includes state-of-the-art 
technology used to detect and assess any attempted the 
unauthorized entry. Trained and armed responders are positioned 
to ensure that areas vital to nuclear safety will remain 
secure.
    After the attacks of September 11, this very high level of 
security within the protected area was further heightened. 
Additionally, security was expanded to provide an armed 
responder presence and surveillance capability throughout the 
overall plant site.
    Now, to give you an idea of the impact of this type of 
expansion, the protected area for Millstone is approximately 53 
acres.
    The overall plant site is approximately 542 acres, or about 
10 times the size of the protected area.
    The NRC has issued a series of orders requiring significant 
increases in the requirements for security. These new NRC 
requirements are intended not only to fortify a plant site but 
also to ensure that plans are in place to respond to a 
terrorist attack.
    A great amount of time has been spent on table-topping 
terrorist attack scenarios and how law enforcement resources 
would be integrated into such a response. These changes, taken 
in total, are quite far-reaching and comprehensive.
    The attacks of September 11 have also forced licensees to 
considerably strengthen their relationships with intelligence 
communities, install countersurveillance measures and work 
toward the common protection of this critical infrastructure. 
Examples of these new and forming public private partnerships 
are provided in my prefiled testimony.
    With respect to FEMA and NRC oversight, the existing 
emergency planning regulatory framework serves as a solid 
foundation for an increasing level of emergency preparedness 
due to a higher level of integration with law enforcement 
agencies and the intelligence community.
    While emergency planning regulations have not been directly 
changed, the regulatory oversight for nuclear emergency 
preparedness programs certainly has been increased since 
September 11. It was mentioned earlier that communications with 
stakeholders do not appear to be significantly improved since 
September 11. I put to you that we are dealing with a different 
set of stakeholders.
    In the area of nuclear security, NRC continues to raise the 
level of regulatory oversight. In addition to NRC issuing a 
series of orders to increase requirements, the Commission is 
currently considering a significant expansion of the existing 
design basis threat as discussed earlier.
    With respect to the Witt Report, it is unclear to what 
degree this review took into consideration the new efforts 
being taken by the industry and all levels of government in the 
charge of better securing the country's nuclear power stations. 
Nevertheless, we are in the progress of working with our 
stakeholders to improve the level of offsite emergency 
preparedness based on the recommendations provided within the 
report.
    In closing, Mr. Chairman, the existing emergency 
preparedness regulatory framework and our public-private 
partnerships in Connecticut provide reasonable assurance of 
public health and safety. The increased coordination with law 
enforcement agencies and the
intelligence community has substantially strengthened emergency 
preparedness programs throughout the industry.
    Again, I thank you for this opportunity to address this 
subcommittee.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Renz follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Turner. Ms. Howard.
    Ms. Howard. Thank you. Chairman Shays, members of the 
committee, thank you. My name is Angelina Howard. I am the 
executive vice president of the Nuclear Energy Institute.
    Congressman Shays, Mrs. Kelly, Mr. Turner, Mr. Tierney, 
thank you for letting us be here this afternoon.
    The focus of my statement is twofold. First, I will address 
the proven security of our Nation's nuclear power plants. Our 
industry's security was second to none in the industrial sector 
prior to September 11, 2001; and our facilities are even safer 
and more secure today.
    Second, I will discuss the industry's emergency 
preparedness programs, which are really the gold standard 
worldwide. They have been tested and proven in scores of 
nonnuclear emergencies for more than 20 years.
    Today, we can discuss nuclear power plant security and 
emergency preparedness plans, because this industry has had 
these plans in effect since its inception. Although the 
industry's commitment to these two facets of our business spans 
more than 2 decades, our vigilance is even more important today 
to ensure the safety of our work force, the public, and the 
security of the 103 reactors that provide electricity for one 
of every five homes and businesses in our country.
    Clearly, nuclear power plants are major contributors to 
regional electricity supplies. Indian Point, for example, 
produces nearly 2,000 megawatts of electricity, about 20 
percent of the electricity that is used in the New York City 
area.
    Critics have said the plants are not needed and closing the 
plants would raise consumers' electricity bills a marginal 
amount, $50 to $100. We can debate whether the price and how 
the price could change, but just looking historically at the 
past 2 years, when on-peak power prices in the New York City 
area hub have increased substantially, when just one Indian 
Point reactor was shut down, from 43 percent it went up to 50 
percent in the following summer. Shutting down both reactors 
would have an even greater effect on prices, and it is not 
likely to be minimal.
    Nuclear plant safety and security is based on the 
philosophy of defense in depth. This includes plant design, 
construction and operating, as well as exacting Federal 
security requirements that are met and must be met by all of 
our nuclear plants in this country.
    After September 11, the industry and the NRC conducted 
independent reviews of how best to improve our already high 
levels of security. Since then, as Mr. Renz and others have 
testified, the industry has increased the security force by 
one-third, to more than 7,000 highly trained, well-armed 
officers. We have expanded and fortified the perimeter security 
zones, increased patrols within those zones. We have tightened 
access to tour plants and strengthened vehicle barriers. 
Overall, the industry has spent nearly $400 million on security 
improvements.
    We have conducted in-depth studies of the aircraft analysis 
and looked at the impact of aircraft on both the containment 
buildings, spent fuel pools and dry cask storage facilities at 
these plant sites. We would be pleased to give you a separate 
briefing on the results of those analyses.
    We have also enhanced our frequency and coordination with 
local and State law enforcement, the intelligence community and 
the military.
    A recently released White House report recommends 
conducting comprehensive vulnerability and risk assessments of 
the Nation's critical infrastructure so that resources may be 
applied to those areas that represent the greatest risk. The 
nuclear energy industry supports such a recommendation and 
encourages the Nuclear Regulatory Commission to coordinate its 
review of nuclear plant security with the Department of 
Homeland Security.
    Daily operation of nuclear energy facilities is based on an 
integrated approach to protect public health and safety. This 
includes programs to respond to any emergency, whether an 
operational event or the response to a potential terrorist 
attack. As with security, the plant safety begins with its 
design. Safety features are built into the plant. Several 
separate steel and concrete barriers protect the reactor. 
Highly trained, federally licensed reactor operators are 
responsible for safe operations on a daily basis, and they are 
an integral part of the facility's emergency response plan.
    Emergency exercises and drills test emergency response 
capabilities, both at the plant and in nearby towns. The 
industry, State, and local governments participate in these 
exercises, which are evaluated by the Nuclear Regulatory 
Commission and the Federal Emergency Management Agency.
    We know that the emergency response programs work, because 
they have been used to evacuate residents both during natural 
disasters like hurricanes and floods or in other nonnuclear 
industrial accidents.
    You asked for comments on the Witt Report. The Witt Report 
on Indian Point and Millstone's emergency preparedness is now 
final. While we still would take issue with the overall 
conclusions in the report, I note the report acknowledges that 
the two plants' emergency plans comply with Federal 
requirements. The report just takes issue with those 
requirements.
    So if Federal agencies pursue additional review of 
emergency preparedness of nuclear facilities as part of a 
national infrastructure protection, this industry will 
willingly and gladly participate in that review. The nuclear 
industry is constantly reviewing, drilling, and improving its 
emergency preparedness plans; and we will, as a matter of 
course, consider further improvements as our efforts in this 
area continue.
    In conclusion, security and emergency preparedness, just 
like safe operation, are fundamental components of a thriving 
nuclear energy industry; and in all three areas we have an 
exemplary record. As America's consideration of energy security 
and national security grow more and more urgent, we must 
continue to rely on reliable, affordable, clean energy, 
generated at our Nation's 103 nuclear power plants in 
Connecticut, Ohio, and across the Nation.
    Thank you.
    Mr. Turner. Thank you.
    [The prepared statement of Ms. Howard follows:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Turner. Mr. Matthiessen.
    Mr. Matthiessen. Mr. Chairman, Congressman Tierney and 
honorable members of the subcommittee, on behalf of the 20 
million people in the New York metropolitan area who live and 
work in the shadow of Indian Point, I thank you for the 
opportunity to provide testimony on this crucial public health 
and safety issue.
    Mr. Chairman, I am especially indebted to you for hosting 
this hearing and providing leadership in the State of 
Connecticut. I am also glad to see Congresswoman Kelly, our 
Representative in Westchester, here today, who also held a 
hearing. We appreciate that very much, and also appreciate the 
tough questions that you have asked of both NRC and FEMA. These 
are questions that need to be asked of these agencies, and we 
appreciate your leadership in this area.
    You, like we, recognize that the public does have a right 
to know what the issues are surrounding these nuclear power 
plants and the emergency plans.
    I am Alex Matthiessen, executive director of Riverkeeper, a 
not-for-profit environmental organization with over 5,000 
members. Riverkeeper's mission is to protect the Hudson River 
and safeguard the watersheds that make up New York City's and 
Westchester's drinking water supply. Riverkeeper is not an 
antinuclear organization. However, given Indian Point's 
inappropriate proximity to New York City and the consequences a 
major radiological release would have on the area's residents, 
national security and the U.S. economy, we regard Indian Point 
in this post-September 11 world as a unique case that deserves 
special attention.
    Located only 30 miles from the world's financial capital, 
Indian Point is arguably one of the country's most attractive 
terrorist targets. No facility, if successfully attacked, has 
the potential to wreak more economic and psychological damage 
and impose more loss of human life and health than Indian 
Point.
    In this heightened risk environment, we need at least two 
things in order to justify the continued operation of Indian 
Point--plant security sufficient to repel a sophisticated 
terrorist attack and an emergency plan that actually works. 
Unfortunately, at Indian Point, we have neither.
    In this post-September 11 threat environment, the NRC and 
FEMA are scrambling. Unfortunately, they are scrambling to 
protect the status quo and not public safety. It is troubling 
that these agencies are not using language that suggests that 
they are asking the more basic question here: Are these 
emergency plans fundamentally adequate? And, if not, what do we 
need to do about that? And should we be considering shutting 
down Indian Point, considering its close proximity to New York 
City and a dense population?
    I ask the NRC, if not Indian Point, then what circumstances 
would compel the NRC to issue a shutdown order? I, too, am 
alarmed that never in its history has it ordered a shutdown of 
a nuclear reactor. There has to be instances where it made 
sense to do so.
    In January 2002, Entergy commissioned an internal review of 
security at Units 2 and 3. The review, known as the Logan 
Report, revealed that only 19 percent of the guards believe 
they can repel a conventional sabotage event, let alone a 
September 11-type attack.
    Guards admitted they are underqualified and undertrained 
with respect to gun handling, physical fitness and training. 
Guards report that qualifying exams for carrying weapons are 
often rigged. Security drills are carefully staged to ensure 
mock intruders fail. Yet one security guard was able to place 
mock explosives throughout the spent fuel pool buildings three 
times, all in less than 1 minute.
    In addition to weak ground forces, Indian Point is 
virtually unprotected from either a water-based or aerial 
attack. There is no regular Coast Guard presence. The only 
other protection is a structureless security zone enforced by a 
buoy tender and an old Whaler piloted by two day Reservists.
    The NRC admits that the only way to protect nuclear plants 
from air attacks is by improving national airport security. 
However, in response to a 2.206 petition filed by Riverkeeper, 
the NRC acknowledged that there was a gap between security at 
Indian Point and at our Nation's airports.
    In December, the NRC took the astonishing step of issuing a 
decision declaring the risk of terrorism will not be considered 
in issuing or reviewing plant licenses. The NRC claims, ``they 
have no way to calculate the probability proportion of the 
equation, except in such general terms as to nearly be 
meaningless.'' In other words, because you can't accurately 
measure the threat of terrorism, it is OK to ignore it in 
determining whether nuclear plants are safely sited and 
protected. That may be the most bizarre and dangerous rationale 
for inaction I have ever heard coming from a Federal agency.
    The NRC earlier testified that they are not responsible and 
the plant owners are not responsible for protecting against 
enemies of the United States. Well, I would ask the question: 
If that is the case, who is responsible, and which agency of 
the government, if not Entergy, is responsible for protecting 
Indian Point?
    The New York Observer did an article last year where they 
asked all of the--they polled all of the Federal agencies--the 
Defense Department, FBI, CIA, and others--and Entergy--who was 
responsible ultimately for aerial protection? And they all 
pointed fingers at each other, and none could say definitively 
that they were responsible.
    On Friday, James Lee Witt Associates issued the final draft 
of its State commissioned report, in which it criticizes 
virtually every aspect of Indian Point's emergency plan. The 
report concludes that, ``the current radiological response 
system and capabilities are not adequate to overcome their 
combined weight and protect the people from an unacceptable 
dose of radiation in the event of a release from Indian Point, 
especially if the release is faster or larger than the typical 
REP exercise scenario.''
    Last month, in an attempt to dismiss Witt's devastating 
conclusions, FEMA issued its own report, first claiming that 
Witt has raised nothing new, then trying, without success, to 
rebut Witt's findings. Without ever substantiating its 
criticism of Witt's arguments, FEMA somehow reaches the 
conclusion that there is not a single deficiency in Indian 
Point's emergency plan. Astonishingly, FEMA insists that there 
is no difference in responding to a radiological release caused 
by an operational failure and one caused by a terrorist attack.
    However, Witt has a distinctly different view. He cites as 
examples terrorists simultaneously targeting roads and bridges 
to impede evacuation, attacks on responders and spontaneous and 
shadow evacuations spurred by public panic.
    To be clear, the NRC recognizes the possibility of a 
radiological release with or without terrorism in as little as 
1 to 2 hours. Yet, while FEMA claims that it takes fast-
breaking scenarios into consideration, it fails to plan or 
drill for such scenarios.
    FEMA sidesteps those flaws that Witt identifies as 
particularly serious: the congested road network and population 
densities around Indian Point, both of which are fixed givens 
that cannot be altered. FEMA all but ignores emergency 
scenarios involving a spent fuel pool disaster. FEMA overlooks 
Witt's contention that a radioactive plume may travel well 
beyond the 10-mile EPZ.
    FEMA fails to comprehend the significance of the fact that 
many first responders, having little faith in the emergency 
plan, have admitted that, rather than fulfilling their official 
duties, they will seek to protect their own families.
    Probably the most damning statement of all in FEMA's report 
is the Agency's acknowledgment that studies associated with 
NUREG 0654 clearly indicate that, for all but a very limited 
set of conditions, evacuation, even evacuating under a plume, 
is much more effective than sheltering in place. Clearly, if 
you can't shelter, if you can't evacuate, you can't protect the 
people.
    So what has FEMA's response been to the overwhelming 
evidence that Indian Point's plan cannot meet our current 
needs? Finger pointing, bullying and indecision. When counties 
declare that they could not, in good conscience, certify the 
plans were up to date, FEMA wrote a letter to the State 
instructing them to ignore the counties and certify the plans 
over county objections.
    When finally realizing it could not provide reasonable 
assurance that the plan works, FEMA arbitrarily tacked on a 75-
day grace period to the 120 days the State is normally given to 
comply with certification requirements. We worry that all of 
the buck passing and delays are being used by FEMA to give them 
time to figure out how to certify a patently unworkable plan.
    We agree with Mr. Witt that the plan should be improved. 
Certainly, if you make the improvements that he recommends in 
his report, that will help to address a minor accident at the 
plant. But we also agree that plans cannot be fixed to deal 
with the post-September 11 world.
    Chairman Shays, in conclusion, I urge you and the rest of 
the committee to pay close attention to FEMA and the NRC as 
this process unfolds. If I may, I would like to briefly make 
several specific recommendations to the committee.
    Regarding emergency planning, instruct FEMA to start 
delaying and immediately withdraw its approval of Indian 
Point's emergency plan in light of overwhelming evidence and 
unanimous recognition by independent experts, elected officials 
and the public that the major deficiencies in the plan cannot 
be repaired.
    In case the committee is not aware, and I think that FEMA 
made reference to it earlier, or the NRC, FEMA has been faced 
with this issue in the past and acted appropriately. In the 
aftermath of Hurricane Andrew in 1992, FEMA not only 
temporarily withdrew its approval of Turkey Point's emergency 
plan but ordered the Florida nuclear plant to shut down until 
reasonable assurances could be made that the plant would 
actually work.
    Given the terrorist threats and clear deficiencies with 
Indian Point's emergency plan, the situation in New York is 
clearly more serious.
    Congresswoman Kelly, I would encourage you--recently, a 
theory was proposed in Congresswoman Lowey and Congressman 
Engel's hearing last week that it might be the case that FEMA 
and the local counties, in reorganizing the emergency plan, 
actually have essentially quarantined Westchester, whereas the 
evacuation routes used to go north into Putnam and east into 
Connecticut and so forth, all of the routes go south and away 
from the plant but are contained within Westchester. Who knows 
what that means?
    But it is interesting that, rather than sending people away 
to less populated areas, they are actually sending you down to 
more populated areas and, in fact, where the winds are 
typically blowing.
    Regarding Indian Point's security, introduce legislation 
that would require----
    Mr. Turner. Mr. Matthiessen, if you can conclude.
    Mr. Matthiessen [continuing]. That Entergy finance 
hardening of onsite storage and casks for irradiated spent 
fuel.
    Introduce legislation that would require Entergy finance 
federalization of military forces at Indian Point and require 
that the force-on-force test will be conducted at Indian Point 
to test the actual ability to repel a sophisticated terrorist 
attack.
    And, finally, recognize that perhaps Indian Point is a 
unique case, and the plant should be shut down.
    In 1979, in the wake of the Three Mile Island accident, 
Robert Ryan, NRC's director of the Office of State Programs 
stated, I think it is insane to have a three-unit reactor on 
the Hudson River in Westchester County.
    Mr. Turner. Mr. Matthiessen, your time has expired.
    Mr. Matthiessen. Thank you, Mr. Chairman, and thank you, 
members of the committee.
    [The prepared statement of Mr. Matthiessen follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Turner. Mr. Lochbaum.
    Mr. Lochbaum. Good afternoon. On behalf of the Union of 
Concerned Scientists, it is my pleasure to appear before this 
subcommittee. My name is David Lochbaum. I have been UCS's 
nuclear safety engineer for the past 6 years. UCS has worked on 
nuclear plant safety issues for nearly 30 years.
    Nuclear plant security has been one of my top three focus 
areas since 1999. Our attention was drawn to this topic after 
the NRC discontinued its security tests in July 1998. The 
security tests featured simulated attacks by mock intruders, 
sometime just a single person, against the facilities.
    The NRC began testing security in 1991. Approximately half 
of the tests conducted through July 1998 revealed serious 
problems. Public outcry forced the NRC to reinstate the testing 
later in 1998. From reinstatement through September 2001, when 
the NRC once again discontinued the tests, approximately half 
of the tests revealed serious problems.
    While identified and fixed security problems are better 
than unidentified and uncorrected problems, we would prefer a 
declining failure rate, indicating that the nuclear industry 
was taking security seriously and not waiting for the NRC to 
point out its shortfalls.
    On September 10, 2001, the NRC planned to test security at 
14 nuclear plants in the upcoming year. All tests were canceled 
after September 11. The NRC is just now reinstating a modified 
testing program at four plant sites. Since September 11, the 
NRC has issued a series of orders requiring security upgrades. 
For example, access control requirements have been tightened. 
The NRC now wants to background checks to be completed before 
workers roam freely inside nuclear power plants. That didn't 
use to be the case.
    The NRC plans two other orders. One proposed order covers 
security guard working hours. Nuclear plant owners responded to 
the security orders differently. Some orders--some owners hired 
more guards. Others owners added few guards and just worked 
their existing guards longer hours.
    The Project on Government Oversight reported last September 
that some security guards are routinely working six 12-hour 
shifts in a row. When the NRC sampled security guard working 
hours last fall after that report, they found guards at seven 
plants working excessive hours. The proposed order will protect 
against human performance problems caused by fatigue by 
limiting the number of working hours.
    The NRC's other proposed order deals with training 
standards for security personnel. The proposed order will 
reportedly require security guards to demonstrate proficiency 
with their weapons more frequently and under more realistic 
conditions.
    These orders are essentially links in the security chain. 
Some orders strengthened existing links. Others added links to 
the chain. But any chain is only as strong as its weakest link. 
The testing program remains the best measure of that weakest 
link. The test looked for weak links and challenged them. The 
only thing worse than finding a weak link is not finding it. 
NRC-administered security tests, conducted at least once every 
3 years, provide Americans with their greatest protection 
against nuclear plant terrorism. Until all nuclear plants have 
been tested, no one can claim that the terrorism threat is 
being adequately managed. Until then, we merely have good 
intentions.
    The NRC not only stopped security testing after September 
11, it also stopped meeting with public stakeholders on 
security matters. UCS and other public stakeholders fully 
accept that September 11 forced rethinking of the information 
that can be openly discussed.
    But as today's hearing clearly demonstrates, there can be 
responsible public discussions of nuclear plant security 
issues. The NRC refuses to accept this reality. UCS has 
proposed a series of ways for the NRC to reengage with public 
stakeholders in the post-September 11 world. The NRC's repeated 
refusals to interface with UCS and other public stakeholders is 
particularly troubling because the NRC does interface with 
other public stakeholders like the American Nuclear Society.
    It is abundantly clear that the NRC is hiding behind lame 
excuses only to avoid meeting with public stakeholders who 
might express criticisms, like our group. This is unfair and 
unacceptable. UCS would greatly appreciate it if this 
subcommittee would encourage, induce or otherwise force the NRC 
to reengage public stakeholders on security matters.
    The NRC's dismissal of contentions about security or about 
terrorism and sabotage from its licensing proceedings is based 
in part on its promises to upgrade security. The net effect of 
the agency's actions are to exclude the public from intervening 
on security issues in specific licensing cases and also to 
exclude the public from participating in generic safety 
discussions.
    As a minimum, the NRC must listen to security concerns from 
all interested public stakeholders so that the agency has the 
benefit of broad perspectives while they are making policy 
decisions.
    On behalf of UCS, I wish to thank the subcommittee for 
conducting this hearing on nuclear plant security and for 
considering our views on the matter. Thank you.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Lochbaum follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Turner. I would like to thank each of the panelists for 
participating in this.
    Due to the large number of participants in this panel, our 
first round of questions will be for 10 minutes for each of the 
members of the subcommittee.
    I want to thank our chairman, Chairman Shays, for his 
efforts in putting this together. Obviously, taking into 
context with previous hearings that our chairman has had on the 
issue of the vulnerability of our nuclear facilities, the 
information that we have today is certainly very helpful in 
determining whether or not the threat assessment is actually 
being translated into action by the appropriate parties.
    Mr. Slobodien, my first question is to you. In looking at 
your testimony in the written portion, you say the most 
significant point is that an accident at Indian Point plants 
involving the release of large amounts of radioactivity is 
extremely unlikely, even in the event of a terrorist attack of 
the types we have seen on civilian and military targets 
worldwide. You then go on to talk about the reactor core itself 
and its protection.
    I know you are well aware that the testimony that this 
committee has received previously and even the statements of 
our chairman today have indicated that some of the areas of 
vulnerability that have been identified for each plant is not 
necessarily related to the core, and yet you continue to 
dismiss, in your statement any vulnerability or any likelihood 
of vulnerability of the facility.
    That raises a concern on my part, obviously. Because when 
we look at the NRC or yourselves as operators, we would want a 
heightened level of concern and activity, not a dismissive 
level of interest. Can you please describe why you have come to 
the conclusion that it is unlikely to have the impact that 
obviously others that have come before this committee describe 
as significant and real?
    Mr. Slobodien. I think that latter point is indeed the most 
important point. What I am saying here is that the nature of 
the radioactivity at a nuclear power plant, Indian Point and 
all other nuclear power plants, is well understood. It is 
finite. You can't add more to it than what is already there.
    An event that has a severe impact is one which releases 
substantial quantities of that radioactivity. From the nuclear 
core, we talk about an accident that melts the core. From a 
fuel pool, we talk about an accident that involves a fuel pool 
fire. The nature of those accidents is not different whether 
they are initiated by a mechanical problem or a terrorist, 
because the radioactivity, the issue at concern, is the same.
    The response to those kind of events is a symptom-based 
response. That is, emergency planners measure the amount of 
radioactivity, and they take action accordingly to decide on 
protective action.
    So when I say that events are not differentiated based on 
the initiating event, that is what I mean.
    Mr. Turner. So, in other words, if I can rephrase it, your 
emphasis is on a large release, not on the fact that a release 
would be likely; and your testimony doesn't really give us any 
information as to what you would find not to be a large 
release.
    Mr. Slobodien. Of concern to emergency planners and of 
concern to public health are large releases. Small releases are 
not consequential to public health and safety. It takes a very 
large release of substantial quantities of radioactivity to 
have a major impact on public health and safety.
    Mr. Turner. OK. Well, major impact.
    Now, again, this is an area I am unfamiliar with, but it 
would seem to me that, since your response planning is 
evacuation, that the concern level would be one of a release 
that rises to the level of causing an evacuation.
    Mr. Slobodien. Our response plans deal from all of the way 
from very minor to very major. In the most serious accident, 
evacuation may be an appropriate and probably is an appropriate 
response. Sheltering may also be an appropriate response. So we 
do not disregard in any way that may be happening.
    And, in fact, our plans, as you heard from NRC, do take 
into consideration those kinds of events, ones in which there 
is a very large release of very massive quantities of 
radioactivity. That kind of event necessitates actions which 
may include evacuation, sheltering, movement of people.
    Mr. Turner. Let me get back to what my point is. It seems 
to me that the whole point of doing the evaluation of the 
possibility of a terrorist attack on a nuclear facility, what 
actions need to be taken and the ability of looking at the 
safety of the public, is to try to avoid its consequences.
    Your statement is that at this time it is unlikely that a 
terrorist attack to a facility would result in a release that 
would even result in an evacuation.
    Mr. Slobodien. Yes. Because in order for a terrorist event 
to be successful, it would have to do the kind of damage that 
either melts the nuclear core or, similarly, the fuel in the 
spent fuel pool. To accomplish that is extremely difficult, 
even for a well-armed, sophisticated terrorist group. For 
example----
    Mr. Turner. Wait a minute. Well-armed. But your statement 
says the type of attacks that we have seen on civilian targets, 
which includes, of course, the World Trade Center attack. And, 
again, there are people before you who have testified that, in 
fact, there is that risk.
    Mr. Slobodien. I don't dismiss it, sir. An airplane, for 
example, the type that was used at the World Trade Center, if 
it were used as a terrorist weapon, and it is the type which we 
have seen in the past, so I don't dismiss it, if it were to 
crash into the reactor containment building, studies have shown 
that the structure would resist that kind of crash.
    In the case of Indian Point, the fuel pools are similar 
structures with the exception of their roofs, but they are also 
largely below ground. So they are well protected as well by 
adjacent buildings and other structures as well as their 
position from those kind of attacks, the airplane attack.
    So I don't dismiss it. In fact, we do indeed consider it.
    Mr. Turner. Well, your statement does appear to dismiss it. 
It seems, again, that your level of concern is even less than 
the level of our chairman; and I would hope that, if you had 
some greater sense of urgency, perhaps then we could look to 
you for recommendations or look to your organization's 
recommendations as to what might need to be done to better 
prepare or to better protect the public.
    Ms. Howard, in your statement, similarly in the written 
portion, it says, the Witt Report is fundamentally flawed. You 
cite in that two bases for its flaws, the first being that--an 
assertion that a terrorist-caused attack might be worse in 
magnitude than that of merely an accident; and the second being 
that the issue of emergency management processes would be 
impacted by the consequences of a terrorist-caused event.
    Both of those, as you have heard in the testimony today, 
are issues where, if there is a terrorist attack, there is an 
assumption of intent on the part of the perpetrators that is 
different than the level that you would expect in an accident. 
That intent would be to cause the maximum amount of release, an 
accident having no intent, and also that perpetrators might 
have an ability or a plan to impact the processes by which you 
have your orderly, planned and public evacuation. But yet you 
dismiss those. Why?
    Ms. Howard. For the same reasons that we have heard 
testimony earlier. From the absolute radioactive inventory, the 
cause of the event does not create an additional release of 
radioactivity. We look into the massive release of 
radioactivity from an accident, regardless of cause.
    As Mr. Slobodien has testified, you look at what is the 
impact and then plan for that impact, as we have continued to 
review what we need to be doing to protect our national 
infrastructure and the critical infrastructures. If we should 
look and decide that we should look at resultant or subsequent 
impacts of some type of terrorist activity, that needs to be a 
combined effort between the Department of Homeland Security to 
look at how we protect our Nation against enemies of the state.
    Mr. Turner. Thank you.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Ms. Howard, I want to ask you about some of the 
advertisements that--we are going to ask somebody to display 
them for us--some of the advertisements that your organization 
ran in 2002. In the early part of 2002, they were in Roll Call 
and the Hill and the Washington Post down here.
    In those advertisements, they stated, and you will see in a 
moment, that the guards were highly committed, well-trained, 
well-compensated professionals. Is that the industry's 
position?
    Ms. Howard. Yes, it is.
    Mr. Tierney. What about Mr. Lochbaum's testimony a little 
while ago and others that we have heard from that tell us that 
many of these guards are forced to work 72 hours a week? Is 
that what the industry means by highly committed?
    Ms. Howard. No. In those particular advertisements we are 
talking about the individuals themselves and their training. 
And the training is very clear. As we have attempted to 
understand what the specific requirements are, in the past, 
there has been some excessive overtime in some individual 
facilities. That is being corrected.
    The other aspect is that, as you have hired additional 
guards coming into the industry, we are in the process of 
training them to meet the competencies of the individuals that 
you see in these ads. So the individuals that are protecting 
our Nation's nuclear plants are well trained and well 
compensated.
    Mr. Tierney. Well, just the power plant that is near where 
I live in my district, there is quite a substantial amount of 
people working significant overtime on that. You are not trying 
to minimize and say that just a few of the 103 plants have 
people working 72 hours or other excessive amounts of overtime, 
are you?
    Ms. Howard. As additional guards are trained and put on the 
shift, that overtime will be coming down.
    Mr. Tierney. What do we say about the fact that only one in 
four plants--the guards at one in four plants think that they 
can adequately protect their facility? That still seems to be 
the case from the people that I have talked to.
    Ms. Howard. Well, with all respect, I believe that is an 
interview of some particular individuals. There are some who 
have been hired who have not received all of the training. They 
have received training adequate for the positions they have 
been assigned but may understandably want additional training.
    Mr. Tierney. Well, Mr. Lochbaum, your group, POGO, 
interviewed over 150 guards at about half of the plants. Was it 
accurate to say that the information that you got from those 
interviews was that most of them were--a significant number of 
them didn't think that they were adequately prepared to protect 
their plant?
    Mr. Lochbaum. That was the Project on Government Oversight 
that did those surveys. As I understand it, that was their 
finding.
    I think our view on that is--I am not discounting those 
surveys and those results, but it is hard for an individual to 
guage all of the things that go together to form security. That 
is why we would like to see the testing resumed as quickly as 
possible, because that is really the proof in the pudding. If 
you pass the test, it doesn't really matter what the survey 
results were--high, low or indifferent. You are demonstrating 
an adequate level. So we think that the security test is the 
key to having adequate security.
    Mr. Tierney. Fair enough.
    Mr. Slobodien or Mr. Renz, Ms. Howard, from any of you, I 
would be curious to know, we have reports that the guards, 
rather than being well compensated, are oftentimes not very 
well compensated, in fact, sometimes paid as much as $4 an hour 
less than custodians. What is being done about that situation, 
or do you dispute that?
    Mr. Renz. I have no knowledge of that specific example. We 
believe that they are well compensated. We have seen, in recent 
weeks, an increased demand in this type of individual that 
would work that position, whether it is in other fields of 
security or law enforcement or what have you.
    With respect to--just a point of clarification from 
earlier. The overtime worked--you had a wave, a bow wave, if 
you will, after September 11. You essentially went into a--
protecting the entire site. You staffed high numbers of 
additional positions. You secured the overall site, not just 
the protected area, as I mentioned earlier. You then had NRC 
establishing new thresholds, new requirements. You then 
recognized you needed to be supplementing your guard force, 
because you were working them too much overtime. You then 
started a hiring process. You then started a training process. 
And I believe that, at this point in time, that the numbers 
that were reflective last September of the overtime rates are 
not reflective today.
    Mr. Tierney. You know, it is interesting what you are 
saying. On those advertisements they indicate that we were 
ready or we were prepared before September 11, and we are 
prepared now. But what you are telling me is that you weren't 
prepared before September 11, because you have had to add on 
all of these additional precautions.
    Mr. Renz. Well, I am telling you that we were prepared for 
a different standard before September 11.
    Mr. Tierney. Well, do you think that standard before 
September 11 included events of the nature of terrorism or the 
events that happened on September 11?
    Mr. Renz. It did. Absolutely.
    Mr. Tierney. So you don't believe that any of these extra 
precautions by the NRC are necessary?
    Mr. Renz. I believe they are incredibly necessary. That is 
not what I am trying to communicate at all.
    Mr. Tierney. I guess I am confused. If you thought that you 
were well protected before September 11----
    Mr. Renz. We live in a different environment.
    Mr. Tierney. Why do you still think that you need to have 
all these additional standards done?
    Mr. Renz. Before September 11, we met the existing design 
basis threat.
    Mr. Tierney. I understand that. But I just asked you 
whether or not you thought that was adequate to encompass the 
terrorism activities, such as the nature of September 11. I 
thought I heard you say you thought they were.
    Mr. Renz. As we know them today, no.
    Mr. Slobodien. If I might address the matter of Indian 
Point on the question of compensation of security guards. I 
believe they are very well compensated. In fact, our guards are 
members of the Teamsters Union. And I am sure you could ask the 
Teamsters, they bargain well. They are well compensated.
    Mr. Tierney. As they should.
    Ms. Howard, what is your understanding industrywide? What 
would you say is the standard of pay throughout the industry, 
the 101 plants?
    Ms. Howard. The standard of pay, I think, is quite well 
compensated for this type of work. They are highly trained, and 
the compensation is added to that. These individuals, many of 
them are retired military. They have come out of the military 
and gone to work at our facilities, and therefore pay is 
commensurate with military pay and the type of work that they 
are doing.
    Mr. Tierney. OK. Those advertisements also show us 
individuals in flak jackets and semiautomatic weapons. When 
those ads were run back in the early part of 2002, how many of 
the plants required those items?
    Ms. Howard. I can't give you the specifics, but Mr. Renz 
who is in charge of security may.
    Mr. Renz. For Dominion, just for a point of clarification, 
actually, we were approached by the staff shortly after 
September 11 to see if we would consider getting vests, light 
body armor, if you will. And the company agreed to it, and we 
provided that. I want to say I ordered it within a couple of 
weeks, I believe, and provided it as soon as it came in with a 
number of several--in several weeks.
    Mr. Tierney. OK. But, Ms. Howard, you can't tell us 
industrywide on that?
    Ms. Howard. It varies. It certainly varies industrywide. 
But we believe those ads were certainly representative at the 
time and certainly representative now.
    Mr. Tierney. My time, I am told, is up, but I am going to 
call on the good spirits of my chairman here to ask one more 
question, because I do have to leave.
    Mr. Matthiessen, you made a point. You talked about who is 
responsible for defending against the enemies of the United 
States when they might attack a nuclear reactor. I would like 
to just hear from left to right here who do we think should 
share--should have that burden of defending those particular 
sites, and then who should bear the financial burden of that?
    Mr. Wells.
    Mr. Wells. Well, clearly, as I understand it, the Federal 
Government has a responsibility to define what the threat is 
going to be in terms of what is going to be thrown at these 
plants; and then, in turn, the private industry and the 
licensees have to develop a strategy to figure out a way to 
counter that threat and hopefully to deliver something that 
allows them to win. So it is certainly going to be a 
partnership.
    Mr. Tierney. But your partnership encompasses the U.S. 
Government setting the regulations, or the standards, and the 
industry bearing the burden of meeting them?
    Mr. Wells. That is correct. That is the way we understand 
it.
    Mr. Tierney. Thank you.
    Mr. Slobodien.
    Mr. Slobodien. We clearly have the burden to deal with the 
kind of threats which have been assigned to us by the Nuclear 
Regulatory Commission and which will continue to be assigned to 
us, but threats that are national threats by large armies using 
sophisticated weapons in large numbers are what we call enemies 
of the state. That is the responsibility of the Federal 
Government for defense of the Nation.
    Mr. Tierney. Where do you put terrorism in that equation?
    Mr. Slobodien. Terrorism, there is obviously a point at 
which we have to defend, and we do defend against terrorist 
attacks of armed personnel in numbers that are smaller than an 
army and actually is defined for us. It is not something that 
we can talk about in a public session.
    However, a large military force with many weapons is 
something that is defined for us as an enemy of the state and 
is the responsibility of the Federal Government for defense of 
the Nation.
    Mr. Tierney. Now, there seems to be a lot that the NRC and 
the industry don't want to talk about in a public forum. Is 
there some premise that the public knowing about this is going 
to create a problem here?
    Mr. Slobodien. We live by a standard called safeguards. It 
is in the regulations. So there are certain things about which 
we are not authorized to speak in public session. I think there 
is a willingness to talk about it in the appropriate forum, but 
in a public session we are prohibited from making such 
discussions of the details of our security programs.
    Mr. Tierney. These are requirements worked out with the NRC 
and the industry?
    Mr. Slobodien. The NRC establishes what safeguards means. 
You heard Mr. Miller talk about sensitive information, and then 
he used the term safeguards. That is the term in the civilian 
sector that we use for our classified information.
    Mr. Tierney. Thank you.
    Mr. Renz.
    Mr. Renz. Specifically with respect to enemy of the state, 
I think there is overlap in responsibility in repelling the 
design basis threat and responding or defending against an 
enemy of the state. Clearly, 10 CFR stipulates that is a 
Federal responsibility. I look forward to seeing how the 
Federal Government will evolve to respond or position 
themselves to take on that responsibility.
    Mr. Tierney. Thank you.
    Ms. Howard.
    Ms. Howard. Yes. Again, it has to be a partnership between 
the industry and the responsible entities of government, be it 
local as well as the Federal Government. Certainly, for the 
enemy of the state, that should be a Federal responsibility.
    We look forward to working with the Department of Homeland 
Defense as they assess vulnerabilities of all of the critical 
infrastructure and at some point use the standards that have 
been established in security as well as emergency preparedness 
in the nuclear industry over the past 20 years to start 
programs and other critical infrastructure.
    Mr. Tierney. I just want to state--when you talk about 
enemies of the state, where do you put the terrorism factor 
into that?
    Ms. Howard. I certainly would put terrorism at the extent 
that we saw on September 11 into an enemy of the state, as our 
President has.
    Mr. Tierney. So you would think that there would not be the 
final burden of the industry to have to protect its plant 
against that type of an assault?
    Ms. Howard. It is the financial responsibility of the 
industry to meet the Federal requirements of the Nuclear 
Regulatory Commission under the design basis threat.
    Mr. Tierney. If the NRC then decided to raise the standards 
to mean that you had to meet threats of that nature, then you 
would expect that the industry would have to live up to that 
and to meet those?
    Ms. Howard. That is correct.
    Mr. Tierney. Thank you.
    Mr. Matthiessen.
    Mr. Matthiessen. I would say that to suggest or to consider 
federalizing security at our Nation's nuclear power plants 
would be a good step in the right direction. It would be a 
recognition that the current security forces and measures at 
these plants, and in particular plants like Indian Point where 
there are high population densities, that would be a good 
start.
    I, too, agree, though, that not only should you federalize 
these forces, but I do think that the industry should pay at 
least some portion of the cost of doing that. That should be 
included in the cost of doing business.
    Mr. Tierney. Thank you.
    Mr. Lochbaum.
    Mr. Lochbaum. For attacks about the design basis threat 
level, that is the Federal Government's responsibility. I guess 
we view the government's insurance of that responsibility by 
having the Department of Homeland Security run periodic 
exercises similar to the way that FEMA conducts exercises in 
the emergency planning arena to make sure that the local, State 
and Federal authorities are working together. Because the 
Federal response in Kansas is going to be different than the 
one at Seabrook, obviously, because of the presence of Coast 
Guard and Navy, which the Wolf Creek plant in Kansas wouldn't 
be involved.
    Mr. Tierney. I guess my comments have been designed to say 
that design threat basis, I would assume, would be high enough 
so that the industry would realize that a possible threat would 
be something of the nature of terrorism, that they would be 
responsible to then deal with that. But I hear some people here 
suggesting that perhaps taxpayers ought to take the financial 
burden of that, or some aspect of it, even though these are 
profitable private entities.
    Mr. Lochbaum. Well, up to the design basis, even if it is a 
terrorist threat, smaller people than the design basis threat 
level, we think that the plant owner needs to be able to repel 
that, because they are not going to take a survey saying are 
you a terrorist group or just a domestic, disgruntled person? 
They need to be able to defend against that.
    Above that, their force is going to be there to be 
protecting against it, but the government needs to be 
responsible for protecting above that level.
    Mr. Tierney. Well, thank you all very much for your 
testimony today. Thank you, Mr. Chairman, for your kindness in 
letting me exceed my limits.
    Mr. Shays. Thank you.
    I thank all of you for waiting so long and participating in 
this hearing.
    I want to ask one or two questions. You may say this is 
kind of stupid, but--maybe I will agree with you at the end--
but I want to size up a sense of where this panel is coming 
from.
    I am going to ask each of you this question. I will start 
with you, Mr. Lochbaum. Should we shut down all of our nuclear 
plants?
    Mr. Lochbaum. We don't believe so. We will lose some UCS 
members, but we don't believe so, not for security reasons.
    Mr. Matthiessen. No. As I said before, Riverkeeper is not 
an antinuclear group, and nor do we believe that every nuclear 
power plant in this country should be shut down. We do think 
that those in particularly high population density areas should 
be given special scrutiny.
    Ms. Howard. No.
    Mr. Renz. No, not at all.
    Mr. Slobodien. No.
    Mr. Wells. Mr. Chairman, we wouldn't have done a body of 
work to support that.
    Mr. Shays. Right. So the bottom line is, this isn't an 
issue about how we are going to shut down all of our plants.
    The next question is, with the sites that we have, we have 
104 commercial nuclear power plants operating, 64 sites in 32 
States. Of those, are there any that you would shut down, and 
if so, how many? Mr. Lochbaum.
    Mr. Lochbaum. I guess our--the way we would see it is, if 
you run the security test and don't do well on it, then the 
failure or the bad performance on the security test would 
warrant a shutdown until that security problem is fixed.
    Mr. Shays. So one test would be the security test doesn't 
measure up, and your point to us is they haven't been doing 
these security tests.
    Mr. Lochbaum. Right. Nobody knows one way or the other 
whether the security is adequate or not.
    Mr. Shays. That was pretty surprising to me, Mr. Lochbaum, 
because I would think that after September 11 we would have 
done a lot more, rather than none or very few.
    Mr. Lochbaum. It was a good idea in peacetime. We would 
have thought in a heightened threat level it would have been a 
great idea, but it didn't happen.
    Mr. Shays. Mr. Matthiessen, of these 104 plants and 64 
sites, how many do you think need to be closed?
    Mr. Matthiessen. I would personally argue only one, only 
because I don't know any of the details about any of the other 
plants. I only know about Indian Point.
    I would say, though, that where you have an evacuation plan 
that just can't work, the Federal regulators have no choice but 
to shut down the plant. You need to have an operable evacuation 
plan.
    Mr. Shays. You would probably suggest that--you mentioned 
urban areas. So have you done any studies on any other areas?
    Mr. Matthiessen. No. Again, we are a local group. We 
haven't. But I would imagine that Indian Point isn't the only 
plant located in a densely populated area. I know that there 
are some around Chicago and other cities.
    Mr. Shays. Without going through any--just asking each of 
the four of you, is there any plant that you think in the 
United States needs to be shut down?
    Ms. Howard. No, sir.
    Mr. Renz. No.
    Mr. Slobodien. When the plans meet the standard in the 
Federal regulations, their license conditions, and demonstrates 
so, then the answer is no.
    Mr. Shays. OK. Mr. Wells.
    Mr. Wells. We have taken no position.
    Mr. Shays. Thank you.
    Mr. Slobodien, as it relates to Indian Point, you would 
agree that the evacuation plan is wanting somewhat or not?
    Mr. Slobodien. No, sir. I think it is--well, all plans, 
regardless of where they are, merit improvement.
    One of the things that is being done in the case of Indian 
Point is to substantially improve the information in that 
evacuation planning. So I agree with you that the plans need 
improvement, and indeed they are being improved.
    Mr. Shays. Mr. Matthiessen was making the point that in 
densely populated areas you need to pay closer attention than 
perhaps not and not have a nuclear power plant there. Is there 
logic to his argument as you see it, Mr. Slobodien and Mr. Renz 
and Ms. Howard?
    Mr. Slobodien. There are a number of studies by experts, 
including people such as Dr. Dennis Mallett of the University 
of Colorado, Dr. John Sorrenson of Oak Ridge Associated 
Universities, who talk about these kinds of issues; and they 
point out some things that may be indeed counterintuitive. For 
example, in high population zones, there are typically a 
greater extent of infrastructure and response capability. They 
also look at actual responses in such kind of environments.
    I think, therefore, that when one looks at the scientific 
literature on these questions that you are posing you see that 
indeed it is possible to effect an evacuation, even in an area 
such as those around Indian Point.
    Mr. Shays. I am going to come back and I am going to ask 
you why you think that Indian Point represents a particular 
challenge. I tell you why I think it does. I would be curious 
to know. Mr. Renz.
    Mr. Renz. I was just going to mention that. I believe it is 
a site-by-site evaluation, as, actually, Mr. Slobodien just 
said, that you tend to have a higher level of public safety 
infrastructure for a higher level of populus. It has been my 
experience, at least.
    Mr. Shays. Ms. Howard.
    Ms. Howard. I think it is also important to note that 
plants are built in areas of high concentration in order to 
supply the electric load. From our planning and over the years 
of our planning and actual exercising and then in using these 
plans in response to nonnuclear emergencies, we have seen that 
they can be effective. So I don't think that the high 
population density area is of a concern based on that, as well 
as what has previously been said about the infrastructure, 
transportation highway infrastructure, in high population 
areas.
    Mr. Shays. I would say, Mr. Slobodien, you used the word 
``counterintuitive,'' which is a good way to say it would 
really strike me as counterintuitive. It has almost put me at a 
loss of words here, because it is so counterintuitive that it 
is hard to believe.
    Mr. Matthiessen and Mr. Lochbaum, let me ask you this 
question, and I will have the others respond to it as well. 
First off, I am not aware of any nuclear plant that has been 
built in the last 20 or 30 years. What is the last one? How 
many years ago? Can someone tell me?
    Mr. Renz. There are those built and started in the last 20 
years.
    Ms. Howard. None have actually started construction. The 
last came on line in the early 1990's.
    Mr. Shays. But, theoretically, we could still have one 
built. There is no absolute prohibition. It is just cost and 
other factors and all of the requirements and regulations make 
it unlikely, correct?
    Ms. Howard. Well, yes. There is much interest in building 
new nuclear plants, both on the part of companies to supply 
additional electricity going forward as well as on the part of 
the government in order to assure an adequate supply of 
nonemitting generation in this country and for energy security 
and energy diversity. So there are plans for--that we are 
putting together today.
    Mr. Shays. Well, let me ask you this, Ms. Howard, first. 
Given the current NRC siting guidelines, would the NRC license 
a plant to operate in a densely populated area?
    Ms. Howard. I think you would have to look at the existing 
site, the extensive siting guidelines. But I think that 
certainly that is taken into account. The population density is 
taken into account.
    Mr. Shays. As a plus or a minus?
    Ms. Howard. It is part of a number.
    Mr. Shays. By the NRC. Not being counterintuitive.
    Ms. Howard. It is part of a number of factors that are 
taken into account.
    Mr. Shays. As a plus or a minus?
    Ms. Howard. I don't consider it a minus.
    Mr. Shays. I didn't ask you what you consider. But does the 
NRC consider it as something that they consider as a plus to 
have it in a densely populated area, or do they consider it not 
a place they would recommend?
    Ms. Howard. I would say a densely populated area is not an 
area that would be looked favorably for siting of new plants.
    Mr. Shays. OK.
    Mr. Matthiessen, Mr. Lochbaum, do you want to jump in on 
any of this?
    Mr. Matthiessen. Well, yeah. I would just say there is a 
reason why the NRC's new guidelines would never allow it to 
site a plant in Westchester County, is precisely because of the 
population densities around the plant. And do I find it also 
counterintuitive to suggest that the more sophisticated or 
larger metropolitan areas that the evacuation planning or 
safety emergency plan is going to be better. That might be in 
fact the case, but it doesn't take away from the fact that you 
also have more congested roads and much more dense populations.
    Mr. Lochbaum. I don't know anything in the NRC's 
regulations that would prohibit siting a plant in a densely 
populated area from a pure regulation standpoint.
    I think, to its credit, the NRC's regulations ensure that 
all people, even if they live in Kansas--or my sister lives 
close to a plant in the South. Even though it is not a very 
heavily populated area, I want to make sure that she is 
protected just as well.
    In the NRC's rules, they don't distinguish, they don't say 
there is not enough of you for us to be concerned about around 
this plant; and that would be applied no matter where anybody 
wanted to site a plant in the United States. They would want to 
make sure that the plant met the appropriate regulations.
    I think the focus of this hearing is appropriate. Is FEMA 
and the NRC applying the right standards to ensure that 
protective activities could take place if they were needed? 
That is--if that answer is yes, and we have reasonable 
assurances that answer is yes, then it doesn't really matter 
where you site the plant. If we don't know the answer to that 
question with any certainty, then we need to put the plant out 
in the boonies somewhere where we are harming as few people as 
possible.
    So I guess that would be my long-winded answer to that 
question.
    Mr. Shays. I was just thinking if I lived near this plant, 
and I wanted an evacuation plan, I could probably go to my wife 
and finally justify why I should buy an expensive boat. It 
would probably be the best way, just go upriver.
    I just want to--I will come to a conclusion here, Mr. 
Slobodien, but tell me what--be the person who's going to be 
candid about the challenges dealing with an evacuation plan 
about Indian Point in particular, since that happens to be the 
closest to where my constituents live. I'll start you out. If 
you're on the east side of the Hudson, you either have to go up 
to the Tapanzee--I mean, get to the Tapanzee bridge, go to the 
other bridge north of that, I guess, or head east. The problem 
if you head east is what?
    Mr. Slobodien. The concern of course, is understanding 
where you might be affected, and let me point out that the 
predominant windflow directions that are around Indian Point 
are in the Hudson River Valley, because the topography of the 
valley, 95 percent of the time the winds flow in the Hudson 
Valley regardless of the incident wind direction. So people 
from the east--people on the east and people on the west are at 
substantially less risk than you might think because of the 
prevailing weather conditions. The----
    Mr. Shays. But most of the population is east of the 
Hudson, correct?
    Mr. Slobodien. That is correct.
    Mr. Shays. And they're not going to likely go west. They're 
going to have to all go east, correct?
    Mr. Slobodien. Correct.
    Mr. Shays. Isn't one of the challenges that people will be 
tripping over each other in their effort to get out?
    Mr. Slobodien. I think the presumption perhaps that we're 
operating under is that--and you should tell me--is that all 
people in the area would have to evacuate. We believe, based on 
the physics of plumes, that the people who would be affected 
are really very few because of the nature of the plumes. And if 
one understands plumes, and this gets back to my point earlier 
made in my testimony about the need for education and public 
outreach, when that is clearly understood, when you realize 
that a plume is like the smoke from a smokestack, it's not 
different in terms of its shape and size, you may have some 
confidence about the actions that you can take. It's only when 
you believe that the whole area is going to be instantaneously 
or very rapidly affected that you believe that you have to 
evacuate those large areas. Such is not the case.
    So for us, for me in particular, education is critical in 
this matter. When we understand the hazard, when we understand 
the nature of the risk, we're better able to deal with it. And 
I think that in--so in the example that you point, people 
living to the east, it's very unlikely that they would have to 
move at all to avoid the risk. They might choose to move 
because they would be concerned, but they would not have to.
    Mr. Shays. Mr. Wells, in your highlights you point out in 
2001 GAO reported that over the years NRC had identified a 
number of emergency preparedness weaknesses at Indian Point II 
that had gone largely uncorrected, and then in the next 
paragraph it says, ``Since GAO's 2001 report, NRC has found 
that emergency preparedness weaknesses have continued.'' So 
what am I to conclude from those two statements?
    Mr. Wells. You have to have a lot of patience because these 
problems have been identified many times as early as 1996. 
They're still being corrected. Some of them are falling off; 
some of them are being fixed. Some new problems are being 
found, which is probably a good thing, but of concern is the 
continuing problems that have been identified over and over 
again that still seem to don't have a total fix yet. That's of 
concern.
    Mr. Shays. I'm going to end with this. I'm going to end 
with Mr. Bond's answer no; that had he seen the plan, did he 
know what he and his constituency was supposed to do, and the 
answer was no. Now, I want each of you to react to that and 
tell me what that means. Mr. Wells, we'll start with you.
    Mr. Wells. Is there advantage to going first?
    Mr. Shays. Were you surprised?
    Mr. Wells. No. One would not be surprised. However, I 
think, as I point out in my statement, finding problems is 
probably a good thing because it forces attention to be paid to 
fix things and get things moving toward a more positive 
direction.
    Mr. Shays. Mr. Slobodien.
    Mr. Slobodien. Given where he lives in New Canaan, CT, I'm 
not surprised. He is far from the Indian Point plant. He's far 
from the Millstone plants, which are in Connecticut. His risk, 
therefore, is extremely low and while in the case of Indian 
Point he lives within 50 miles, that emergency planning zone is 
not sized for the purpose of dealing with acute threats.
    Mr. Shays. I'm going to react it to what you just said, 
since I happen to be very familiar with the area. It's 24 miles 
away, and the plan is directing people right through his 
community.
    Mr. Slobodien. I'm not--the plan for Indian Point?
    Mr. Shays. Yes.
    Mr. Slobodien. I'm not aware that's the case. I think it's 
directed in--to the southeast.
    Mr. Shays. Southeast. How much further southeast can you 
go?
    Mr. Slobodien. Is he in New Canaan, CT?
    Mr. Shays. Correct.
    Mr. Slobodien. So I think the plan is actually directing 
people to the south of him, south and east of him, not into 
Connecticut.
    Mr. Shays. Not into Connecticut at all?
    Mr. Slobodien. The Indian Point--the plans established by--
in this case it's Westchester County and Putnam County, would 
have people moving to--out into eastern Putnam County and 
southeastern Westchester County.
    Mr. Shays. OK. And then where do they go?
    Mr. Slobodien. At that--then they go where they choose.
    Mr. Shays. Mr. Slobodien, you had me. I'm thinking you're a 
sharp guy, but all of a sudden I'm beginning to wonder. I mean, 
good grief, where do they go after that?
    Mr. Slobodien. Well, sir, they don't have to go beyond that 
point to be out of harm's way.
    Mr. Shays. And you really believe that they're going to 
just say, oh, the experts have told me that if I'm 30 miles 
away, I'm just fine? Do you really believe that? Do you really 
believe that's what's going to happen?
    Mr. Slobodien. If I do my job correctly and get information 
to the public, and if the NRC and FEMA and others do the same, 
then the public will have a better understanding of what the 
hazard is and will act appropriately. Today they may be 
frightened and act inappropriately.
    Mr. Shays. So it's your testimony before this committee 
under oath that no one in Connecticut needs to leave anywhere?
    Mr. Slobodien. From----
    Mr. Shays. From any--a serious destruction of Indian Point 
does not require anyone from Connecticut to leave?
    Mr. Slobodien. I think it would be exceedingly unlikely 
that anyone living in Connecticut would have to take an action 
as a result of an accident at Indian Point to avoid acute 
health risk.
    Mr. Shays. I was so ready to leave this panel and get on 
with life here, but is that your view, Mr. Renz?
    Mr. Renz. I think you're asking a science-specific question 
with respect to Indian Point that I'm not familiar with.
    Mr. Shays. But I'm asking--it's a community 24 miles away 
from a major nuclear power plant.
    Mr. Renz. Sure.
    Mr. Shays. And I just described to you a scenario that this 
plant has been destroyed, and I'm hearing an expert say folks 
in Connecticut 24 miles away don't need to be concerned.
    Mr. Renz. I think everybody needs to be concerned. I don't 
know that based on your definition of destroyed, your worst-
case design basis accidents would not have you have any concern 
at 24 miles from an acute exposure standpoint. There would be, 
if I understand it, no need for protective actions----
    Mr. Shays. It's very important for you both to put this on 
the record because this will be--we'll probably have another 
hearing just on this whole issue because this fascinates me.
    Ms. Howard.
    And this may be what you believe, and you may be right. 
You're the experts, right? But my view is from everything I've 
learned, it's hard for me to put what you're saying in the 
context of what you're saying.
    Ms. Howard.
    Mr. Slobodien. May I offer a suggestion?
    Mr. Shays. Sure.
    Mr. Slobodien. There are documents that describe some of 
these consequences. Scientific documents such as NUREG 0396, 
which describes the consequences from a very large release of a 
very serious accident at a nuclear power plant, and it talks 
about the radiation exposures and the dose consequences and the 
health effects, and it was, in fact, one of the documents that 
was used to define the size of the emergency planning zone.
    Mr. Shays. So when I think of something like Chernobyl, I'm 
just thinking of something totally unrealistic, nothing like 
that, whatever, that's going to be your view.
    Ms. Howard, and I'm going to get down to the other 
gentlemen. Yes.
    Ms. Howard. Well, certainly let me comment on your comment 
on Chernobyl.
    Mr. Shays. No, not yet. Do the other one first, and then 
we'll do Chernobyl.
    Ms. Howard. Again, as Mr. Slobodien just mentioned, there's 
a scientific basis for the inventory that could be released. 
The emergency planning area where evacuation or some type of 
protective action should take place is deemed less than 10 
miles. We've kept it at the 10 miles. The 50 miles is from a 
standpoint of looking at over time and monitoring of any 
disposition of radioactive isotopes from the standpoint of food 
or water supply.
    Mr. Shays. Do you agree with what Mr. Renz and Mr. 
Slobodien have said?
    Ms. Howard. Yes, I do.
    Mr. Shays. That basically the only thing you have to be 
concerned is what's in the 10 miles, and 24 miles away you 
don't have a problem? I don't want to put any words in anyone's 
mouth here because this is heavy stuff.
    Mr. Renz. Point of clarification. One of the assumptions 
that lays the basis for the 10 miles is that if you plan out to 
10 miles, you have an established infrastructure that you can 
expand upon should the need arise on an ad hoc basis. So the 
planning--the assumptions do not----
    Mr. Shays. But Mr. Bond doesn't need to know about that 
because he is 24 miles away.
    Mr. Renz. You would be advised on an ad hoc basis at the 
time. I mean, it is so unlikely that you would have protective 
action outside of--anywhere outside of 10 miles.
    Mr. Shays. And it's so unlikely that people from that area 
wouldn't come to New Canaan, which I'm being facetious now.
    Mr. Renz. That's a function of public information, public 
education----
    Mr. Shays. It's a function of public reaction to a 
disaster.
    Mr. Renz. Exactly.
    Mr. Shays. And you and I know that the public is not going 
to sit by because two experts came to a panel and said you 
don't need to be afraid. And if you--if we should be saying to 
people they don't need to be concerned unless you're 10 miles 
or in, I just want to make sure that I'm not practicing bad 
medicine.
    Mr. Matthiessen.
    Mr. Matthiessen. Yeah. I think it's important to note that 
a few of the other panelists have made reference a couple times 
to acute exposure, and I know that Mr. Slobodien in the 
newspaper around our area in Westchester was quoted as 
admitting that the evacuation plans for Indian Point really are 
designed to protect against acute illness; i.e., shorter-term 
illnesses and then perhaps death within a couple days or a 
couple weeks. And, in fact, the NRC's own study as recently as 
a year or 2 ago cited the effect of a radiation dispersion 
event as a result of a spent fuel fire, and they said that you 
would have potentially tens of thousands of long-term cancer-
related deaths as far away as 500 miles--up to 500 miles away 
from a nuclear power plant. So I think that does fly in the 
face of what these folks are telling us.
    Also just to mention about the wind direction, I think that 
Mr. Slobodien is right that at the lower altitudes the wind 
does tend to go north or south up and down the Hudson Valley, 
but the higher altitudes it tends to go west to east, and, 
therefore, in most cases headed toward Connecticut, sometimes a 
little north, sometimes a little south.
    Mr. Shays. Mr Lochbaum.
    Mr. Lochbaum. I guess I'm a little skeptical, particularly 
at----
    Mr. Shays. Skeptical of what?
    Mr. Lochbaum. The Entergy claim that only people living 
within 10 miles would have to take any action for their 
protection. I think if that were--if there were a strong basis 
in fact for that, the industry and the NRC wouldn't be before 
the Congress asking for renewal of the Price-Anderson Act.
    You know, until the industry is willing to back up its 
words with its money instead of my money, I'm going to remain a 
little bit skeptical of such claims.
    Mr. Shays. Refresh me, Price-Anderson Act being?
    Mr. Lochbaum. Price-Anderson provides Federal liability 
protection in case of a nuclear power plant accident outside 
the fences.
    Mr. Shays. But you know that sometimes people sue even when 
they don't have a right to, so you understand that in deference 
to----
    Mr. Lochbaum. The only thing about Price-Anderson is you 
don't have to establish fault, you just have to show damage. So 
it alleviates some of the high burden of lawsuits.
    Mr. Shays. Well, now, why don't you tell me about 
Chernobyl. I was in Norway and meeting with scientists telling 
me that they were actually getting particles, radioactive 
particles, that were the result of Chernobyl. So tell me about 
that.
    Ms. Howard. Well, sir, the design of the Chernobyl facility 
did not have containment. It also was a graphite moderated 
core, and, therefore, because of the heat that occurred there, 
it caught fire, and you had an aerosol effect without any 
containment, just----
    Mr. Shays. I understand that part of it. In other words----
    Ms. Howard. And----
    Mr. Shays. But it wasn't 10 miles.
    Ms. Howard. Well, again, you would not have those types of 
reactors anywhere outside of the former Soviet Union, and they 
have been changed significantly.
    Mr. Shays. Right. But I'm really out of my territory here, 
but we are putting something on the record, and what I want to 
be clear about is is it your testimony that because of the type 
of fuel we use, that we only have to be concerned 10 miles; or 
is it your testimony that because of the way we isolate the 
fuel, that we only have to be concerned 10 miles?
    Ms. Howard. It's a combination of the type of design of the 
facility, the use of containment. So there were many factors 
that led to that being an inherently unsafe situation along 
with the tests that caused the reactor--so that overrode safety 
systems, and so there are multitudes of differences, and you 
would never have the type of reactor that the Chernobyl type of 
reactor is licensed in the Western part of the world.
    Mr. Shays. Let me--Mr. Chairman, if I could just put on the 
record my view of what I've heard and say that I know we will 
followup. I am surprised that we have never--it's appeared 
we've never temporarily shut down a plant because of a question 
about an evacuation plan. It would strike me in the history of 
our experience with nuclear energy and with the various sites 
around the country, that there would have been some plan that 
wasn't adequate that would have required us to temporarily shut 
down. So that's one thing that surprised me.
    Another thing that surprised me is that with the experts 
today from the NRC, that they would basically think that 
because they tried to anticipate any type of disaster, that 
even though they didn't anticipate September 11 and what 
terrorists could do, that if it's a shutdown, it doesn't matter 
if it's a terrorist--if there's a breakdown, it doesn't matter 
if it's a terrorist or not. It's the same thing, and I'm struck 
by the fact that's absurd.
    I am surprised by the industry's suggesting that, one, that 
we only have to be concerned 10 miles, and that may be true, 
but that I believe that if you're anywhere near that plant, 
you're leaving. And I will tell you this: If I had a child, or 
my wife and I were from New Canaan and there was a problem at 
that plant, I'd be leaving New Canaan faster than you could 
imagine, and I wouldn't depend on the three of your testimony 
to make me feel good about it. And maybe that's a weakness on 
my part, but if I would do that, I bet there are a lot of other 
people who would, and for Mr. Bond not to be told about a plan 
and for us in the State of Connecticut not to have a 
contingency plan to me is pretty alarming.
    So I have a lot more questions than I have answers, but, 
you know, I guess questions are a good way to start this 
dialog. I have supported nuclear energy. I do support it. I do 
think, though, we need to have some light-year improvement on 
how we protect these facilities. I am concerned not what's 
under the hardened area, the reactor. I'm concerned with the 
brains, and the brains aren't under the hardened area, and it 
strikes me that if the brains mean something, if they're not 
working right, bad things happen.
    And so this will be something that we're going to pursue, 
and I do appreciate the patience of all of you. You're experts, 
and I don't pretend to be, but there's just something that 
tells me there's something wrong here, and I'd like to get a 
handle on it.
    Mr. Wells--and I'm going to allow each of you to close up 
here. Mr. Wells, any closing comment?
    Mr. Wells. Yes, Mr. Chairman. The Congress passed the 
Government Performance Results----
    Mr. Shays. Excuse me. With your permission, Mr. Chairman. 
I've taken over.
    Mr. Turner. Absolutely, Mr. Chairman.
    Mr. Shays. I'm in the wrong chair to do this. Mr. Chairman, 
would it be all right if the gentlemen just closed up? Thank 
you.
    Mr. Wells. Thank you, Mr. Chairman.
    The Congress passed the Government Performance Results Act, 
which had challenged the Federal agencies to establish goals in 
which they could be measured against for performance. The 
Nuclear Regulatory Commission--one of the Federal agencies--has 
four goals. One of those four goals is public confidence. As 
demonstrated today in this hearing and all the audit work 
that's been done over time. We look forward to working with the 
Congress to help the NRC increase and improve its public 
confidence.
    Mr. Slobodien. Thank you, Mr. Chairman.
    As we've heard today, this is obviously a very difficult 
topic, and that leads me to believe that among the two most 
important things that we in this Nation can do are improve the 
education and base it on sound science, and I think that those 
are missions for all of us to take on. We at Entergy certainly 
intend and are doing that wholeheartedly. Thank you, sir.
    Mr. Renz. I, too, would like to thank you. With respect to 
public information, the nuclear industry, in my opinion, for 20 
years, for over 20 years, has been an open book trying to 
provide public education in differing venues, and I think you 
saw it here today, difficulty with sharing information due to 
restricted information concerns, sensitive information, 
safeguard information. I think we do have a challenge before 
us, and that is to be able to effectively educate and inform 
the public moving forward and maintaining a high level of 
security at the stations.
    I would add one point of clarification to one of the 
remarks you made, and that was with respect to NRC never 
shutting down a plant temporarily due to emergency planning. I 
think Turkey Point was the example raised earlier today, and I 
do know a number, at least two sites, that were delayed in 
their initial licensing due to questions regarding the 
effectiveness of the emergency response plans, and I thank you 
very much for this opportunity.
    Mr. Shays. Thank you for putting that on the record.
    Ms. Howard. Again, I thank the committee and look forward 
to a continuing dialog, because, just as we've all said, the 
communication with the public needs to be two-way, and we need 
to continue to foster a good open sharing of information, and 
we look forward to coming back to the committee to do that.
    Mr. Matthiessen. Thank you, Mr. Chairman. I would just say 
in summary that I'm concerned that everything that seems so 
obvious in terms of the problems of security and evacuation 
planning at Indian Point are not apparently as obvious to FEMA 
and the NRC. There are over 270 elected officials in New York, 
Connecticut, and New Jersey who very much want to see this 
plant close as well as the majority of the local residents in 
the surrounding area. I do again see Indian Point as a special 
case, and if there's ever a case for the NRC for the first time 
in its 30-year history or 40-year history to initiate the 
shutdown of a nuclear reactor, I think that this is certainty 
it. And I appreciate very much your support on this issue, and 
I encourage this committee and others in Congress to continue 
to scrutinize the NRC and FEMA as we go forward in this Indian 
Point process.
    Mr. Shays. Let me just state I've asked for a temporary 
suspension until a plan is adopted.
    Mr. Matthiessen. I understand that, and we appreciate that.
    Mr. Shays. Thank you.
    Mr. Lochbaum. I'd like to thank this subcommittee also for 
holding this hearing and inviting us to participate. It's my 
understanding at the Turkey Point event, that it was FEMA that 
kept the plant shut down. The NRC thought that it was OK to 
restart without the emergency plan. So Turkey Point was the 
plant, but NRC wasn't the white hat on that. It was FEMA, at 
least in my understanding of that event. Thank you.
    Mr. Turner. Mr. Chairman, I want to thank you for pursuing 
this issue. Obviously this is one that goes to the issue of 
public confidence, and I think there are some serious issues 
that are raised that need to continue to be fleshed out so we 
don't have the possibility of important issues being dismissed 
and so that we look at real ways to address them. So I want to 
congratulate you on your efforts to continue to pursue this.
    With that, we adjourn. Thank you.
    [Whereupon, at 6:29 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   - 

</pre></body></html>
